<html>
<title> - EXPLORING AUGMENTED REALITY</title>
<body><pre>[Senate Hearing 114-638]
[From the U.S. Government Publishing Office]


                                                       S. Hrg. 114-638

                      EXPLORING AUGMENTED REALITY

=======================================================================

                                HEARING

                               BEFORE THE

                         COMMITTEE ON COMMERCE,
                      SCIENCE, AND TRANSPORTATION
                          UNITED STATES SENATE

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           NOVEMBER 16, 2016

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation
                             
                             
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]  
      
      

                     U.S. GOVERNMENT PUBLISHING OFFICE                    
25-407 PDF                  WASHINGTON : 2017                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1b7c6b745b786e686f737e776b3578747635">[email&#160;protected]</a> 
                                       


       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                   JOHN THUNE, South Dakota, Chairman
ROGER F. WICKER, Mississippi         BILL NELSON, Florida, Ranking
ROY BLUNT, Missouri                  MARIA CANTWELL, Washington
MARCO RUBIO, Florida                 CLAIRE McCASKILL, Missouri
KELLY AYOTTE, New Hampshire          AMY KLOBUCHAR, Minnesota
TED CRUZ, Texas                      RICHARD BLUMENTHAL, Connecticut
DEB FISCHER, Nebraska                BRIAN SCHATZ, Hawaii
JERRY MORAN, Kansas                  EDWARD MARKEY, Massachusetts
DAN SULLIVAN, Alaska                 CORY BOOKER, New Jersey
RON JOHNSON, Wisconsin               TOM UDALL, New Mexico
DEAN HELLER, Nevada                  JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               GARY PETERS, Michigan
STEVE DAINES, Montana
                       Nick Rossi, Staff Director
                 Adrian Arnakis, Deputy Staff Director
                    Jason Van Beek, General Counsel
                 Kim Lipsky, Democratic Staff Director
              Chris Day, Democratic Deputy Staff Director
       Clint Odom, Democratic General Counsel and Policy Director
                            
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on November 16, 2016................................     1
Statement of Senator Thune.......................................     1
Statement of Senator Nelson......................................    58
    Prepared statement...........................................    58
Statement of Senator Wicker......................................    61
Statement of Senator Peters......................................    63
Statement of Senator Daines......................................    65
Statement of Senator Booker......................................    67
Statement of Senator Blumenthal..................................    72

                               Witnesses

Brian Blau, Research Vice President, Gartner.....................     3
    Prepared statement...........................................     4
Ryan Calo, Lane Powell and D. Wayne Gittinger Assistant 
  Professor, University of Washington School of Law, and Faculty 
  Co-Director, University of Washington Tech Policy Lab..........    26
    Prepared statement...........................................    27
John Hanke, Founder and Chief Executive Officer, Niantic, Inc....    41
    Prepared statement...........................................    43
Brian Mullins, Chief Executive Officer, DAQRI....................    47
    Prepared statement...........................................    49
Stanley Pierre-Louis, Senior Vice President and General Counsel, 
  Entertainment Software Association.............................    52
    Prepared statement...........................................    53

                                Appendix

Response to written questions submitted to Brian Blau by:
    Hon. Marco Rubio.............................................    75
    Hon. Joe Manchin.............................................    77
Response to written questions submitted to Ryan Calo by:
    Hon. Marco Rubio.............................................    78
    Hon. Joe Manchin.............................................    79
Response to written questions submitted to John Hanke by:
    Hon. Marco Rubio.............................................    80
    Hon. Joe Manchin.............................................    82
Response to written questions submitted to Brian Mullins by:
    Hon. John Thune..............................................    82
    Hon. Marco Rubio.............................................    88
    Hon. Joe Manchin.............................................    97
Response to written questions submitted to Stanley Pierre-Louis 
  by:
    Hon. John Thune..............................................   100
    Hon. Marco Rubio.............................................   101
    Hon. Joe Manchin.............................................   106

 
                      EXPLORING AUGMENTED REALITY

                              ----------                              


                      WEDNESDAY, NOVEMBER 16, 2016

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 3:06 p.m. in room 
SR-253, Russell Senate Office Building, Hon. John Thune, 
Chairman of the Committee, presiding.
    Present: Senators Thune [presiding], Wicker, Fischer, 
Gardner, Daines, Nelson, Klobuchar, Blumenthal, Booker, 
Manchin, and Peters.

             OPENING STATEMENT OF HON. JOHN THUNE, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    The Chairman. Good afternoon. This hearing will come to 
order. I want to thank everyone for coming today to discuss the 
exciting potential of augmented reality technology.
    This past Fourth of July weekend, many Americans began to 
notice an unusual phenomenon: more and more people--far more 
than usual--were going outside. Suddenly, sidewalks, parks, and 
local landmarks were packed with people wandering the great 
outdoors while burying their heads in their smartphones.
    These people, of course, were playing the smash hit mobile 
game, Pokemon GO. But by going out into the real world to find 
and capture digital creatures, they weren't just playing a 
game. They were getting their first exposure to the 
possibilities of augmented reality.
    Many of us have heard of, or experienced, virtual reality, 
which usually involves putting on a headset that covers users' 
eyes, surrounding them in an artificial world. However, 
augmented reality, or AR, is different. AR takes digital 
information and superimposes it onto the real, physical 
environment. Rather than closing the user off from the real 
world, AR adds virtual content on top of the real world.
    Pokemon GO accomplishes this by using a smartphone's camera 
to record the real world while the game displays digital 
characters over the image on the phone's screen. More advanced 
AR headsets, currently in development and in use by industry, 
have mixed reality capabilities that can map the user's 
surroundings in real time and allow virtual content to 
convincingly interact with the physical world.
    These more advanced AR devices and techniques show that the 
potential of this technology goes far beyond smartphone games 
and could one day have a major impact on manufacturing, 
transportation, medicine, and eventually the daily lives of 
average Americans. For example, imagine a worker in a factory 
whose job is to assemble an advanced jet engine for a new 
airliner. With an AR headset, that worker could see step-by-
step instructions floating above his work station, with the 
exact spot he is supposed to weld being digitally highlighted.
    Or imagine a medical student who can train on a virtual 3D 
model created from scans of a real patient. Or an EMT in a 
rural area who can receive real-time instructions from a 
specialist in a hospital hundreds of miles away on how best to 
stabilize a patient while help is on the way. AR technology 
promises to take all of the information that has been confined 
to the Internet over the past few decades and integrate it into 
the physical world, where such content can be most useful and 
do the most good.
    Advanced manufacturing and other industries have already 
begun using AR for training new workers and have seen great 
improvements in safety and efficiency. We often hear about 
technology replacing workers, but AR provides an opportunity 
for technology to enhance workers instead, by helping them with 
their training and making them more productive.
    In previous hearings this committee has held on new and 
emerging technologies, such as the Internet of Things and 
Autonomous Vehicles, I stressed how important it is for the 
government to avoid jumping in too soon with a heavy-handed 
regulatory approach. AR is no different. While there are 
certainly important policy questions to consider, such as the 
privacy of user data recorded by AR devices, it is essential 
that policymakers not unnecessarily stifle innovation. Instead, 
we should foster an environment that maximizes the potential 
benefits of this promising new technology.
    There may be obstacles, regulatory or otherwise, to 
achieving the full potential of AR. Like a Pokemon trainer, the 
job of this committee is to ``catch them all.''
    Earlier today, the Committee had the great opportunity to 
see AR in action firsthand. DAQRI, Niantic, and the U.S. Army 
Edgewood Chemical Biological Center provided us with a great 
demonstration of the Smart Helmet and a heads-up display for 
automobiles, which gives drivers important information without 
having to take their eyes off the road; Pokemon GO and other 
Niantic apps; and military-focused applications of AR.
    Even though the only reality they could augment was the 
reality of the Russell Building, it was easy to see the 
potential of this new technology for a wide range of 
applications. I want to thank them for making their products 
available to us today.
    I look forward to hearing from all of our witnesses to 
learn more about their experiences with AR and their visions 
for the future of this promising new technology.
    I would say that we would recognize the Ranking Member, 
Senator Nelson, but I know he's on the floor, speaking, at the 
moment. So I think what we'll do when he arrives is give him an 
opportunity to make an opening statement, but proceed with the 
panel.
    I want to welcome all of our witnesses who are here today: 
Mr. Brian Blau is the Vice President of Research for Gartner, a 
technology research and advisory company. Mr. John Hanke is the 
Chief Executive Officer for Niantic, Incorporated, developer of 
Pokemon GO. Mr. Brian Mullins is the Co-Founder and Chief 
Executive Officer of DAQRI. Mr. Stanley Pierre-Louis is the 
General Counsel for the Entertainment Software Association, and 
Mr. Ryan Calo is an Assistant Professor of Law at the 
University of Washington.
    I want to thank you all for being here and for taking the 
time to share the things that are going on in your world with 
us. As I said, we find it very exciting, and seeing firsthand 
some of the things that you all are doing here just a few 
minutes ago was--it's really cool. So we're delighted to have 
you all here. If you could confine your remarks to 5 minutes or 
thereabouts, and then we'll open it up to a few questions.
    I'll start on my left and your right with Mr. Blau. So 
please proceed with your opening statement.

   STATEMENT OF BRIAN BLAU, RESEARCH VICE PRESIDENT, GARTNER

    Mr. Blau. Chairman Thune, Ranking Member Nelson, and the 
members of the Committee, thanks for inviting me to testify 
about augmented reality. I'm Brian Blau, Research Vice 
President at Gartner, the world's leading information 
technology market research company. I'm here today because my 
background in immersive technology spans 25 years, including in 
my current position where I advise technology providers, CIOs, 
businesses, and investors across many industries and 
geographies on aspects of designing, marketing, and using 
personal devices, apps, and services.
    Let me begin by saying that if immersive technologies--and 
by that I mean augmented reality, virtual reality, and mixed 
reality--are to achieve their potential, several important 
issues need to be understood. First, using AR to blend the real 
world and virtual world in a seamless way can have novel and 
beneficial implications across a myriad of industries. This 
nascent technology is about to achieve a critical milestone: 
practical and affordable viewing devices entering the market. 
Now is our unique opportunity to foster its innovation and 
growth.
    Second, the market for AR technologies might be small 
today, but interest, over the long term, remains high and the 
potential for growth is significant. Finally, for AR 
technologies to flourish, innovation needs to be supported and 
accelerated without undue restrictions. The result will be a 
plethora of new computing experiences that drive increased 
productivity across many industries; improved effectiveness of 
individuals in their work; and exciting new developments in the 
leisure, entertainment, and retail sectors.
    The 50-year plus history of computing can't be told without 
including the technology that addresses how humans, using their 
senses, interact with computers, each other, and the world. 
With AR technology, users will perceive the physical world in 
new, richer ways, ones that are visually augmented to whatever 
best suits the needs of its users.
    The technology brought before you today provides a prime 
example of American innovation, invention, and opportunity. 
Augmented reality, virtual reality, and mixed reality follow 
from a taxonomy of visual and sensory display types. AR devices 
are centered around a smart display, a transparent one, which 
can be worn on your head, maybe held in your hand, or even seen 
through a window.
    Business use cases are broad. In coming years, field 
service workers, those that maintain utilities, infrastructure, 
machines, and equipment, will benefit because their work is 
often hands-busy tasks. An AR headset can provide visual 
overlays of diagrams, complex instructions, event recording, or 
enabling ``see-what-I-see'' remote collaboration. Using AR can 
improve workforce productivity by removing time-wasting 
behaviors or improving the efficiency of tasks.
    The market for AR is mainly business today. We estimate the 
number of AR head-mounted displays sold in 2016 to be around 
several hundred thousand. We forecast that in 5 to 10 years, 
there will be hundreds of millions of head-mounted display 
devices in the hands of users, split between see-through 
transparent display devices and those that provide full 
immersion such as VR.
    There are technology vendors competing for this 
opportunity--Microsoft, Google, ODG, Epson, DAQRI, and many 
others. First generation devices are available now. Next 
generations will exceed these capabilities, and improvements 
over the coming years will solve and optimize many perceptual 
computing challenges.
    Not only will there be intense competition in hardware--the 
devices and the headsets--but there is also a great need for 
new core technologies as well as apps, services, 
infrastructure, and components, all of which need healthy 
digital ecosystems and business opportunities to flourish.
    When will consumer AR become common? It may not be far off, 
and it's possible it will come in many form factors, including 
handsets and headsets. Use cases for consumer AR are quite 
compelling because the visual overlay technology can show real-
time and instant information when we look out into the physical 
world. Imagine turning your backyard into a video game, or 
going to a movie theater that is an individualized 
entertainment experience.
    For the market to grow, it's critical that you carefully 
consider any actions that would restrict or limit AR's 
innovation process. AR needs development and maturity in many 
areas and will for many years to come.
    A particular focus should be around usability, safety, and 
security. The requirements are higher here. AR is the 
experience, and it could falter if the technology is restricted 
in ways that don't allow for experimentation, invention, 
testing, and ultimately broad use in many aspects of the 
consumer and business markets.
    Thank you again for the opportunity to share our knowledge 
and guidance of this exciting application area and for the 
leaders of the U.S. Senate to take such a high level of 
interest.
    [The prepared statement of Mr. Blau follows:]

   Prepared Statement of Brian Blau, Research Vice President, Gartner
    Chairman Thune, Ranking Member Nelson, and the Members of the 
Committee:

    Thank you for inviting me to testify today about augmented reality.
    I'm Brian Blau, Research Vice President at Gartner, the world's 
leading information technology market research company. I'm here today 
because my background in immersive technology spans 25 years including 
in my current position where I advise technology providers, CIOs, 
businesses and investors across many industries and geographies on 
aspects of designing, marketing and using personal devices, apps and 
services.
    Let me begin by saying, if immersive technologies, and by that I 
mean, augmented reality, virtual reality, and mixed reality are to 
achieve their potential, several important issues need to be 
understood.
    First, using AR to blend the real world and virtual world in a 
seamless way can have novel and beneficial implications across a myriad 
of industries. This nascent technology is about to achieve a critical 
milestone--practical and affordable viewing devices entering the 
market. Now is our unique opportunity to foster its innovation and 
growth.
    Second, the market for AR technologies might be small today but 
interest, over the long term, remains high and the potential for growth 
is significant.
    Finally, for AR technology to flourish, innovation needs to be 
supported and accelerated without undue restrictions.
    The result will be a plethora of new computing experiences that 
drive increased productivity across many industries, improved 
effectiveness of individuals in their work, and exciting new 
developments in the leisure, entertainment and retail sectors.
    The 50-year plus history of computing can't be told without 
including the technology that addresses how humans, using their senses, 
interact with computers, each other and the world. With AR technology, 
users will perceive the physical world in new, richer ways, ones that 
are visually augmented to whatever best suits the needs of its users.
    The technologies brought before you today provide a prime example 
of American invention, innovation and opportunity. Augmented reality, 
virtual reality and mixed reality, follow from a taxonomy of visual and 
sensory display types. AR devices are centered around a transparent 
smart display; which can be worn on your head, held in your hand, or 
seen through a wall.
    Business use cases are broad. In coming years, field service 
workers, those that maintain utilities, infrastructure, machines, and 
equipment, will benefit because their work is often ``hands-busy'' 
tasks. An AR headset can provide visual overlays of diagrams, complex 
instructions, event recording, or enable ``see-what-I-see'' remote 
collaboration. Using AR can improve workforce productivity by removing 
time-wasting behaviors, or improving the efficiency of tasks.
    The market for AR is mainly business today. We estimate the number 
of AR HMDs (head-mounted display headset) sold in 2016 to be around 
several hundred thousands. We forecast that in 5 to 10 years there will 
be hundreds of millions of HMD devices in the hands of users; split 
between see-through transparent display devices and those that provide 
full immersion such as VR. There are many technology vendors competing 
for this opportunity, Microsoft, Google, ODG, Epson, DAQRI and many 
others. First generation devices are available now. Next generations 
will exceed these capabilities, and improvements over the coming years 
will solve and optimize many perceptual computing challenges.
    Not only will there be intense competition in hardware--the devices 
and headsets--but there is also a great need for new core technologies 
as well as apps, services, infrastructure, and components; all of which 
need healthy digital ecosystems and business opportunities to flourish.
    When will consumer AR become common? It may not be far off, and 
it's possible it will come in many form factors including handsets and 
headsets. Use cases for consumer AR are quite compelling because the 
visual overlay technology can show realtime and instant information 
when we look out into the physical world. Imagine turning your backyard 
into a video game, or going to a movie theater that is an 
individualized entertainment experience.
    For the market to grow it's critical that you carefully consider 
any actions that would restrict or limiting AR's innovation process. AR 
needs development and maturity in many areas and will for many years to 
come. A particular focus should be around usability, safety and 
security. The requirements are higher here; AR -is- the experience and 
it could falter if the technology is restricted in ways that don't 
allow for experimentation, invention, testing, and ultimately broad use 
in many aspects of the consumer and business markets.
    Thank you again for the opportunity to share our knowledge and 
guidance on this exciting application of technology, and for the 
leadership of the U.S. Senate to take such a high level of interest.
                               Attachment
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
                                 
                                 ______
                                 

    The Chairman. Thank you, Mr. Blau.
    And I apologize for mispronouncing Mr. Calo's name.
    Mr. Calo, please proceed.
    That's what I get for not wearing my glasses.
    Mr. Calo. No worries.

        STATEMENT OF RYAN CALO, LANE POWELL AND D. WAYNE

          GITTINGER ASSISTANT PROFESSOR, UNIVERSITY OF

 WASHINGTON SCHOOL OF LAW, AND FACULTY CO-DIRECTOR, UNIVERSITY 
                 OF WASHINGTON TECH POLICY LAB

    Mr. Calo. Chairman Thune, Ranking Member Nelson, and 
members of the Committee, thank you very much for this 
opportunity to discuss the promise and the perils of augmented 
reality.
    Augmented reality, of course, has many positive 
applications, from training tomorrow's workforce to empowering 
people with disabilities. But the technology also raises novel 
concerns that companies and policymakers must address if 
augmented reality is to be widely adopted and positively affect 
American society.
    The University of Washington Tech Policy Lab, which I co-
direct, is a unique interdisciplinary research unit at the 
University of Washington that aims to help policymakers develop 
wise and inclusive technology policy. We have studied augmented 
reality and its impact on diverse populations and discuss our 
findings in detail in a white paper entitled Augmented Reality: 
A Technology and Policy Primer, which we made available to the 
Committee.
    Our research suggests that augmented reality raises a 
variety of questions of law and policy, including around free 
speech, privacy, and potentially novel forms of discrimination 
and distraction. So just to give a couple of examples, will the 
constant recording of one's environment give hackers, 
companies, and government unparalleled access to the bedroom, 
the boardroom, and private spaces? Could the superimposition of 
information over reality render AR users, in some instances, 
vulnerable or unsafe? And are there situations, like job 
interviews, where knowing everything about an individual in 
real time could result in discrimination or subject the AR user 
to legal liability?
    So having studied this area, we developed essentially five 
recommendations that are very broad in nature, and I wanted to 
go over them in my remaining time, if I may.
    The first is that we should recognize that augmented 
reality is actually advancing quite rapidly, right? And so law 
and policy, in order to stay relevant, should not assume a 
fixed instantiation of augmented reality over time. I mean, I 
can point to many examples where we've passed measures that 
assumed technology would stay a certain way, but it changed and 
those measures became outdated.
    The second is to conduct threat modeling. Threat modeling 
is a computer science idea that has to do with anticipating 
what adversaries will do with these systems. So we think that a 
careful and thorough model of seeking who might want to 
compromise AR systems without preconceptions--such as no one 
would ever do that--is crucial. And it's especially crucial in 
instances like these, where a compromised system could actually 
cause physical harm to users.
    We think it's important to coordinate with designers. 
Ultimately, technologists need to be aware of the values that 
society holds and that policymakers hold, and policymakers, in 
turn, need an accurate mental model of the technology in order 
to make wise decisions. So this hearing, for example, is a 
great example of the dialog between the designers and the 
manufacturers and policymakers.
    We think it's extremely important to consult with diverse 
stakeholders. People will experience AR quite differently, 
depending on their characteristics, their experiences, and 
their capabilities. So take children, for example. Children 
will experience augmented reality quite differently. People who 
are incarcerated and so forth will experience it quite 
differently. It creates opportunities and dangers, depending on 
the individual.
    And then, finally, we expect that policymakers and 
designers will acknowledge the potential tradeoffs. For 
example, the long-term information storage in cloud processing 
and other advanced data processes may ultimately result in 
faster performance or more complex functionality, but then 
potentially at a cost of privacy. So perfection can be the 
enemy of the good. But, ultimately, it's crucial to understand 
that the architectural decisions that are made, the design 
decisions, have these kinds of policy implications.
    With that, thank you again for the opportunity to testify, 
and I'm happy to hear your questions.
    [The prepared statement of Mr. Calo follows:]

  Prepared Statement of Ryan Calo, Lane Powell and D. Wayne Gittinger 
    Assistant Professor University of Washington School of Law, and 
     Faculty Co-Director, University of Washington Tech Policy Lab
    Chairman Thune, Ranking Member Nelson, and Members of the 
Committee, thank you for the opportunity to discuss the promise and 
perils of augmented reality.
    Augmented reality (AR) refers to a mobile or embedded technology 
that senses, processes, and outputs data in real time, recognizes and 
tracks real-world objects, and provides contextual information by 
supplementing--or in some cases, replacing--human senses. AR differs 
from so-called virtual reality in that AR users continue to experience 
most of their physical environment. AR has many positive applications, 
from training tomorrow's workforce, to empowering people with 
disabilities. But the technology also raises novel or acute policy 
concerns that companies and policymakers must address if AR is to be 
widely adopted and positively affect American society.
    The UW Tech Policy Lab is a unique, interdisciplinary research unit 
at the University of Washington that aims to help policymakers develop 
wise and inclusive technology policy. We have studied AR and its impact 
on diverse populations and discuss our findings in detail in the 
appended white paper Augmented Reality: A Technology and Policy Primer.
    Our research suggests that AR raises a variety of question of law 
and policy, including around privacy, free speech, and novel forms of 
distraction and discrimination. For example: Will the constant 
recording of a user's environment give hackers, companies, and 
government unparalleled access to the bedroom, the boardroom, and other 
private spaces? Could the superimposition of information over reality 
render the AR user vulnerable or unsafe? And are there situations--such 
as job interviews--where knowing everything about an individual could 
result in discrimination or subject the AR user to legal liability? 
Industry must design AR products with these and many other questions in 
mind.
    Thank you again for the interest in our research and the 
opportunity to appear before the Committee. I look forward to your 
questions.
                               Attachment
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]


    The Chairman. Thank you, Mr. Calo.
    Mr. Hanke?

 STATEMENT OF JOHN HANKE, FOUNDER AND CHIEF EXECUTIVE OFFICER, 
                         NIANTIC, INC.

    Mr. Hanke. Mr. Chairman, Ranking Member Nelson, and members 
of the Committee, my name is John Hanke. I'm the Founder and 
Chief Executive Officer of Niantic, Inc., a mobile gaming 
company headquartered in San Francisco, California. On behalf 
of the 75 dedicated and innovative professionals at Niantic, it 
is an honor to be here before you today to talk about augmented 
reality, or AR, something we're very excited about.
    We launched Pokemon GO this last summer, and I want to talk 
about that in more detail. But before we discuss Pokemon GO, I 
want to just talk a little bit about the things that led up to 
the development and launch of that product.
    Prior to that, I spent about 7 years at Google heading up 
our maps and geo-location efforts. So this included the 
development and launch of products like Google Earth, Google 
Maps, Street View, and so on. During that time period, the 
iPhone was created and launched, Android was created and 
launched, and we began to think about ways to use that geo-
location and mapping technology for new kinds of products. At 
the same time, we were anticipating the development of 
augmented reality hardware. We see it as an evolution from the 
cell phones that exist today to wearable computing to the kinds 
of glasses and devices that you saw demonstrated earlier today.
    Our philosophy is to go out and build products for the 
billions of cell phones that exist today and then to gradually 
adopt these new forms of augmented reality hardware as they 
enter the marketplace. We conceived of a group to go out and 
pursue that opportunity called Niantic, and we really had three 
goals for that group.
    The first goal was to create applications using this new 
mobile geo-location AR tech to get people outside and moving 
around. This was a very personal thing for me, as a father of 
three, at the time my eldest son was still at home. He just 
left for college. But he was spending a lot of time playing 
Minecraft. I love Minecraft. It's an amazing application. But, 
you know, we live in California. It's nice outside. There are 
lots of interesting places to go, and I wanted to create an app 
that would have the same kind of draw for him in terms of those 
compelling qualities but to be used outside, and it would be 
something that kids and parents could do outside. So we had 
this goal of encouraging kids and people to go outside.
    The second goal was exploration and discovery of 
information about the places that we live. I'm kind of a 
history buff, and so we had this idea that if we could surface 
historical information about your community or places that you 
visit that it would help people build a connection with the 
town that they live in. It would be informative for kids and 
would just generally be a good thing. So that kind of 
exploration was the second kind of key tenet of our group.
    The third was about encouraging real social interaction 
between people. So we hear a lot about social today, but it's 
usually in the context of social media, which means sending a 
message or a photo to somebody online. With mobile technology, 
we see a huge opportunity to build applications that actually 
encourage people to go outside together and have fun in groups 
and have face-to-face real human social interaction. So 
encouraging that type of behavior was the third major goal for 
the group.
    We launched a couple of applications before Pokemon GO, an 
app called ``Field Trip,'' which I showed some of you earlier 
today, which focuses on historical information. We launched a 
game called ``Ingress,'' which has now been downloaded 20 
million times around the world. It's kind of our cult hit. And 
then this last summer, we launched Pokemon GO.
    So we are 75 people. We worked really hard on that product. 
We felt like it would be successful. But I have to say that we 
were pretty overwhelmed and shocked by the reception that it 
met during this last summer. It was an incredible 2 months for 
us of just watching that unfold, and it was incredibly 
gratifying to see people enjoying the product that we built, to 
see people out in parks in California and New York, Michigan, 
Florida, everywhere in between, and parents and kids playing 
together. We heard all kinds of positive stories from people 
about how the app helped get them outside and helped them have 
fun together with their friends.
    It was an intense amount of work for us to keep that 
product up and running, just to add the number of servers that 
we needed to keep the product functioning, and to deal with the 
fact that, in this day and age, even though we're a 75-person 
startup, we had an international product to deal with, which 
means that we had to deal with interfacing not only with 
policymakers here in Washington and city governments and mayors 
across the United States, but with your equivalents in 
countries around the world.
    So for a small startup company, that's pretty overwhelming. 
You know, we're trying to understand policy. We're trying to 
understand how to communicate with people literally in dozens 
of countries around the world. So we've been working through 
that over the course of the past two months.
    I think because of the kind of frenzy around Pokemon GO, 
there are a lot of issues that came up that are related to 
policy, and I'm happy to have a chance to discuss some of those 
with you today. There are some things that I think we do really 
well that I want to talk about, some misunderstandings, and 
some challenges.
    In terms of things that we do really well, COPPA and COPPA 
compliance is something that I think we are best in industry. 
We went out with a fully COPPA compliant login process. That 
means if you are 13 or under, you have to get parental consent 
to create an account to play the game, and we worked with our 
partners at the Pokemon Company in order to create that, and 
we're very proud of that work. As I mentioned, many of us in 
Niantic are parents, and protecting our children is very 
important to us.
    A misconception has to do with data, and you heard it 
mentioned earlier today. There are people who look at augmented 
reality and assume that vast amounts of data are being vacuumed 
up and stored. It's been our policy to collect only the minimum 
amount of data that is necessary to operate our game.
    So whenever you see Pokemon GO--and we demonstrated it 
earlier today--there's a camera view. You can see the 
background. You see the Pokemon hopping around. There are some 
people that have said, ``Oh, we're collecting all that imagery 
data,'' so if there's a person in the background or something 
in the background, that's all being retrieved and stored on 
Niantic servers. That's not the case. None of that stuff is 
transmitted to us.
    People have said that we're collecting vast amounts of 
personally identifiable information or to sell that to 
advertisers. That's not the case. Our business is about an app 
purchase. It's a very successful business model for us. It does 
not incentivize us to try to collect the kinds of personal 
identifiable information that other people are trying to 
collect. So we collect the minimum amount that we need to 
operate the game, and we do not sell that or provide that to 
third parties.
    An area where we've met some challenges is in the area of 
what I would generally classify as hacking, and that word means 
a lot of things to different people. But we've had many 
individuals and groups around the world try to access our 
servers, to try to steal our intellectual property, to 
basically try to build applications that inappropriately pull 
data from our servers, allow people to cheat in the 
application, and do things that are harmful to our business, 
and we often feel like we're out there alone in trying to fend 
off these attacks.
    It is kind of a Wild West situation. It doesn't always feel 
like there's a sheriff out there to help out, and it's a big 
challenge for us. It consumes a lot of our resources, and for 
small startups out there that are trying to launch applications 
into this environment, it's a very difficult challenge, and 
it's an area where, frankly, I think more help would be 
welcome.
    So we're very excited about AR. I think it's the next major 
transition in technology from the cell phone to AR. That means 
it is not a billion dollar opportunity. It is a hundreds of 
billions of dollars opportunity. It's a great opportunity for 
American companies and for startups.
    So thank you again, Mr. Chairman and Senator Nelson. I'm 
happy to be here to talk to you and to answer your questions.
    [The prepared statement of Mr. Hanke follows:]

Prepared Statement of John Hanke, Founder and Chief Executive Officer, 
                             Niantic, Inc.
Introduction
    Mr. Chairman, Ranking Member Nelson, and members of the Committee, 
my name is John Hanke, and I am the founder and Chief Executive Officer 
of Niantic, Inc., a mobile gaming company headquartered in San 
Francisco, California. On behalf of the 75 dedicated and innovative 
professionals at Niantic, it is an honor to be here before you today to 
talk about augmented reality, or ``AR,'' and specifically, the current 
state of AR technology, where it's going, and what lessons we have 
learned that would be of interest to you as policymakers.
    We understand today's hearing may in part be due to the 
extraordinary global response to Niantic's latest mobile app, Pokemon 
GO. We are particularly proud that this game has helped to turn the 
world's attention to the current reality and enormous potential of AR 
for entertainment, education, and community-building.
    With that said, I know I speak for all of my colleagues at Niantic 
when I say that what we experienced following the game's launch in July 
far exceeded our own imaginations. As we rolled out the game, the 
immediate reception was almost surreal. My wife e-mailed to tell me 
that Jimmy Fallon and Stephen Colbert are talking about Pokemon GO. 
Professional athletes and celebrities began tweeting pictures from the 
app of themselves with Pokemon. Thousands signed up for a Pokemon walk 
on the National Mall here in Washington, and a similar walk in San 
Francisco. How this game insinuated itself into everyday conversation 
and pop culture in and outside the United States sparked even greater 
interest and usage.
    Since July, the app has been downloaded over 600 million times, and 
is enjoyed by users in more than 100 countries. And it's just been a 
little more than four months.
    With the unanticipated popularity of the game, we had a couple of 
outages as we scaled up, and of course, hacking was a constant and 
costly nuisance. With help from our former colleagues at Google, we 
quickly arranged for server expansions to keep up with demand. We also 
made critical adjustments to deal with hacking.
    Since early October, things have settled into a more manageable 
pace. After the initial sprint, our team was exhausted, but elated. 
It's been rewarding for all of us to see people young and old enjoy 
something that we worked so hard to create. We've heard and continue to 
hear stories about people getting outside, spending time with their 
friends and family, meeting new people and discovering new places in 
their communities. These stories speak directly to our core mission 
with augmented reality--to use technology to get people off their 
couches and outside to appreciate the wonder of the world around us.
Augmented Reality and Niantic: The Hidden Story of How We Got Here
    Niantic is focused on using existing mobile technology to augment 
what we see outside before our very eyes. It's important to clarify 
what we mean when we talk about AR. The term ``augmented reality'' was 
first coined by a researcher at Boeing in 1990 to describe a system 
that overlaid graphics onto a display of physical reality. The primary 
early adopters of this technology in the 1990s were in military and 
medicine. By 2002, an article in Popular Science called augmented 
reality the ``killer app in portable computing,'' but back then, to 
recreate what you can now see today through your smartphone required 
twenty-six pounds of off-the-shelf equipment strapped to your back.
    It's often said here in Washington that public policy struggles to 
keep pace with innovation, but when I imagine someone in 2002 walking 
with a heavy backpack of first generation augmented reality gear, it 
reminds me of a simple truth we have in Silicon Valley: Innovation 
struggles to keep up with our own imagination.
    As I look at my own experiences with technology, I've sought to 
bring innovation a little closer to my own imagination. There are a 
number of critical developments in telecommunications and information 
technology, from improved processing power to wireless broadband, that 
helped bring augmented reality to everyday consumers, but two critical 
factors for me in particular were maps and games.
    As I was growing up in Cross Plains, a small town in central Texas, 
I'd read National Geographic and pull the maps out. So it's no surprise 
that I would later combine my fascination with programming with my love 
of maps. In 2000, I was part of a team that started a company called 
Keyhole, which was later acquired by Google and became the foundation 
for Google Earth. At Google, I also led the team that launched Google 
Maps, and other ``Geo'' products and services.
    It was great to be at Google and channel my map and travel-inspired 
imagination from my boyhood to the innovations I was creating as an 
adult. And it led to the creation of ``Field Trip,'' the first 
smartphone app we created at Niantic. Field Trip uses Global 
Positioning System technology and a database of information about 
places to deliver cards containing interesting information about a 
user's immediate surroundings as she walks through the world. The app 
automatically surfaces these bits of educational and historical 
information, including local history, interesting landmarks, and works 
of art and architecture as a user moves through the world.
    If we were walking by the Transamerica Building in San Francisco, 
for example, and passed a historical marker affixed to the building, 
Field Trip would show a card with the origin of our company name: the 
whaling ship, Niantic. This ship brought fortune-seekers to Yerba 
Buena--later renamed San Francisco--during the California Gold Rush in 
1849. Run aground in the harbor and abandoned by its crew, the Niantic 
was converted into a storeship and hotel that would repeatedly catch 
fire and be rebuilt. Today's San Francisco Financial District is where 
the Niantic first ran aground, and remnants of the ship were excavated 
at the foot of the Transamerica Building in 1978. The Niantic serves as 
a wonderful metaphor for the types of hidden stories surfaced through 
our products: The knowledge exists--it just may not be always available 
to us.
    In addition to maps, I've always enjoyed games, and like so many of 
my generation, writing code for games on cassette tapes that could be 
read by a TRS-80 eight-bit computer was a wonderful introduction to 
computer programming. And even before I started Keyhole, I worked on 
several of the first commercially available, Internet-based massively 
multiplayer online games.
    So it seems both logical and linear that my dual passions for 
mapping and multiplayer gaming would result in Niantic's second mobile 
app and first augmented reality game, Ingress. With Ingress, by 
building a game on top of the map data from Google Maps, we could 
combine gaming, walking, and exploring. An added motivation for me in 
developing Ingress and the Niantic platform was to help solve a common 
modern parenting issue with screen time. My oldest son, twelve at the 
time, shares my love of games. I knew that games got me into 
programming and I didn't want to take that away from him, but I also 
wanted him to get out from in front of a game console and see the world 
around him.
    We launched Ingress in November 2012, and today, the Ingress 
community is amazing, and continues to grow as we approach our four-
year anniversary, with more than one million active players in 4,000 
communities worldwide. In fact, when Pokemon GO launched in the United 
States, I was in Japan for an Ingress event, and it was our largest 
event ever, with more than 10,000 users.
The Lure, Lore, and Logistics of Pokemon GO
    The popularity of Ingress among the gaming community, particularly 
in Japan, gave rise to the notion of combining the long-cherished 
Pokemon franchise with maps and AR technology.
    If you think about the lore of Pokemon, you can understand why it 
worked well in an AR context. As depicted in the animated series, the 
player (called a ``Trainer'') goes out into the world searching for and 
capturing Pokemon. Through your device--your phone today and perhaps 
some kind of glasses or other devices in the future--you become the 
Trainer and can see this fantastical world of Pokemon overlaid on the 
real world. Pokemon GO is exactly what's depicted in the story of 
Pokemon, and a great example of bringing our innovations a little 
closer to our imaginations.
    Much has been written and discussed about the PokeStops and Gyms 
you see in Pokemon GO, and it's worth sharing briefly how we decided 
their locations, which go back to the origins of Niantic Labs and the 
evolution and development of our earlier products. Many of the 
historical markers and other local landmarks from our first app, Field 
Trip, became significant game locations (``portals'') in Ingress. While 
further developing Ingress, we thought about how to expand this set of 
interesting places that are public, visually recognizable, and 
appropriate places for people to visit. We asked Ingress players to 
submit their ideas for local landmarks they thought would be great 
additions to the game; millions of places were suggested, and a subset 
of those submissions (such as the Children's Museum in Brookings, South 
Dakota and the Kennedy Space Center Visitor Complex in Florida) was 
added to the existing set of points of interest to populate Pokestops 
and Gyms in Pokemon GO.
Lessons Learned Along the Way
    As with any new technology, the use of AR for gaming applications 
like Ingress and Pokemon GO has sparked many questions that have public 
policy implications here in the United States and globally. I look 
forward to answering your questions shortly, but let me highlight a few 
key areas:

        Children's Online Privacy: Teen and adult players are the 
        primary intended player base for Pokemon GO, but we recognize 
        that the game will be of interest to some children under the 
        age of 13 who have access to a smartphone. For this reason, we 
        created a verifiable parental consent mechanism to comply with 
        the Children's Online Privacy Protection Act (``COPPA''). 
        Consistent with the requirements of COPPA, potential new users 
        are asked to enter their birthdate in an age screen prior to 
        signing up for the game. Potential players who enter a 
        birthdate under age 13 are directed to the Pokemon Trainer 
        Club, operated by The Pokemon Company International, and their 
        parent is provided an e-mail notice that they are interested in 
        getting access to play Pokemon GO. A parent of an under-13 can 
        work through the steps of the Pokemon Trainer Club to (1) 
        create an online account; (2) provide certain forms of 
        information to verify their identity; and (3) accept our Terms 
        of Service and Privacy Policy.

        The Pokemon Company International collects certain information 
        from parents (such as name, date of birth, and certain 
        information, such as a Social Security number) to obtain 
        verified consent as required by COPPA. It does not share this 
        information with Niantic. Additionally, parents have the option 
        to provide certain personal information, such as their child's 
        name, to The Pokemon Company International as part of the 
        account sign up process; Niantic does not obtain this 
        information.

        A parent can always notify us to exercise their right to refuse 
        collection, use, and/or disclosure of their child's personal 
        information. And if we learn that an under-13 account was 
        created without parental consent, that account and all other 
        personal information collected in conjunction with that account 
        will be deleted.

        Data Integrity: Let me say up front that Niantic does not and 
        has no plans to sell Pokemon GO user data--aggregated, de-
        identified or otherwise--to any third party.

        Pokemon GO does collect and store certain information that 
        interacts with various settings on the user's mobile device to 
        provide core game functionality and improve Niantic's services. 
        For example, the app collects and stores certain location 
        information in order to show the Trainer on the map, and to 
        trigger the resources, such as Pokemon, Pokestops and Gyms that 
        appear in her area. If a Trainer chooses to play with ``AR'' 
        mode turned on, the app accesses the camera viewer in order to 
        display the Pokemon ``in real life'' as you may have seen 
        during the demonstration prior to the hearing. As you would 
        expect, this information about the user's performance and 
        activity is stored in connection with a user's account. The app 
        also collects certain information to improve our services, and 
        to facilitate important quality and stability objectives. For 
        example, Niantic collects network provider information to allow 
        for better quality geo-location.

        The app collects information when it is open; there is no 
        background collection of data in normal play mode. When the 
        application is open, it disables the mobile device setting that 
        automatically puts the phone to sleep when there has been no 
        interaction by the user for a certain period of time. This is a 
        key feature needed for Pokemon collection activities while a 
        Trainer is moving around. When the user puts the phone to sleep 
        manually, however (such as through pressing the power button), 
        Pokemon GO goes idle.\1\
---------------------------------------------------------------------------
    \1\ A user may operate Pokemon GO in background mode if she has 
paired it with the Pokemon GO Plus wristband peripheral device made 
available by Nintendo. More information about that device is available 
here: http://www.pokemongo.com/es-es/pokemon-go-plus/. When the user 
starts Pokemon GO using the device, she can play even when the app is 
running in the background, and it collects data in the same fashion as 
during normal game play.

        User Safety and Intellectual Property: As I noted earlier, 
        since the app was launched, Pokemon GO has been a target of 
        numerous hacking efforts, including distributed denial of 
        service attacks, unlawful data collection from our services, 
        and monetization through the use of botnets and other devices. 
        We are concerned about these apps and services because in many 
        cases they put our users at risk, and also because of the 
---------------------------------------------------------------------------
        misuse of our intellectual property.

        For example, a backdoored version of the game was found on a 
        file repository service not long after the game was launched. 
        Attackers also sought to lure potential Pokemon users to 
        malicious sites that mimicked our own site, claiming users 
        would be given additional features if they referred friends to 
        the site, which led to more spamming. We've also seen strains 
        of malware masquerading as Pokemon GO-related apps.

    In these cases, as in others, working internally and with our 
licensors and partners, we've been able to take certain malicious apps 
and sites down, but these challenges raise important questions about 
what technical and legal resources we have to combat efforts to misuse 
if not malign our intellectual property. It certainly underscores the 
need for review of existing laws to allow innovators to protect their 
intellectual property and systems from unauthorized use, particularly 
where the safety and security of users is at stake.
Conclusion: Where Will Augmented Reality Take Us?
    Mr. Chairman, the most often asked question I now get can be 
expressed in two words: What's next? For us at Niantic, we're working 
on new sets of features for both Ingress and Pokemon GO, and planning 
for future titles. We enjoyed releasing some fun elements of gameplay 
for Pokemon GO tied to the Halloween weekend, and we look forward to 
additional releases to further enhance the game experience.
    For the broader industry, tech leaders ranging from Apple's Tim 
Cook to Microsoft's Satya Nadella share my view that the potential of 
augmented reality far surpasses virtual reality. Indeed, we are already 
seeing the growth of new and interesting applications utilizing AR. An 
AR application (Pocket Patrol) is being piloted in Queensland, 
Australia to provide safety instruction to beach-goers. AR is already 
an education game-changer, with applications to help students learn 
anatomy, chemistry, math, and art. For example, the British Museum 
offers an AR scavenger hunt for kids to collect words and digital 
objects to solve puzzles as they scan specific exhibition objects with 
a mobile device. The Smithsonian Museum of Natural History here in 
Washington has a mobile app that overlays skin onto dinosaur skeletons 
when kids hold a mobile device over the bones.
    AR is also increasingly becoming an important life-saving and -
enhancing tool for public safety and first responders, and will be of 
even greater use as a dedicated mobile broadband network is built for 
the public safety and first responder communities.
    For us at Niantic, seeing how the public has responded to Field 
Trip, Ingress and Pokemon GO inspires us to move forward to create and 
innovate, so we can continue to chase our imaginations. Similarly, it 
remains important for policy leaders like yourselves to have public 
policy keep pace with innovation. Properly utilized, public policy can 
play a central role in driving innovation as it has in Silicon Valley 
for the past forty years through government-led research and 
development in fields such as semiconductors, aerospace, and the 
Internet.
    Think of it, a mere 14 years ago, a mobile, augmented reality 
program required twenty-six pounds of equipment. Today, we can make it 
work with a smartphone that weighs a little less than half a pound. We 
at Niantic look forward to what the next fourteen years will bring to 
this amazing technology.
    Thank you, again, Mr. Chairman and Senator Nelson, and I look 
forward to answering your questions, and more important, working with 
you to advance public policies that will further advance augmented 
reality.

    The Chairman. Thank you, Mr. Hanke.
    Mr. Mullins?

   STATEMENT OF BRIAN MULLINS, CHIEF EXECUTIVE OFFICER, DAQRI

    Mr. Mullins. Chairman Thune, Ranking Member Nelson, and 
members of the Committee, thank you for the opportunity to 
speak to you on this important topic. My name is Brian Mullins. 
I'm the founder and CEO of DAQRI, a Los Angeles-based 
technology company focused on empowering people with augmented 
reality. In these brief remarks, I'll discuss the power of AR, 
how it is being applied today, and why it represents a shift in 
technology so significant as to rival that of the Internet 
itself.
    I first started working with the technologies that would 
become AR after graduating from the U.S. Merchant Marine 
Academy in 1997 and working at the Department of Transportation 
and later at the Space and Naval Warfare Systems Command. When 
I left the government sector and moved into the field of 
industrial automation and robotics, I learned firsthand how 
technology could dramatically increase workplace efficiency, 
but was dismayed to see workers left behind as factory floors 
were transformed. We needed to leverage technology not just to 
optimize factories, but also to empower the human beings that 
ran them.
    This year, much attention has been focused on AR in the 
entertainment sector. But behind the scenes, less covered by 
the media, practical and valuable applications of augmented 
reality that will positively influence American lives are 
already gaining momentum in other fields. Industry leaders, 
such as General Electric, Boeing, Intel, Huntington Ingalls, 
and countless others, are applying augmented reality in 
training, maintenance, quality control, remote expert 
assistance, construction, defense, and manufacturing 
applications, just to name a few.
    Imagine a worker who wants to transition to a new 
manufacturing facility but lacks formal training for a highly 
skilled manufacturing role. With AR, they can learn and execute 
complex tasks, improve productivity, and quickly gain skills 
and knowledge even in new environments. On the first day at a 
new factory, AR can show step-by-step instructions on top of 
the disassembled wing of an aircraft, showing a worker visually 
how things need to be put together.
    This is no longer just a hypothetical scenario. AR 
technology is already being used to close the skill gap in the 
workforce, the benefits of which are now supported by industry 
and academic studies. In 2015, Boeing and Iowa State University 
published a study comparing the efficacy of traditional work 
instructions with augmented reality work instructions for 
aircraft wingtip assembly. While I would refer you to my 
written testimony and the study itself for specific details, 
the researchers found that the AR instructions enabled workers 
to complete tasks significantly faster, more accurately, and 
with greater enjoyment.
    Technology can take away jobs. It's true, though, that most 
times when it does, it creates new, even better jobs. But, 
unfortunately, this doesn't happen overnight. It can take 
years, and an entire segment of workers can be left in the cold 
trying to reskill when their industry or vocation is no longer 
relevant. Augmented reality helps people to learn and adapt to 
new technologies faster than ever before. It empowers workers 
with an entirely new tool that enables them to keep up with the 
accelerating pace of change in the modern world.
    Analysts predict that sales will grow from $2 billion today 
to over $100 billion by 2022 across both consumer and 
enterprise markets. This hearing is timely, because this 
transition to consumer use is already underway with AR 
applications in cars. Head-up Displays, a technology developed 
for fighter pilots to get the information they need in the 
cockpit without distracting them from their mission, is finding 
itself on the road today.
    The use of HUD in automobiles has been studied extensively 
and has been shown to have a number of significant safety 
benefits, the most important of which is enabling the driver of 
the vehicle to maintain their gaze on the road. You no longer 
have to look down to see your speedometer or turn-by-turn 
directions. That information is available at a glance directly 
in your field of view. DAQRI's own AR technology can already be 
found in hundreds of thousands of vehicles on the road today, 
and the market for AR in cars is expected to grow to over 10 
million vehicles per year by 2022.
    From the beginning of my career, I knew there was something 
special about a technology that centered on people, allowing 
humans to adapt to changes in technology as quickly as 
computers. As AR continues to emerge as one of the most 
important technologies of the modern world, I ask the Committee 
to consider the potential AR has to enhance the American worker 
and create new jobs and opportunities. The use case with 
consumers will be materially different than the use case in 
industrial and automotive, and regulations need to be tailored 
instead of painted with a broad brush.
    I applaud the Commerce Committee for their foresight in 
holding this hearing. I look forward to working with you to 
help support the emergence of this technology, and I welcome 
any questions you may have.
    [The prepared statement of Mr. Mullins follows:]

  Prepared Statement of Brian Mullins, Chief Executive Officer, DAQRI
    Chairman Thune, Ranking Member Nelson, and members of the 
Committee, thank you for the opportunity to speak to you on this 
important topic.
    My name is Brian Mullins. I am the founder and CEO of DAQRI, a Los 
Angeles-based technology company focused on empowering people in our 
everyday lives through Augmented Reality (AR). In these brief remarks, 
I will discuss the power of AR, how it is being applied today, and why 
it represents a shift in technology so significant as to rival that of 
the Internet itself.
    I first started working with AR technologies in 1997 when I started 
my career at the Department of Transportation (DOT) after graduating 
from the U.S. Merchant Marine Academy at Kings Point, New York. First 
at the DOT and later at the Space and Naval Warfare Systems Command, I 
worked with simulation and early mixed reality technologies that 
provided a glimpse of what AR would one day become. The technology was 
early, but I already knew then that it would become the best way to 
transfer knowledge while maintaining situational awareness.
    When I left the government sector and moved into the field of 
Industrial Automation and Robotics, I learned firsthand how technology 
could dramatically increase workplace efficiency, but was dismayed to 
see workers left behind as factory floors were transformed. Drawing 
upon my earlier experiences, I realized that Augmented Reality could 
give people the ability to keep pace with the advancement of automation 
technologies and remain an invaluable part of the loop. We needed to 
leverage technology not just to optimize factories, but also to empower 
the human beings that ran them.
    This year, much attention has been focused on AR in the 
entertainment sector. But behind the scenes--less covered by the 
media--practical and valuable applications of Augmented Reality that 
will positively influence American lives are already gaining momentum 
in other fields.
    AR is similar to Virtual Reality (VR), but while VR is limited to 
interactions within a completely virtual world, AR mixes the real and 
the virtual together, allowing you to enhance what you see, without 
losing the connection to the world around you.
    Today, AR technology allows you to overlay information into the 
real world and rapidly transfer knowledge that empowers people to make 
decisions that would not be possible without it. Augmented Reality 
devices will have a significant impact in the workplace. Gartner's 2016 
forecast cites these business drivers for wearable head-up displays:\1\ 
hands free worker productivity and safety, training in simulated 
environments, checklists for quality control, real-time training, and 
remote expert assistance and collaboration.
---------------------------------------------------------------------------
    \1\ Gartner Forecast: Wearable Electronic Devices, Worldwide, 2016, 
Analyst(s): Angela McIntyre, Brian Blau, Michele Reitz
---------------------------------------------------------------------------
    Industry leaders such as General Electric, Boeing, Intel, 
Huntington Ingalls, and countless others are applying Augmented Reality 
in training, maintenance, operations, construction, defense and 
manufacturing applications. The use of AR in the enterprise can also 
reduce errors, increase efficiency on complex tasks, and contribute to 
significant improvements in worker safety.
    Imagine a worker who wants to transition to a new manufacturing 
facility that opened in her community, but lacks formal training for a 
highly skilled manufacturing role. Through the power of AR, she can be 
empowered to learn and execute complex tasks, improve productivity, and 
quickly gain new skills and knowledge even in environments where she 
has little experience through guided, step-by-step, augmented reality 
work instructions. On her first day at a new factory, using AR, she can 
look at the disassembled wing of an aircraft and see step by step 
instructions right on top of the components that she needs to put 
together.
    This is not a hypothetical scenario. In 2015, Boeing and Iowa State 
University published a study \2\ comparing the efficacy of traditional 
desktop work instructions with augmented reality work instructions for 
aircraft wingtip assembly. The team observed first-time trainees doing 
complex manufacturing tasks, and tracked a few key productivity stats. 
Major increases in efficiency, accuracy, speed, and worker satisfaction 
were found. Here are some highlights:
---------------------------------------------------------------------------
    \2\ Fusing Self-Reported and Sensor Data from Mixed-Reality 
Training, (I/ITSEC) 2014, Trevor Richardson, Stephen Gilbert, Joseph 
Holub, Frederick Thompson, Anastacia MacAllister, Rafael Radkowski, 
Eliot Winer Iowa State University, Paul Davies, Scott Terry, The Boeing 
Company

  <bullet> Accuracy: Trainees utilizing AR instructions made fewer 
        errors than those using desktop instructions by a factor of 16-
        to-1 on the trainees' first time completing a task. On the 
        second time around, those using AR had perfect performance--
        zero errors. Overall, the AR work instructions improved first 
---------------------------------------------------------------------------
        time quality by 94 percent.

  <bullet> Speed: Trainees using AR instructions were able to complete 
        tasks significantly faster than their counterparts, reducing 
        job completion time by an average of 30 percent and, in some 
        cases, as much as 50 percent.

  <bullet> Greater focus: AR allowed workers to maintain focus on the 
        task at hand. Trainees using AR looked at their instructions 
        less frequently and for shorter periods of time, demonstrating 
        that comprehension was happening rapidly. As the team put it, 
        ``The fewer number of looks meant that participants were not 
        `bouncing' back and forth between the instructions and the 
        physical task.''

  <bullet> Satisfied workers: How did workers feel about the 
        experience? A post-action survey asked participants if they 
        would agree with the statement, ``I would recommend work 
        instructions like this to a friend.'' The answer was a 
        resounding ``Yes,'' at rates roughly 4 times higher than the 
        median score for questions like this at more than 400 companies 
        in 28 industries.

    The AR instructions in this study enabled workers to complete tasks 
faster, more accurately and with greater enjoyment. Such results 
promise improved outcomes for industrial businesses, while also 
enhancing quality of life for workers.
    Technology can take away jobs. It's true though that most times 
when it does, it creates new, even better jobs. But this doesn't happen 
overnight. It can take years, and an entire segment of workers can be 
left in the cold trying to re-skill when their industry or vocation is 
no longer relevant. Augmented Reality is a technology that helps people 
to learn and adapt to new technologies faster than ever before. It 
empowers workers with an entirely new tool that enables them to keep up 
with the accelerating pace of change in the modern world.
    This year consumer awareness of AR is higher than ever thanks to 
the rise in gaming applications kicked off by the Pokemon Go 
phenomenon, however the adoption of AR has already been underway in the 
enterprise market for some time. Analysts predict that sales will grow 
from $2B today to over $100B by 2022 in combined hardware and software, 
across both consumer and enterprise markets.
    Much like cellular phone technology, I expect AR to continue to 
develop in the enterprise market before it moves to consumers. And as 
it does, it will enter our day to day lives in a way that we haven't 
yet discussed. This hearing is timely because this transition to 
consumer use is already underway with AR Applications in cars.
    Automotive Head-up Displays (HUD), a technology developed for 
fighter pilots to get the information they need in the cockpit without 
distracting them from their mission is finding itself on the road 
today.
    DAQRI's own AR technology can already be found in hundreds of 
thousands of vehicles on the road today, providing drivers with 
critical information in the windscreen, reducing distraction and 
helping drivers to make decisions faster. At the current rate of 
growth, the market for AR in cars is expected to grow to over 10 
million vehicles per year by 2022.
    With a HUD you no longer have to look down to see your speedometer, 
that information is available at a glance, directly in your field of 
view. AR technology is making driving safer by providing information 
like turn by turn directions directly on top of the road. When 
information is in the space around us, it is more intuitive and easier 
to understand.
    The use of HUD in automobiles has been studied extensively 
\3\<SUP>,</SUP>\4\ and has been shown to have a number of significant 
safety benefits, the most important of which is enabling the driver of 
the vehicle to maintain their gaze on the road. This reduces the 
``blind flight'' time, which can equate to a significant distance when 
travelling at speed. Because of this, it is anticipated that the number 
of vehicles fitted with Head Up Displays at build time will increase 
significantly in the near future.
---------------------------------------------------------------------------
    \3\ N. J. Ward and A. Parkes, ``Head-up displays and their 
automotive application: An overview of human factors issues affecting 
safety,'' Accident Analysis & Prevention, vol. 26, no. 6, pp. 703-717, 
1994.
    \4\ R. J. Kiefer and A. W. Gellatly, ``Quantifying t he 
Consequences of the `Eyes-on-Road' Benefit Attributed to Head-Up 
Displays,'' p. 960946, Feb. 1996.
---------------------------------------------------------------------------
    And now, as cars become more intelligent there is an even greater 
need for information to flow to the driver. A driver assist system can 
communicate to the driver that there is a hazard ahead they might not 
have seen, or perhaps a self-driving car will inform the passengers 
that it is aware of the truck that moved in front of them, and that it 
will be taking action accordingly. A visual connection between the 
vehicle and the driver using AR is one of the most powerful ways to 
improve safety on the road today.
    From the beginning of my career, I knew there was something special 
about a technology that centered around people and allowing humans to 
adapt to changes in technology as quickly as computers. I am honored to 
stand before you and share the amazing possibilities that AR has to 
enhance the American worker and create new jobs and opportunities that 
will fundamentally make a positive impact on the world in years to 
come.
    As AR continues to emerge as one of the most important technologies 
of the modern world, I ask the Committee to consider the 
transformational impact that this technology has on our society. The 
use case with consumers will be materially different than the use case 
in the industrial environment and regulations to support that need to 
be tailored instead of painted with a broad brush.
    I applaud the Commerce Committee for their foresight in holding 
this hearing now to begin to understand these issues and I look forward 
to partnering with the United States Government to help support the 
emergence of this transformational technology.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>


    The Chairman. Thank you very much, Mr. Mullins.
    Mr. Pierre-Louis?

               STATEMENT OF STANLEY PIERRE-LOUIS,

           SENIOR VICE PRESIDENT AND GENERAL COUNSEL,

               ENTERTAINMENT SOFTWARE ASSOCIATION

    Mr. Pierre-Louis. Chairman Thune, Ranking Member Nelson, 
distinguished members of the Committee, we are honored to be 
invited to testify about the exciting developing technologies 
that will transform the way our consumers engage with our 
content. I am Stanley Pierre-Louis, and I serve as Senior Vice 
President and General Counsel of the Entertainment Software 
Association.
    ESA is dedicated to serving the policy and public affairs 
needs of companies that publish computer and video games for 
video game consoles, handheld devices, personal computers, and 
the Internet. Our members are at the forefront of the ongoing 
technological revolution in interactive entertainment.
    It is important to note, however, that the technologies 
that we are addressing today will have applications that 
stretch well beyond the video game industry and beyond the 
entertainment sector more broadly. They will impact sectors as 
varied as education, healthcare, engineering, architecture, and 
national defense, just to name a few.
    My written testimony delves into the distinctions between 
augmented reality, mixed reality, and virtual reality. Today's 
other panelists are more expert than I am in these areas, so I 
will focus my oral testimony on the legal considerations 
arising out of these new technologies and our industry's 
approach to addressing them.
    As technologies have emerged over time, laws have developed 
and evolved to ensure Americans' privacy and data security. Our 
Federal laws and regulations have proven to be sufficiently 
robust to protect consumer interests, while remaining flexible 
enough to allow industries to innovate and deliver products and 
services to customers specified to their needs. And in the 
states and territories, there's no shortage of statutory and 
common laws governing negligence, trespass, privacy, data 
protection, and product liability.
    ESA members are committed to meaningful privacy and data 
security protections and to providing the tools consumers need 
to make informed decisions about the products they plan to buy. 
Our industry has embraced a culture of self-regulation and 
informed consent. To that end, our industry has long adopted 
practices that go well beyond what is required by law to inform 
consumers about our products and privacy practices.
    In 1994, for example, our industry created the 
Entertainment Software Rating Board, a nonprofit, self-
regulatory body that assigns ratings for games and apps so 
parents can make informed choices. The ESRB rating system 
encompasses guidance about age appropriateness, content, and 
the interactive elements. This program has been lauded by the 
Federal Trade Commission for our industry's compliance with the 
program as well as for providing conspicuous, straightforward, 
and informative disclosures to consumers. More importantly, 
this program has served its ultimate purpose, as consumers 
report being highly aware of the ratings of the products we 
sell.
    Since 1999, our industry has also operated the Privacy 
Certified Program, which provides online privacy solutions to 
address the growing complexity of privacy protection laws. 
Among other things, the Privacy Certified Program enjoys a safe 
harbor status which shields program members from potential 
sanctions or fines from the FTC and from state attorneys 
general when violations of COPPA or other state legislation 
arise.
    When it comes to balancing children's welfare, parental 
responsibility, and the freedom of expression, the technology 
behind augmented reality and mixed reality fit neatly within 
these existing legal frameworks. After all, these are 
technologies that, at their core, are advanced content delivery 
systems.
    Just five years ago, the U.S. Supreme Court recognized in 
Brown v. Entertainment Merchants Association that video games 
are express works that enjoy the same First Amendment 
protections as books, plays, and movies. And as the late 
Justice Antonin Scalia aptly explained in his majority opinion, 
``whatever the challenges of applying the Constitution to ever-
advancing technology, 'the basic principles of freedom of 
speech and the press, like the First Amendment's command, do 
not vary' when a new and different medium for communication 
appears.''
    The Court rejected the argument that video games present 
special problems because they are interactive, noting that 
interactivity has always been a feature and a goal of 
expressive works. In effect, the Supreme Court left little 
doubt that our foundational laws governing speech are well 
equipped to address emerging technologies like augmented 
reality and mixed reality.
    We encourage the Committee to give these technologies the 
space they need to grow and to avoid any redundant and 
unnecessary regulation that would have a chilling effect on 
this nascent and promising industry.
    Thank you again for the opportunity to testify today about 
the thrilling new technological developments underway. We look 
forward to working with the Committee and answering any 
questions you may have.
    [The prepared statement of Mr. Pierre-Louis follows:]

 Prepared Statement of Stanley Pierre-Louis, Senior Vice President and 
          General Counsel, Entertainment Software Association
    Chairman Thune, Ranking Member Nelson, distinguished Members of the 
Committee, my name is Stanley Pierre-Louis, and I am Senior Vice 
President and General Counsel of the Entertainment Software Association 
(``ESA''). Thank you for inviting me to testify today. ESA is dedicated 
to serving the policy and public affairs needs of companies that 
publish computer and video games for video game consoles, handheld 
devices, personal computers and the Internet. Our members employ 
highly-skilled artists, authors, software programmers, engineers and 
developers who produce a wide array of highly-expressive, interactive 
works, which include audiovisual materials, musical compositions, 
literary works, artistic works and software. Last year alone, the video 
game industry generated more than $23 billion in revenue in the United 
States and entertained hundreds of millions of consumers throughout the 
world. Our members are at the forefront of the ongoing technological 
revolution in interactive entertainment, and I am honored to be invited 
to testify today about the exciting developing technologies known as 
Augmented Reality (or ``AR'') and Mixed Reality (or ``MR'').
I. Introduction
    AR and MR have some similarities to their better-known cousin, 
Virtual Reality (or ``VR''), but differ in key respects--mainly, how 
the video graphics and digital content integrate with the physical 
world around us. With Virtual Reality, the user typically wears a 
headset or opaque goggles (often accompanied by headphones) and is 
closed off from the ``real world.'' The user is fully immersed in a 
software-generated environment (often termed a ``virtual world'') 
displayed before her eyes. By contrast, Augmented Reality involves 
computer technology that overlays software-generated images, sounds and 
other information over the ``real world.'' Complementary hardware for 
AR can include a visor with transparent (or semi-transparent) lenses, a 
head-mounted display, or a hand-held device, such as a smart phone or 
video game equipment. Pokemon GO, the mobile game that captured the 
attention of millions of users worldwide this summer, is one of the 
best-known examples of AR. That game was released on July 6, 2016, and, 
within a week, as many as twenty-five million U.S. smartphones had 
logged in to play the game.\1\
---------------------------------------------------------------------------
    \1\ Future Reality: Virtual, Augmented & Mixed Reality (VR, AR, & 
MR) Primer, Bank of America Merrill Lynch Thematic Investing, Sept. 7, 
2016, at 41 [hereinafter ``Bank of America Report''].
---------------------------------------------------------------------------
    Because AR can be used to overlay data on top of ``real world'' 
activities, it is versatile in a variety of contexts. One popular use 
of AR technology occurs in broadcasts of National Football League 
games, where a virtual blue line is overlaid across the field to 
represent the ``line of scrimmage'' and a virtual yellow line is 
overlaid across the field to represent the ``first down'' marker.\2\ 
Earlier uses of this technology were simulated in several scenes of the 
1977 epic film Star Wars: Episode IV--A New Hope, including when 
Princess Leia sent a pivotal holographic message to General Obi-Wan 
Kenobi.\3\
---------------------------------------------------------------------------
    \2\ Brian D. Wassom, Augmented Reality Law, Privacy, and Ethics: 
Law, Society, and Emerging AR Technologies, at 7 (Allison Bishop ed., 
Syngress, 2015).
    \3\ See http://www.starwars.com/video/help-me-obi-wan-kenobi (video 
of holographic message from Princess Leia).
---------------------------------------------------------------------------
    The potential for AR is enormous. Imagine walking through an 
airport and seeing personalized directions to your gate; watching a 
city bus approach and knowing immediately whether it is the bus you 
need or how long you will need to wait for the next bus; walking by a 
restaurant that prompts a menu to ``float'' in front of you; or getting 
turn-by-turn instructions on your windshield while driving.\4\
---------------------------------------------------------------------------
    \4\ Ian King and Dana Hull, The Car Windshield is Turning into a 
Computer Screen, Bloomberg (Jan. 22, 2015), https://www.bloomberg.com/
news/articles/2015-01-22/the-car-windshield-is-turning-into-a-computer-
screen.
---------------------------------------------------------------------------
    Mixed Reality contains elements of both VR and AR. Whereas VR 
immerses you in a simulated world--and whereas AR overlays digital 
information in real-world settings--MR blends 3-D digital content into 
your physical world. Using a transparent lens or goggles, the user can 
see both the real world and a virtual world seamlessly tied together. 
MR differs from AR in that the virtual images and elements overlaid in 
the user's field of vision can interact with and recognize the user and 
are spatially aware of the environment. In MR, virtual objects placed 
in the real world appear real and tangible to the user. The user is 
allowed to move those objects around, observe their minute details, and 
even interact with them using gestures or voice commands. Imagine 
hiking on a nature trail with a virtual companion who cannot only tell 
you where to go, but teach you about your surroundings.\5\ Or, in the 
video game context, imagine defending against a virtual army of flying 
robots that have invaded your home through the living room walls.\6\ 
The possibilities of these new technologies are truly limitless.
---------------------------------------------------------------------------
    \5\ To be sure, several mobile apps already provide hikers with 
trail directions and information about their surroundings. See http://
beyond.com/blog/how-augmented-reality-will-make-you-a-smart-hiker/ 
(discussing the use of AR in hiking apps); see also http://
www.atlasandboots.com/best-hiking-apps/ (listing mobile and AR hiking 
apps). However, as MR capabilities advance, the technology will become 
more integrated into the user experience.
    \6\ See RoboRaid video, available at https://www.microsoft.com/
microsoft-hololens/en-us/apps/roboraid.
---------------------------------------------------------------------------
    In many ways, VR, AR and MR are evolutionary: they emerged from 
advancements in existing technologies, such as microchip processing, 
software, razor display screens, GPS, 3-D graphics, wearable computers 
and the mobile Internet. Legal frameworks developed in the context of 
these related technologies have protected the public interest 
throughout those advancements.
    But, these technologies may also prove to be revolutionary. We may 
not yet have George Jetson's flying car, but we do have AR and MR. It 
is no longer science fiction. The public's excitement over the 
entertainment possibilities of VR, MR and AR may be driving the current 
wave of innovation and pushing products to market, but we are only 
beginning to scratch the surface of what these technologies can 
achieve. Indeed, the possibilities for the application of these 
technologies in the fields of education, healthcare, science, business 
and national defense are bountiful. And, they will become more 
interactive, more immersive and more accessible and more affordable 
over time. Goldman Sachs researchers recently estimated that, by 2025, 
VR and AR will constitute at least a $23 billion market and could even 
be as much as a $182 billion market.\7\
---------------------------------------------------------------------------
    \7\ Heather Bellini et al., Virtual & Augmented Reality: 
Understanding the Race for the Next Computing Platform, Goldman Sachs 
Global Investment Research, Jan. 13, 2016, at 14 [hereinafter ``Goldman 
Sachs Report''].
---------------------------------------------------------------------------
    American technologists and entrepreneurs are leading the way, just 
as they did at the dawn of the Internet. Our members are at the 
forefront of this innovation, but they are by no means alone. As with 
past technological leaps, the government should embrace and empower 
these emerging technologies by allowing them to iterate, grow and 
flourish so they can reach their full potential benefit to the American 
society and economy. I am pleased to be here today to talk about the 
applications emerging in this field, as well as a few of the ongoing 
considerations that are at the forefront of this evolution.
II. Current and Predicted Applications of these Emerging Technologies
    AR and MR technologies already offer immersive game-playing and 
entertainment experiences. Some examples include using video game 
controllers to play air hockey on a virtual field that is projected by 
the light bars on the controllers (The Playroom, Sony PlayStation 4); 
solving a high-tech crime thriller that uses objects in your physical 
space to create the crime scene and for hiding clues (Fragments, 
Microsoft HoloLens); and a fighting dragon that pops up from an AR 
playing card (Archery, Nintendo 3DS). However, in addition to providing 
entertainment, these technologies will likely serve more broadly as 
platforms for our routine daily tasks. Think of the smartphone. This 
one device, which emanated from the mobile phone, now serves as an e-
mail and texting hub, a calendar, a to-do list, a health monitor, a 
map, a music player, a weather forecaster and a ride-hailing service, 
to name just a few applications. AR and MR have the potential to fuel 
the next generation of tools to make our daily lives even more 
productive and enjoyable and to connect people who might be miles 
apart. They are poised to dramatically improve many sectors of our 
society and economy. Here are just a few of the sectors that stand to 
be dramatically improved by AR and MR.
    In the Entertainment sector, content creators and consumers are 
teeming with excitement over AR and MR.\8\ Video games have already 
undergone dramatic improvements in user experience, but AR and MR 
present new possibilities. And, as the recent success of Pokemon GO 
suggests, this evolution can have ancillary societal benefits. For 
example, unlike traditional video games that were best played from the 
living room or on PCs, AR and MR experiences can be suited to a variety 
of locations, both indoors and out. Pokemon GO motivates users to 
explore the real world around them: to go outdoors and be active. This 
new and promising evolution of games integrates learning, exploration 
and physical activity like never before.
---------------------------------------------------------------------------
    \8\ John Gaudiosi, Why Gamers are Excited about Virtual Reality and 
Augmented Reality, Fortune (Sept. 11, 2015), http://fortune.com/2015/
09/11/gamers-are-excited-about-vr-ar/ (``Gamers are always looking to 
the next thing, whether it is the next game in a franchise or the next 
hardware platform/capability.'').
---------------------------------------------------------------------------
    For video entertainment, AR and MR will be used by artists to 
imagine and bring new worlds to life and to augment our existing worlds 
in ways that once seemed impossible. Peter Jackson, the Oscar-winning 
director of the Lord of the Rings series, serves on the advisory panel 
for Magic Leap, one of ESA's member companies that is at the forefront 
of developing MR technology. Jackson recently told Wired magazine, 
``[t]his mixed reality is not an extension of 3-D movies. It's 
something completely different. . . . Once you can create the illusion 
of solid objects anywhere you want, you create new entertainment 
opportunities.'' \9\
---------------------------------------------------------------------------
    \9\ Kevin Kelly, The Untold Story of Magic Leap, the World's Most 
Secretive Startup, Wired (April 2016), https://www.wired.com/2016/04/
magic-leap-vr/.
---------------------------------------------------------------------------
    Indeed, Magic Leap's MR technology is nothing short of amazing; it 
creates ``mixed-reality objects'' that ``are aware of their 
environment.'' \10\ Advanced hardware ``constantly gathers information, 
scanning the room for obstacles, listening for voices, tracking eye 
movements and watching hands.'' \11\
---------------------------------------------------------------------------
    \10\ David M. Ewalt, Inside Magic Leap, The Secretive $4.5 Billion 
Startup Changing Computing Forever, Forbes (Nov. 2, 2016), http://
www.forbes.com/sites/davidewalt/2016/11/02/inside-magic-leap-the-
secretive-4-5-billion-startup-changing-computing-forever/#491fca29e83f.
    \11\ Id.
---------------------------------------------------------------------------
    Healthcare. AR and MR may prove transformative to the healthcare 
industry. Already today, AR is being used to address the pain 
management and rehabilitation needs of pediatric burn victims.\12\ In 
the future, one could imagine a surgeon wearing AR or MR glasses to 
review a patient's MRI scan results while the scan is overlaid on top 
of the patient. There may be therapeutic uses as well; patients 
experiencing pain could be transported to relaxing destinations. Some 
researchers are even testing the ability of VR to help paraplegics 
learn to walk again.\13\ And still other researchers are examining 
whether these technologies can help treat patients with phobias or 
PTSD, as ``virtual worlds can create artificial, controlled stimuli in 
order to habituate the patient to those environments that cause 
anxiety.'' \14\
---------------------------------------------------------------------------
    \12\ Jonathan Mott, et al., The Efficacy of an Augmented Virtual 
Reality System to Alleviate Pain in Children Undergoing Burns Dressing 
Changes: A Randomised Controlled Trial, Burns Journal (September 2008), 
http://www.burnsjournal.com/article/S0305-4179(07)00286-0/abstract; 
Monika Joshi, Pokemon Go Helps Harborview Patients Heal, America's 
Essential Hospitals (Aug. 11, 2016), https://essentialhospitals.org/
pokemon-go-helps-patients-heal/.
    \13\ Ananya Bhattacharya, Paraplegics are Learning to Walk Again 
with Virtual Reality, Quartz (Aug. 15, 2016), http://qz.com/757516/
paraplegics-are-learning-to-walk-again-with-virtual-reality/.
    \14\ Goldman Sachs Report at 24.
---------------------------------------------------------------------------
    Education. The applications of these technologies to education are 
endless. For example, Microsoft has worked with Case Western Reserve 
University to use the HoloLens for medical student training; medical 
students can view and interact with a holographic human body with 
animated skeletal structure and circulatory system, replacing the need 
for cadavers.\15\ Microsoft is also working with the educational 
publisher Pearson to use the HoloLens to create a number of learning 
tools, including online tutoring and coaching in areas as disparate as 
nursing, engineering and construction.\16\
---------------------------------------------------------------------------
    \15\ Kathryn Jeffords, Virtual and Augmented Reality: Changing the 
Game in Healthcare, Science Media Awards Summit in the Hub (June 29, 
2016), http://www.sciencemediasum
mit.org/blog/virtual-and-augmented-reality-changing-the-game-in-
healthcare.
    \16\ Mark Coppock, Microsoft and Pearson are partnering to Turn 
HoloLens into an Educational Tool, Digital Trends (Oct. 26, 2016), 
http://www.digitaltrends.com/computing/pearson-hololens-mixed-reality-
education/.
---------------------------------------------------------------------------
    Today, users can download iPhone apps that identify stars, 
constellations and satellites when users direct their iPhones to the 
night sky.\17\ However, one can also imagine a class learning about the 
Civil War and seeing a three-dimensional representation of Abraham 
Lincoln standing before the students, delivering the Gettysburg 
Address. And, one can imagine students being virtually transported to 
the Colosseum in Rome during the Flavian dynasty to experience life as 
a gladiator. According to a professor of education the University of 
Pennsylvania's Graduate School of Education, ``[r]esearch shows that 
interacting with AR alone improves students' understanding of a 
concept.'' \18\
---------------------------------------------------------------------------
    \17\ Ci, 5 Superb Augmented Reality Astronomy Apps for iPhone, 
iPhoneness (June 17, 2016), http://www.iphoneness.com/iphone-apps/
augmented-reality-astronomy-apps/.
    \18\ Susan A. Yoon, The Educator's Playbook: The Role of Augmented 
Reality in a Lesson Plan, Penn GSE Newsroom (2016), http://
www.gse.upenn.edu/news/educators-playbook/role-augmented-reality-
lesson-plan.
---------------------------------------------------------------------------
    In addition, high-risk professionals would be able to receive 
realistic, hands-on training in a safe environment. AR and MR 
technology will enabling users to tour a new city and immediately learn 
background information about monuments or architecturally significant 
buildings simply by looking at them. And, one day, we might really know 
what it is like to stand in another's shoes, walking through 
simulations designed to help us understand each other better to help 
foster empathy.\19\
---------------------------------------------------------------------------
    \19\ Nick Harley, How Augmented Reality and Empathetic Storytelling 
is Changing Audience Engagement, PR Newswire for Journalists (Aug. 31, 
2016), https://mediablog.prnewswire.com/2016/08/31/how-augmented-
reality-and-empathetic-storytelling-is-changing-audience-engagement/.
---------------------------------------------------------------------------
    Business and Engineering. As previously mentioned, Microsoft is 
already selling its MR visor, called HoloLens, to developers. A user of 
the HoloLens will be able to watch ``a live football game on a virtual 
screen `hovering' next to a web browser window, alongside a few other 
virtual screens.'' \20\ These ``hovering'' screens could eventually 
replace the various physical screens we use today at home and at the 
office because they can be summoned into (and out of) your field of 
vision and pinned to the walls and counters of your physical space as 
requested while using AR and MR glasses. The mix of entertainment, 
information and work applications has the potential to improve every 
workspace in America.
---------------------------------------------------------------------------
    \20\ Kelly, supra note 9.
---------------------------------------------------------------------------
    The applications for architects, builders, designers, artists and 
engineers will be nothing short of transformative. Instead of looking 
at a two-dimensional computer screen rendering a space in 3-D, users 
will be able to stand in the space as they create it before a single 
brick is laid. In fact, Lockheed Martin has collaborated on AR projects 
to speed up the maintenance process for F-22 and F-35 fighter jets: 
``When an engineer looks at the aircraft using the smart glasses, they 
see digitally displayed plans projected over the physical plane. They 
can then use a tablet to enter any damage or defects.'' \21\
---------------------------------------------------------------------------
    \21\ See Augmented Reality and Workplace Training, SpongeUK (June 
19, 2015), http://spongeuk.com/2015/06/augmented-reality-and-workplace-
training/.
---------------------------------------------------------------------------
    This technology also enhances the ability of consumers to become 
more mobile. Have a new job in St. Louis or in Tampa? Instead of 
incurring the expense of flying to look for a new home, take a virtual 
tour of homes from right where you are.\22\ Similarly, vacationers are 
now able to explore possible destinations before committing to a locale 
or a hotel.\23\
---------------------------------------------------------------------------
    \22\ See https://www.vrglobal.com/real-estate/ (solutions for 
virtual tours using VR and AR technologies).
    \23\ See http://www.augment.com/blog/augmented-reality-in-tourism/, 
(discussing use of AR technology in tourism).
---------------------------------------------------------------------------
    National Defense. The United States military already uses VR to 
train military personnel, including flight and combat simulations.\24\ 
As this technology helps create more realistic, immersive simulations, 
this aspect of military training will become increasingly useful and 
effective. It is also not hard to imagine the value of AR or MR glasses 
on the battlefield, where vital information could be placed 
strategically in the user's field of vision, accessible without the 
user having to resort to looking down at a screen or map. Indeed, so-
called ``heads-up'' displays are now commonplace in our military's 
advanced fighter jets.\25\
---------------------------------------------------------------------------
    \24\ Goldman Sachs Report at 26.
    \25\ See Sean Gallagher, ``Magic Helmet'' for F-35 ready for 
delivery, Ars Technica (July 24, 2014), http://arstechnica.com/
information-technology/2014/07/magic-helmet-for-f-35-ready-for-
delivery/.
---------------------------------------------------------------------------
III. Legal Landscape
    As technologies have emerged over time, laws have developed and 
evolved to ensure Americans' privacy and data security. Our Federal 
laws and regulations have proven to be sufficiently robust to protect 
consumer interests, while remaining flexible enough to allow industries 
to innovate and deliver products and services to customers specified to 
their needs. Moreover, in each state and territory, there is no 
shortage of statutory and common laws governing negligence, trespass, 
privacy, data protection and product liability.
    ESA's members are committed to meaningful privacy and data security 
protections and to providing the tools consumers need to make informed 
decisions about the products they plan to purchase. Our industry has 
embraced a culture of self-regulation and ``informed consent.'' To that 
end, our industry has long adopted practices that go well beyond what 
is required by law to inform consumers about our products and privacy 
practices. In 1994, for example, our industry created the Entertainment 
Software Rating Board (``ESRB''), a non-profit, self-regulatory body 
that assigns ratings for video games and apps so parents can make 
informed choices. The ESRB rating system encompasses guidance about 
age-appropriateness, content, and interactive elements.\26\ This 
program has been lauded by the Federal Trade Commission (``FTC'') for 
our industry's compliance with the program as well as for providing 
conspicuous, straightforward and informative disclosures to 
consumers.\27\ More importantly, this program has served its ultimate 
purpose, as our consumers are highly aware of the ratings of the 
products we sell.\28\
---------------------------------------------------------------------------
    \26\ In 2015, ESRB expanded the use of its ratings to mobile and 
digital storefronts as part of the International Age Rating Coalition 
(``IARC''). Information on IARC available at: https://
www.globalratings.com/.
    \27\ See FTC Undercover Shopper Survey on Entertainment Ratings 
Enforcement Finds Compliance Highest Among Video Game Sellers and Movie 
Theaters, FTC (March 25, 2013), https://www.ftc.gov/news-events/press-
releases/2013/03/ftc-undercover-shopper-survey-entertainment-ratings-
enforcement.
    \28\ See ESRB Survey: Parental Awareness and Use, https://
www.esrb.org/about/awareness.aspx (``86 percent of parents are aware of 
the ESRB rating system'').
---------------------------------------------------------------------------
    Since 1999, the ESRB has also operated the Privacy Certified 
program (formerly the ESRB Privacy Online program), which provides 
online privacy solutions to address the growing complexity of privacy 
protection laws. Among other things, the Privacy Certified program 
enjoys ``safe harbor'' status, which shields program members from 
potential sanctions or fines from the FTC and/or state attorneys 
general when violations of the Children's Online Privacy Protection Act 
(or similar state legislation) arise.\29\
---------------------------------------------------------------------------
    \29\ For more information on the ESRB Privacy Certified program, 
see https://www.esrb.org/privacy/faq.aspx#2.
---------------------------------------------------------------------------
    When it comes to balancing children's welfare, parental 
responsibility and the freedom of speech and expression, AR and MR 
technologies fit neatly within existing legal frameworks. After all, AR 
and MR are, at their core, advanced content delivery systems. Just five 
years ago, the U.S. Supreme Court recognized in Brown v. Entertainment 
Merchants Association that video games are expressive works that enjoy 
the same First Amendment protections as ``books, plays, and movies.'' 
\30\ As the late Justice Antonin Scalia aptly explained in his majority 
opinion, ``whatever the challenges of applying the Constitution to 
ever-advancing technology, `the basic principles of freedom of speech 
and the press, like the First Amendment's command, do not vary' when a 
new and different medium for communication appears.'' \31\ The Court 
rejected the argument that ``video games present special problems 
because they are `interactive,' '' noting that ``interactivity'' has 
always been a feature--and a goal--of expressive works: ``the better it 
is, the more interactive.'' \32\ The Supreme Court left little doubt 
that our foundational laws governing speech are well-equipped to 
address emerging technologies like AR and MR.
---------------------------------------------------------------------------
    \30\ 564 U.S. 786, 790 (2011).
    \31\ Id.
    \32\ Id. at 798 (internal quotation marks omitted).
---------------------------------------------------------------------------
    History is instructive on other examples of the law's adaptability 
to new technologies. In the late 1990s, during the still-early days of 
the World Wide Web, the FTC believed that many Internet sites did not 
provide consumers with adequate disclosures.\33\ The FTC responded by 
developing guidance (known as the ``Dot Com Disclosures'') to help 
businesses apply established principles of ``clear and conspicuous'' 
disclosure to the online context. It has since updated that guidance 
several times as the Internet has evolved.\34\ All of this has occurred 
within existing FTC authority and without the need to amend the FTC 
Act.\35\
---------------------------------------------------------------------------
    \33\ See FTC Staff Issues Guidelines on Internet Advertising (May 
3, 2000), https://www.ftc.gov/news-events/press-releases/2000/05/ftc-
staff-issues-guidelines-internet-advertising.
    \34\ See FTC Staff Revises Online Advertising Disclosure Guidelines 
(March 12, 2013), https://www.ftc.gov/news-events/press-releases/2013/
03/ftc-staff-revises-online-advertising-disclosure-guidelines.
    \35\ See .com Disclosures: How to Make Effective Disclosures in 
Digital Advertising, FTC (March 2013) at p. 2, https://www.ftc.gov/
system/files/documents/plain-language/bus41-dot-com-disclosures-
information-about-online-advertising.pdf (``The FTC Act's prohibition 
on `unfair or deceptive acts or practices' broadly covers advertising 
claims, marketing and promotional activities, and sale practices in 
general. The Act is not limited to any particular medium.'').
---------------------------------------------------------------------------
    We encourage the Committee to give AR and MR the space they need to 
grow, and to avoid any redundant and unnecessary regulation that would 
have a chilling effect on this nascent and promising industry.
IV. Conclusion
    Thank you again for the opportunity to testify today about the 
thrilling new technological developments under way. These are exciting 
times for creators, developers, consumers and our country as a whole. 
AR and MR have tremendous potential beyond entertainment. We should 
encourage continued American innovation and investment in these areas. 
And when issues arise, we should look first to existing legal 
frameworks that have served consumers well in the past. We look forward 
to working with the Committee and answering any questions you might 
have.

    The Chairman. Thank you, Mr. Pierre-Louis.
    We'll proceed to questions, I think.
    Senator Nelson, do you want to submit, or do you want to 
make a statement?

                STATEMENT OF HON. BILL NELSON, 
                   U.S. SENATOR FROM FLORIDA

    Senator Nelson. Mr. Chairman, you're very kind. I'll submit 
an opening statement.
    [The prepared statement of Senator Nelson follows:]

   Prepared Statement of Hon. Bill Nelson, U.S. Senator from Florida
    Chairman Thune, thank you for holding this hearing to explore the 
exciting promises of augmented reality technologies and to spur 
important discussions on the many policy questions that augmented 
reality raises.
    Over the August recess, I took a tour of Magic Leap's facility in 
Dania Beach, Florida. Magic Leap, which will be headquartered in 
Plantation, is one of the leading, cutting-edge AR companies in the 
world.
    And what I saw was truly amazing--not only because this technology 
will change how we interact with the world, but also because of what it 
means for growing Florida's economy and creating well-paying, high-
skilled jobs.
    And, if I may, Chairman Thune, I'd like to submit for the record a 
recent piece in Wired Magazine on Magic Leap.
    Yes, augmented reality can be used for video games. But it can also 
be used to educate or do business like never before, spurring 
efficiency and convenience. And the technology has the potential to 
break down barriers for those with disabilities and create a safer 
world for consumers.
    One of the big questions is: what does augmented reality mean for 
consumer privacy? AR devices can potentially record, download, and 
store vast amounts of information about the real world, including about 
innocent bystanders who may have no clue they are being recorded. What 
are we going to do to protect their privacy?
    And what must be done to make sure that these devices are secure 
from hackers and cyber-vulnerabilities? For instance, augmented reality 
is being used in cars so drivers can get real-time information on their 
windshields. Will hackers be able to infiltrate that system and, say, 
block the driver's view of a stop sign or a pedestrian crossing the 
street?
    How will we protect children from unsuitable augmented reality 
content? Parents are already struggling to shield their kids from 
adult-oriented and dangerous videos and video games. This could be an 
even bigger problem for parents when it comes to sophisticated AR 
content that may be completely inappropriate for young eyes and brains.
    These are the types of questions I hope our witnesses can shed some 
light on. I share my colleagues' enthusiasm about this exciting, 
ground-breaking technology. And I'm a believer in what this growing 
industry can do for states like mine in creating the jobs of tomorrow. 
But we also must ask some of the tough questions to make sure that 
innovation is taking place in a responsible manner.
    Thank you.

    Senator Nelson. May I just ask one question, because I want 
to give our other members a chance here.
    Cybersecurity--we've seen how you can take over a car. You 
could possibly take over an airplane. So could a hacker make a 
digital flock of birds, if you're using AR in the cockpit, to 
make it look as if it were going to fly through the windshield 
of the airplane? And what can we do about that?
    Mr. Mullins. Senator, thank you for the question. I think 
it's a fantastic question. I think as the technology gets 
better, the simple answer is yes, we could make virtual objects 
that are indistinguishable from the real world. I think the 
underlying question about the security of augmented reality is 
a very serious question that applies to technology in general 
and is one that we need to get out in front of and plan for in 
the products we make and as we develop the technologies.
    There will certainly be new opportunities with augmented 
reality for exploitation by bad actors, as there is with any 
new technology. I think it's questions like this being asked 
today that will help us get in front of those problems as an 
industry and in regulation.
    Mr. Calo. I just want to add to that. One of the 
recommendations that we came up with within the Tech Policy 
Lab--one of my colleagues, who is my co-director of the lab 
actually did the original work showing that you could take over 
a car and cause it to break and do all these different things--
Tadayoshi Kohno--was that with augmented reality, doing really 
good threat modeling is critically important. By threat 
modeling, we mean that you imagine all the things that people 
might be able to do with it, including--and that's a brilliant 
one--the idea of introducing a fake flock of birds.
    But just think, you know, you could also have it happen 
much more simply, such as just obscuring a stop sign so that 
you don't see it. I remember that my colleague, Tadayoshi 
Kohno, had an app that he was using when he was running to keep 
track of his running, and he looked at it, and he thought that 
he saw a spider on it. So he threw it to the ground, and it 
broke. It actually broke his phone.
    Later, what we pieced together was that an app that was 
tracking his running had allowed an exterminator service to 
take over and do an advertisement, and the advertisement was 
like a shock advertisement to scare him into thinking it was 
a--he really got scared. And as a tort professor, that strikes 
me as being an awful lot like kind of a digital assault.
    So I think that when bones instead of bits are on the line, 
I think that the kind of thing that you're talking about is 
particularly crucial, and I think that it is absolutely 
incumbent on these companies to make sure that they're doing 
very good threat modeling and taking security extremely 
seriously.
    Mr. Hanke. If I could add one thing to that, I'm very glad 
you raised that question. I absolutely think it's incumbent 
upon all of us offering products to have best-of-breed security 
out there. For any company that's trying to operate in today's 
environment, that is a core part of the business. You have to 
invest in it. I think we were kind of lucky at Niantic in that 
we had the benefit of working within Google for many years--
many of the core members of the team--which has had to deal 
with all kinds of threats, and we knew that we were going to 
have to expect that.
    But to the point I made earlier about sometimes it not 
feeling like there's a sheriff, I would just reemphasize that 
it's a lot to ask of U.S. companies to go out there when 
threats can come flying in, and do come flying in, constantly 
from all over the world, where people essentially can act with 
impunity, and you stop them in one place, and they come back 
somewhere else. There's no real risk to this for the folks that 
are doing it. So we are asking a lot of our companies to play 
whack-a-mole and to just continuously fight off those attacks 
on their own.
    Senator Nelson. By the way, if you're the guy who developed 
Google Earth, thank you. I use it all the time, and I use it to 
see what roads are congested.
    [Laughter.]
    Mr. Hanke. That's great to hear. Thank you.
    Mr. Pierre-Louis. Senator Nelson, Stan Pierre-Louis. In 
answer to your question, one of the interesting things about 
being in the video game industry is that we are dual DNA. We 
are both a content industry, because we create creative works, 
but we're also a software industry, so we're a tech. So we've 
got a lot to think about when we put our products out.
    One is how do we protect our content--very important--and 
we've got security measures there both in terms of the software 
and the consoles or other devices. Second, we need to think 
about how we protect our corporate data, because that's very 
valuable and important, and the third is how do we protect 
consumer data. So the thought process of that protection goes 
very deep into the design of how we create our works and 
distribute those works.
    But more and more, as you're seeing larger threats and as 
you're seeing state actors make those threats, one of the areas 
that obviously has to be taken into consideration is what we do 
about our cybersecurity laws and strengthening them. That's one 
of the areas that we think about. How do we strengthen them to 
make sure that we're all headed toward the same goal and not 
creating opportunities for bad actors? So that's going to be an 
important element of this as well.
    The Chairman. Thank you, Senator Nelson. Echo on the Google 
Earth. I'm a big fan of Google Earth, so well done.
    Senator Wicker?

              STATEMENT OF HON. ROGER F. WICKER, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Wicker. I'm sorry I didn't get here in time for the 
demonstrations. But let me ask about what this is going to do 
for job creation in a state like mine. We'll start with Mr. 
Mullins.
    You've got the Smart Helmet. Is this going to create jobs? 
Is it going to replace jobs? And in what ways might this 
encourage some guy that wants to be a welder or is more 
inclined toward the vo-tech type education? Could you expand on 
that? We'll start with you, Mr. Mullins.
    Mr. Mullins. Thank you, Senator. Absolutely, the products 
like the Smart Helmet are designed to create jobs, to empower 
workers with something we call ``knowledge transfer.'' Very 
complex activities, very complex tasks can be broken down and 
shown visually so that they're much easier to comprehend, to 
understand. It allows workers to put on a device like the Smart 
Helmet and be able to perform a task or even work in a job that 
they don't have any prior experience with.
    It's substantiated by independent studies. Elaborating on 
the Boeing and Iowa State study that I mentioned in my 
testimony, they used augmented reality to train workers that 
had never before put together aircraft wings. Those workers, 
using augmented reality, were able to put the wings together, 
although they had no experience doing it, in 30 percent less 
time and with over 90 percent less errors than with any other 
training method.
    What was really fascinating, if you read the study in its 
entirety, is that the second time those workers used augmented 
reality to assemble the wings, the mean error rate was zero. 
They were able to remove human error from the equation 
completely, and these were workers that had never before 
performed those activities, never worked in those jobs.
    You mentioned welding, specifically, in the question. We 
have seen in our own customer base augmented reality used to 
train welders faster than previously possible, far exceeding 
the rates at which a successful welder can be deployed than 
even that in dedicated trade schools for welding. I think the 
opportunity here is actually to not just create jobs, but to 
improve the concept of worker portability, where a worker who 
may have spent a substantial amount of time in their career in 
a job or even an entire segment of industry that may not be 
relevant anymore--to give them the opportunity, without having 
to take multiple years off to reskill and retrain, to enter the 
workforce in a very productive way in a dramatically shorter 
period of time.
    I think that augmented reality has a huge opportunity to 
help us not just create new jobs, but to reshape the workforce, 
and to fill the jobs that we have a very difficult time filling 
today with the workers that wake up in the morning and want to 
make a living. They want to do something and don't have the 
experience today to do it.
    Senator Wicker. In the minute and a half we have left, does 
anyone else want to take a stab at that?
    Mr. Pierre-Louis?
    Mr. Pierre-Louis. Thank you, Senator Wicker. As you were 
speaking, I was thinking of a few things that came to mind. One 
is the fact that a career in video game design, of which there 
are three schools in the city that actually have video game 
design and there's a company there. People often leave that and 
go into many industries, because the skills you learn in 
learning how to make simulations are actually broader and have 
lots of applications, one of which is an exciting technology 
that one of our members, Microsoft, is working on now.
    So they've developed a visor called ``HoloLens,'' and it's 
a visor that's see-through but you can have data input into it. 
They're working with an educational publisher named Pearson to 
develop educational online tutorials, whether it's for nursing, 
construction, engineering, and so you're able to retrain--they 
are working on developing this program now on retraining people 
into various careers, and you're able to do that in a very 
consistent manner. Just as Mr. Mullins discussed, when you have 
consistent training, you can get to a place where all workers 
are learning the same craft in an even-paced way. So a lot of 
exciting technologies.
    Senator Wicker. Mr. Blau?
    Mr. Blau. Thanks. It's a great question, and I just wanted 
to tell you that I have the great opportunity to talk to many 
businesses around the world, both in core business market and 
consumer as well. The inquiries that come to my desk are wide 
ranging, and in terms of creating jobs, we can see 
opportunities in the retail sector, in insurance, in training, 
in science and education, manufacturing, and I could go on and 
on about the list. So we really think that there's an 
opportunity for this technology to be put into businesses for a 
wide variety of use cases.
    I liked your question, though, about how many different 
people could use the technology. We think it could be used from 
children all the way through adults and elders, too, and in 
businesses and the consumer domain, and not only in just the 
United States, but there are a lot of use cases we see in 
foreign countries. I have the great opportunity to travel to 
Asia and to Europe, and I get a lot of questions there about 
how to use the technology.
    So we really think it can be broadly applicable, and we 
think it can create jobs, and not only that, but we think it's 
going to be beneficial to all of these industries that want to 
use it because it's going to improve productivity, maybe give a 
great entertainment experience, and that alone will create a 
lot of jobs in the future.
    Senator Wicker. Well, thank you very much.
    Mr. Chairman, if you'll indulge me for another second or 
two--Mr. Mullins, you thought enough of your alma mater to 
mention it in your opening statement. I'm on the Board at the 
Merchant Marine Academy and very proud to be an active member 
of the Board. Are you a member of the Alumni Association?
    Mr. Mullins. Thank you for the question. I think that I 
will be in the near future. Thank you, Senator.
    [Laughter.]
    Senator Wicker. They could use you, and I would have to 
say--and I think you would agree--that the skills you learned 
as an engineering student have served you well in your chosen 
career.
    Mr. Mullins. Without a doubt. I think that the skills and 
the broad applicability of engineering across the Merchant 
Marine and all the factors involved definitely helped in how I 
conceptualized augmented reality being deployed in the 
workforce.
    Senator Wicker. And that semester at sea made you a well-
rounded person, don't you think?
    Mr. Mullins. Yes, sir. One of the best experiences of my 
life.
    Senator Wicker. Great. Thank you so much.
    Thank you, Mr. Chairman.
    The Chairman. Senator Wicker, I was just waiting for the 
fundraising pitch there.
    [Laughter.]
    The Chairman. Senator Peters?

                STATEMENT OF HON. GARY PETERS, 
                   U.S. SENATOR FROM MICHIGAN

    Senator Peters. Thank you, Mr. Chairman.
    Fascinating testimony here today, and I had the pleasure of 
seeing some of the applications before the hearing here, and I 
appreciate you bringing some of your applications for us to 
experience.
    But, Mr. Hanke, I want to continue to go down the lines of 
your concerns about cybersecurity, something that I worry a 
great deal about. Being a member of the Commerce Committee here 
and also a member of the Homeland Security Committee, I believe 
that probably our most significant threat that we face is cyber 
threats to industry and to national security issues and, in 
particular, to small businesses.
    Your business--you talked about as you launched the Pokemon 
GO the number of cyber attacks that you had repeatedly. I know 
you're a fairly small company of 75 employees, a startup, 
incredibly successful, but nevertheless not large enough to be 
dealing with all of the whack-a-mole that you deal with, as you 
mentioned in your testimony.
    I actually have introduced bipartisan legislation called 
the Small Business Cyber Security Improvement Act, which we're 
hoping will create more collaboration with small businesses, 
the Department of Homeland Security, SBA, and other ways in 
which small businesses can learn some best practices, perhaps, 
or some things that they need to be aware of. But I'd be 
curious as to some of the lessons that you learned in dealing 
with those cyber attacks, something that might be helpful for 
us as we're thinking about how we assist other small businesses 
who have great ideas but are also potentially exposing not only 
themselves and their customers, but the wider net of potential 
cyber attacks.
    Mr. Hanke. Well, I welcome the opportunity to raise 
awareness for that topic some more, so thank you for bringing 
it up. In terms of what lessons did we learn, the variety of 
attacks and the origin of those attacks is worldwide. It was 
eye-opening to really understand that those attacks are coming 
in from all quarters and the degree of really smart engineers 
out there in many places around the world that perhaps lack 
opportunity to pursue other things and devote themselves to 
these kinds of attacks and formulating them.
    The sophistication of these attacks is impressive, from a 
technology point of view. It is not something I think a company 
that doesn't have experience and doesn't have substantial 
resources is going to be successful in fending off. So the idea 
of best practices and sharing that, I think, is a sound one. It 
takes resources to implement those. It costs money.
    A good place to start might be with the cloud providers 
themselves, Amazon and Google, you know. A lot of people host 
on those services, and I think they do a very good job. But 
that is kind of the first line of defense, and then beyond 
that, there are additional things that companies have to do at 
the corporate network level, as well as at the product level. 
So I'm afraid I don't have a magic solution for you, other than 
just at this point having an expanded appreciation for the 
degree and sophistication of what businesses are up against.
    Senator Peters. Well, I appreciate that. I appreciate that 
we don't have a magic wand, but that's something we obviously 
have to be thinking about every day.
    Mr. Pierre-Louis. Senator Peters, that's a great question. 
One of the things that companies are doing more and more now is 
building in cybersecurity and data security into the design of 
all the applications, and that's as necessary as having a lock 
on your door now, because we know it's a threat. It's been 
reported on, and it happens.
    One of the helpful developments over the past few years has 
been the DOJ and FTC working together to provide some rules 
that allow for information sharing, for example, among and 
between companies so that they can analyze threats and 
sometimes even work with law enforcement, and I guess I would 
encourage lawmakers to continue that encouragement and to 
continue that practice, because you learn a lot by 
collaboration, and knowing that you don't have the threat of 
litigation for doing so or an increased threat of other matters 
is helpful. So I guess I would encourage continued 
collaboration and encouraging that collaboration.
    Senator Peters. Thank you.
    Yes?
    Mr. Calo. Thank you, Senator Peters. One thing I would 
say--and this applies more broadly than augmented reality, 
certainly--is that it's not just the companies by themselves 
that are able to identify issues. It's also researchers. One of 
the problems that we as researchers face is that we worry that 
our reverse engineering or our attempts to figure out what the 
flaws might be with a device will be met with legal challenges, 
so, for example, if you're poking around in the software in the 
firmware that you're violating the Computer Fraud and Abuse 
Act, or perhaps you're violating the anti-circumvention 
provision of the Digital Millennium Copyright Act.
    So I think the one thing that the government can do is to 
make it absolutely crystal clear to researchers that they're 
allowed to look into these products, like Internet of Things 
and augmented reality, to make sure that they are as safe as 
can be and to identify flaws. I think that would be very 
empowering to the research community to help with the 
cybersecurity effort.
    Senator Peters. Right. Thank you. I appreciate it. I'm out 
of time.
    The Chairman. Thank you, Senator Peters.
    Senator Daines, do you want a minute, or do you--I could 
ask some questions in the interim, but if you're ready, go 
ahead.

                STATEMENT OF HON. STEVE DAINES, 
                   U.S. SENATOR FROM MONTANA

    Senator Daines. Thank you, Mr. Chairman. It's just-in-time 
manufacturing here.
    [Laughter.]
    Senator Daines. Speaking of that, prior to my time in the 
Senate, I spent many years helping build software companies and 
so forth in remote places like Montana, believe it or not.
    So for Mr. Pierre-Louis, can you talk about the job 
creation potential in the AR space, particularly in rural 
communities?
    Mr. Pierre-Louis. Sure. What we're seeing with augmented 
reality and what we're seeing with mixed reality is an ability 
to train from afar, communicate from afar, and to collaborate 
from afar, so there are lots of opportunities. I think about 
education, for example. Earlier, I talked about the fact that 
Microsoft was using HoloLens to create online tutorials for a 
number of jobs. Those that have been highlighted are nursing, 
construction, engineering. But in rural communities, you can 
also do a lot of training and a lot of repairs. So I think it 
allows for that collaboration while at the same time providing 
a consistency to that experience.
    Senator Daines. One thing we're seeing is what used to be a 
liability when I was kid growing up north of Yellowstone Park--
we always thought it was an asset, but the rest of the world--
it's funny--it's a tremendous quality of life asset, where you 
can have your cake and eat it, too, particularly for the 
digital natives. We can attract and retain truly world-class 
talent. They don't want to go anywhere else, because they don't 
have traffic jams, and they're 15 minutes away from world-class 
skiing and backpacking and so forth.
    Speaking about the next generation, a question I have is 
you think of the AR-VR industry--it's expected to reach 
revenues, my understanding is, of $100 billion kind of numbers 
by the year 2025. What types of skills do you believe younger 
generations need to focus on to fill these new jobs created by 
this industry?
    Mr. Pierre-Louis. Well, there are a couple of different 
things that we've seen in our industry. First, in terms of our 
consumer base, we have a very digital, very active base, and 
they let us know what they think of everything from game plots 
to return policies. So you get a lot of feedback of what's 
important. One of the things that has become very important is 
opportunities not only to play the games, but to learn how to 
make the games. So that ability has led people to lots of other 
things. For example, there are 131 schools in California that 
have video game programs, and those game programs can lead you 
to jobs in aerospace, not just in games. So there are lots of 
opportunities to do that.
    But what we're also seeing is because they want to get into 
game design, they're actually very interested in more STEM, and 
the more STEM you learn, the more you can play in this space, 
because we are becoming a very digital society and you need to 
understand from an early age, not just algebra, but how you put 
it all together. I think it is actually motivating lots of 
younger people, and it's actually having a spike in women and 
minorities wanting to get into these fields because it's much 
more exciting. It's almost a back-door way of getting people 
more into science, generally, because you come in on the game 
end, and you end up making simulations for airliners.
    Senator Daines. Yes. In the time I have left, I want to 
switch over to vehicle safety.
    Mr. Mullins, thank you for the great demo. Montana has the 
second highest rate of vehicle ownership per capita in the 
Nation. We lost over 200 lives last year in Montana on the 
roads. We heard today that AR is one of the most powerful ways 
to improve safety on the road. I don't doubt that at all.
    In rural areas, we drive on gravel roads. We drive in very 
unpredictable conditions. We have elk and deer, sometimes 
bison, crossing the roadways, and we have roads, in fact, that 
don't even register on GPS. A driver could be on the road for 
hours without seeing another car.
    We have folks who come out to Montana from the cities. 
They're frightened when traveling with me in my pickup. They 
won't see another vehicle for many, many--you know, extended 
periods of time during the night, and I tell them, ``We're 
safe. If we break down, there'll be a rancher that'll be here 
and be very kind. He'll take care of us.''
    So how can you explain--or could you explain how these 
safety benefits will translate to rural America where we have a 
disproportionate share of the automobile fatalities in our 
nation?
    Mr. Mullins. Senator, this is an excellent application for 
augmented reality in vehicles, both in newer vehicles and more 
and more with the option to easily upgrade with aftermarket 
products. Cars, through their automated driver systems and more 
and more automation--they have sensors. They have a wealth of 
information to understand some of the problems that you 
described. You know, elk in the road is not a funny issue, and 
it seems like something that we could very easily fix by 
tapping into the sensors that are in the vehicle that 
understand that there's an obstruction, there's something else 
there, and to be able to visually call to the attention of the 
driver in a way--in an amount of time that they can react to it 
and they can respond to it.
    You know, it starts with something seemingly simple like 
that, saving a small number of lives and then expanding and 
looking at how those sensors that are designed for autonomous 
driving in urban environments could be adapted to take that 
same sense of awareness that the vehicle gets and adapting them 
specifically to the hazards of rural driving and the unique 
requirements there that could lead to saving lives.
    Senator Daines. Thank you.
    It's amazing how fast 5 minutes goes by, Mr. Chairman, so 
thank you.
    The Chairman. Thank you, Senator Daines. You asked a number 
of questions that I was going to ask, so I'd like to associate 
myself with the questions from the Senator from Montana.
    And, Mr. Hanke, those roads that don't show up on most 
maps--does Google Earth and Google Maps capture those roads in 
Montana that Senator Daines drives down?
    Mr. Hanke. Well, it sounds like there's some more work to 
do there. I will contact my colleagues at Google and let them 
know that there's room for improvement in their products.
    Senator Daines. Except for that road to my favorite elk 
hunting spot. I want to keep that private.
    [Laughter.]
    The Chairman. He doesn't want that to show up on any map.
    Thank you, Senator Daines.
    So, Senator Booker, have you played Pokemon GO?
    Senator Booker. I refuse to answer that question on the 
grounds it might incriminate me.
    [Laughter.]
    The Chairman. Well, I was hoping that perhaps you could 
counsel Senator Nelson and I about how to do it someday, maybe 
walk us through it.
    But, anyway, Senator Booker is probably one of the highest 
tech Senators we have on our Committee.

                STATEMENT OF HON. CORY BOOKER, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Booker. Mr. Chairman, you'll have to forgive me, 
because I literally have to dart out, but I didn't want to do 
so without just thanking everybody for being here and thanking 
you for your testimony.
    Mr. Calo, I really appreciated your white paper about a lot 
of the legal issues and a lot of the other concerns. I'm really 
excited about this space. I don't think we even understand 
fully how it can be enhancing life, especially--there are a 
number of us who have gotten together on a bill around the 
Internet of Things--just the potential for health, well-being, 
safety, education, and learning. It's just such an 
extraordinarily exciting world.
    This is a wonderful bipartisan space, because I've been 
very vocal on the Commerce Committee about how our regulations 
are choking a lot of innovations, and we need to make sure that 
we create a nurturing environment where we can continue to be 
the number one exporter of innovation here in America. You 
know, I joked in another hearing about how we had a regulatory 
framework for drones that was so choking and forcing drone 
innovation to go into other countries that, frankly, if that 
kind of regulation was around during the time of the Wright 
brothers, we would have never gotten the airline industry off 
the ground here.
    So I'm very excited about it. But one question I wanted to 
ask before, literally, I sprint out for a meeting is that one 
of the other areas or the problem that we have as a result of 
this--and I really appreciate, Mr. Pierre-Louis, your comments 
about diversification and even a richer pipeline of diversity 
coming into STEM subjects. But I have this continuing concern 
about the fact that we do not have a level playing field in 
terms of access to the Internet right now, access to broadband, 
and what that could mean, especially as these new opportunities 
are coming.
    In terms of a fair playing field, does anybody have any 
ideas about what we should be thinking about in terms of the 
government's obligation to try to make sure, as this 
superhighway is sort of taking people to these new worlds of 
innovation and opportunity, that folks are not being left 
behind? I didn't know if anybody would want to comment on that.
    Mr. Hanke. I would love to comment on that. You know, as 
somebody who grew up in a rural area, in my case, west Texas--
I'm headed back there to visit my family at the end of the 
week. I will arrive there, and I will not be able to use the 
products that I work on there, because I will be limited to 3G 
service when I arrive.
    I do think it's an important issue, not only to access the 
products that people are bringing to market, but to inspire the 
youth there to know about these things, to be aware of them, to 
pursue careers in that area. Virtually all of our 
communications and much of our learning and access to 
information now is moving to mobile devices, and if one is 
sipping through a narrow straw in terms of the ability to 
consume information, to pursue opportunity there, that does 
feel like a very limiting factor to me.
    I am certainly empathetic to the youth growing up in my 
hometown. I would like for them to discover and be inspired by 
opportunities that will lead them to a happy and prosperous 
future. A lot of those opportunities now are coming through 
that pipe. So if government can broaden it, that strikes me as 
a very good thing for the government to put its weight behind 
and to achieve.
    Senator Booker. Mr. Chairman, with that, I'm going to say 
thank you. I just want to--again, having read the white paper 
that was about a lot of fears and concerns, I hope--when we 
have new innovations going on--that we don't allow a lot of our 
fears of the worst case scenario force us to over-regulate or 
do things that inhibit thinkers and imaginers and innovators 
from doing their work. That's one area I really do think 
there's a lot of bipartisan commitment to. So thank you very 
much, and forgive me for not being able to stay longer.
    The Chairman. Thank you, Senator Booker, and not only on 
that issue, but also on the extension of broadband all over the 
country. There are a lot of places where I come from, too, that 
you can go to where you wouldn't be able to do the things that 
we're talking about here today.
    Senator Booker. In New Jersey, we're very concerned about 
buffalo crossings as well.
    [Laughter.]
    The Chairman. Buffalo and elk and--yes.
    Let me just ask a few questions here as we wrap up.
    Mr. Mullins, one of the major impediments to the successful 
deployment of any technology is consumer adoption, and DAQRI's 
technology is largely designed for industrial applications. 
What barriers do you anticipate with regard to broader consumer 
adoption?
    Mr. Mullins. I think that's a great question. I think one 
of the largest barriers to transitioning to consumer adoption 
is actually the issue of the industry over-promising and under-
delivering. The consumer expectation is very high, and there 
are the natural price sensitivities. When you roll out a 
technology to the enterprise first, the costs of the technology 
are measured by the return on investment and the value that is 
created in the enterprise.
    I think we expect the augmented reality industry to follow 
the trends of the cellular telephone. Phones didn't start out 
as smartphones. They didn't even start out as the bricks we 
remember. They were first briefcases. They were very expensive 
and had limited coverage. But if they kept you connected and 
allowed you to make a decision, they were worth the investment, 
and that investment from enterprise created the infrastructure 
that ultimately led to consumers.
    Technology moves a lot faster today, so I don't think it 
will take decades. But it will be slow, and I think that both 
regulations and the industry needs to do a good job of setting 
the expectation of consumers and fostering the development of 
augmented reality in the spaces that make a big impact today.
    The Chairman. Mr. Blau, thoughts on the same subject, 
barriers to consumer adoption?
    Mr. Blau. Sure. Thank you for the question. It's a great 
question. The consumers, as Mr. Mullins said, are quite fickle 
and they have a high expectation of quality. And to be honest, 
augmented reality technology, as well as virtual reality, are 
not the same as what we see in video games today, for example, 
or special effects in movies, or even the quality of the apps 
that you have on your smartphone. You could say that the AR and 
VR--the quality of the experience is quite low today.
    So one of the things that we ask you is to provide for an 
opportunity for innovation. Software developers, hardware 
developers must have the opportunity to create these 
exceptionally good experiences, and it won't be until then when 
we are able to put those technologies forward in the consumer 
market.
    Not only that, but there has to be a clear price-to-value 
relationship. That's really critical, and that can't happen 
until the manufacturing is set up to be able to produce these 
devices at a mass market level. We're not talking tens of 
millions. We're talking hundreds of millions or billions of 
devices that need to get into market, and that is when we would 
think that the consumers would be ready for it. So the 
manufacturing is one.
    Part of it has to do with the transparent display that you 
saw in the augmented reality headsets in the demonstrations. 
Those are relatively new inventions, and so those have to be 
developed over the next few years, and when they get good 
enough and, to be honest, to be like my glasses here, that's 
when consumers will think about adopting the headsets.
    But also augmented reality may not come on a headset first. 
It may come in a smartphone or another form factor. So there 
are lots of different ways that augmented reality could come to 
consumers, for example, having a window which you can look 
through and see something on the other side that's augmented in 
a particular way, like an airplane window, for example, or even 
going to a store to try on clothes through something called a 
smart mirror. You stand in front of it, and it's an augmented 
reality experience that can show you different clothes and what 
they would look like rather than having to try them on. So 
those are some of the technologies that have to develop before 
it's really going to hit the consumer.
    The Chairman. Mr. Pierre-Louis, last year, this committee 
held the first congressional hearing on the Internet of Things, 
and we heard input from industry on how lawmakers should or, in 
some cases, shouldn't legislate to foster innovation. Today, 
we're holding another first of its kind hearing on augmented 
reality, which I think is a very exciting and emerging 
technology with tremendous potential.
    What can we as lawmakers do to help this technology 
flourish? Or maybe even more importantly, what should we not do 
so that we don't in any way hinder the innovation that's 
happening out there?
    Mr. Pierre-Louis. That's a terrific question. Let me tell 
you one of the things that our industry has done to meet market 
concerns, and that's a great template for how we develop our 
practices. In the sphere of providing information about games, 
we've got a rating system where we provide age appropriateness 
and some content descriptions to tell parents what's in the 
game. So not only is it E for everyone or T for teen, but what 
are the kinds of things you might see in there, and there's 
comic mischief, mild violence--they'll have different lists of 
things.
    But when you get into the mobile environment, and people 
are moving around, you need different ways of allowing people 
to understand what's happening in the app world because some of 
those games are--and not just games, but other programs are 
getting rated as well, and so the industry created new 
descriptors on interactivity. So it tells you if you are 
sharing your location in a game or if you're on a chat function 
or if there's in-app purchasing.
    So if you were to download the Pokemon GO app on the Google 
Play store, it'll tell you you're sharing your location, and 
there are in-app purchases. What it won't say is there's user 
chat, because there's no chat between users. It's really meant 
for people to play or parents to play with their kids. It's an 
individual game. That allows users to understand in a very 
simple way what they're getting, and that's an innovation that 
developed because consumers wanted to know more about it.
    I think allowing that kind of development to occur makes 
the most sense, because it's meeting consumer demand. There's a 
lot of acceptance, and what we're seeing is 86 percent and 
higher of people not only aware but really appreciative of what 
we provide. And when the FTC comes and looks at the programs 
that we do, they laud them and say, ``You're doing it the right 
way. You're the gold standard,'' both in terms of our ratings 
and also our privacy offerings. So I think allowing that kind 
of market dynamism to grow is the right approach, and then to 
report back what's going on so that regulators and policymakers 
see that the marketplace is working.
    The Chairman. This technology, augmented reality, is on 
track to be a very disruptive technology in a number of 
different markets. Why has America been able to lead the 
effort, and how can America maintain its position as a leader 
in the field as AR technology becomes more prevalent? And I 
guess I would--Mr. Pierre-Louis, Mr. Blau--anybody on the panel 
that would like to respond to that question.
    Mr. Blau. Thanks again for the question. It's a great 
question. I just want to point out that it was the United 
States military that had a big part in the invention of the 
computers, per se. In the 1960s, there was a famous professor, 
Ivan Sutherland, that created the first head-mounted display at 
the University of Utah. In the 1980s, it was American inventors 
that brought forward virtual reality and pioneered computer 
graphics.
    So these are innately American inventions, and I'm not 
saying that there are other parts of the world that haven't 
contributed. But through the great universities and the 
opportunity that we've had as Americans, there has been this 
concentration that's here. But part of the industry today is 
not in the United States. It's in Asia, and that's the 
manufacturing. So part of what these companies are producing--
they can design them here, but they can't manufacture them 
here, not all of them.
    So it's not an even playing field around the world. If we 
potentially could enable more businesses in the United States 
to make advanced technology in a way that is competitive 
globally, that would be a great help.
    The Chairman. Mr. Calo?
    Mr. Calo. I think that's a great question, Chairman. I just 
want to point out that with respect to one of the previous 
transfers of technology of our time, the Internet, the 
military, once again, was absolutely instrumental in creating 
the Internet, and, as well, the American universities were 
instrumental.
    But one of the reasons why even today, the United States 
remains dominant in terms of the Internet is because in the mid 
1990s, we wisely immunized platforms for what users do on those 
platforms in the form of Section 230 of the Communications 
Decency Act. That immunity allowed the platforms to be open and 
to flourish and to have all kinds of contribution. Getting that 
right first, I think, gave us an enormous competitive 
advantage.
    Here, there may be analogs to make sure we understand where 
liability is distributed, to make sure that we have adequate 
privacy and security to the point that consumers feel 
comfortable, just as they had to once get comfortable with 
banking online. So I understand the need not to impede 
innovation through regulation. At the same time, sometimes we 
can clarify liability and privacy rules in ways that permit the 
technology to flourish.
    Mr. Hanke. I'm glad you're raising that question. I do 
think that AR represents one of those big transitional moments 
in technology. You know, we saw the move from the mainframe 
computer and IBM, and sort of the mantle was inherited by 
Microsoft, and we saw companies like Apple step in and kind of 
inherit the mantle in mobile and Google in web services.
    AR represents one of those transitions, and it means there 
will potentially be new industry leaders, new very large 
companies that emerge. In the past, those have been U.S. 
companies. This time, it's a jump ball. It's not guaranteed 
that the successors are going to be U.S. companies. We operate 
in a global economy. I don't think it necessarily should be our 
expectation that we just naturally inherit that. We're going to 
have to go compete for it. But what we can do is create an 
environment where the companies here do have an equal playing 
field in terms of competing to be those leaders in that next 
generation of technology.
    Having clarity around issues such as privacy with our 
colleagues in Europe so that we actually understand what the 
requirements are for a U.S. company to operate in Europe--
that's an area where there's some ambiguity at the moment--
market access in countries in Asia where it is currently very 
difficult or impossible for U.S. companies to offer services--
those are things that are impediments to the ability of 
American companies to compete in this important market.
    Mr. Pierre-Louis. I'll just also add real quickly that our 
markets really encourage innovation, and that innovation is 
allowed to sprout in all manner of places, and that's the 
beauty of these new technologies. So when we think about new 
technologies and tech spaces, we think of places like Silicon 
Valley; Redmond, Washington; Silicon Alley in New York.
    But then you have a company like Magic Leap, which is one 
of our members, that's creating mixed reality technology. 
They're based in Fort Lauderdale, not a place where people 
really think about as a technology hub. But by having someone 
create an idea and others coalesce around it, they now have 
more than 800 employees here in the U.S., maybe up to 1,000 at 
this point, all around an idea of innovation. So you can create 
new hubs around this idea of innovation and market-driven 
forces. That's what's exciting about what we do here.
    The Chairman. Well, we're waiting for a Silicon Prairie to 
strike in South Dakota. Any time you guys want to bring your 
companies out there, we welcome them. We've got a great 
business climate. The actual climate this time of the year can 
get a little cold.
    Senator Blumenthal has arrived.
    Senator Blumenthal?

             STATEMENT OF HON. RICHARD BLUMENTHAL, 
                 U.S. SENATOR FROM CONNECTICUT

    Senator Blumenthal. Thanks so much, Mr. Chairman. Thanks 
for having the hearing.
    As many of you may know, the incidence of traffic crashes 
and deaths has increased. In fact, according to the National 
Highway Traffic Safety Administration, there were 17,775 
traffic deaths within the first 6 months of 2016, which is an 
increase of 10 percent above 2015. And in 2014, the Department 
of Transportation found that over 3,000 people were killed and 
430,000 injured in car crashes that involved distracted 
drivers.
    An article from just yesterday's New York Times blames the 
new mobile apps, many of them employing augmented reality 
technologies, as major contributors to the rise in traffic 
deaths due to distracted driving. I'm not going to quote from 
the article. You may have seen it. But it indicates that, 
unfortunately, the misuse of such applications has already 
resulted in a lot of deadly disasters.
    So my question is--beginning with Mr. Hanke--how has 
Niantic responded to this dramatic increase in distracting 
driving as a result of your products, most especially--well, 
some of the ones that have been mentioned here so far this 
morning?
    Mr. Hanke. I'm very glad you raised that issue. As a 
parent, you know, I've got teenagers that are learning to 
drive, and just as somebody out on the highways, it's certainly 
an issue that I think is a big one and that we have to wrestle 
with and try to improve the current situation.
    With regard to the New York Times article, I'll take this 
opportunity to correct the statement that they made about 
Pokemon GO players being able to play Pokemon GO while driving. 
We've actually adopted what I think is an industry-leading 
policy to disable operation of the application in terms of 
capturing Pokemon or accessing the Poke stops in the game when 
the person is moving above a speed that is reasonable for a 
person to walk or run. So that is the current state of the 
game, and that's what we've done to try to mitigate this.
    At the same time, I think it is, to some degree, an issue 
of personal responsibility. There are other contributors to 
distracted driving as well. In one of the studies I read 
recently was that consumption of food in the car was actually 
one of the leading causes of traffic accidents. But I do think 
it's an important problem, and we've taken it upon ourselves to 
proactively limit the use of our application in that situation.
    Senator Blumenthal. Why is not the use of Pokemon GO unsafe 
at any speed?
    Mr. Hanke. Well, it is safe when you're walking. Many 
people like to walk and jog to use the application. It's an 
activity that we encourage.
    Senator Blumenthal. But if you're driving at any speed, 
isn't it unsafe?
    Mr. Hanke. It is a question of what we can detect and 
control within the application. We do not have a mechanism to 
detect when somebody is driving, per se. We have the ability to 
detect their speed of movement. Whether they're a driver, a 
passenger, a bike rider, a runner or walker, we don't have a 
definitive way of understanding that. So since we don't have 
perfect information, we use speed as the----
    Senator Blumenthal. So you're saying that the app doesn't 
detect what the activity is that causes the speed.
    Mr. Hanke. That's correct, yes.
    Senator Blumenthal. Why isn't that possible, and why 
shouldn't you then just say anybody who's moving is putting 
themselves or somebody else at risk? And that, until we figure 
out a way to detect the difference between somebody walking, 
jogging, driving, any speed will, in effect, deactivate this 
program? My feeling is someone distracted by this kind of 
activity is unsafe at any speed.
    Mr. Hanke. Well, we've taken a position which, again, I 
think is--I'm not aware of any other applications in the 
industry that are doing what we're doing, which is stopping the 
use of the application above a speed that a human could move 
walking or running. In terms of going even further and 
eliminating the use of the application at any speed whatsoever 
that would inhibit somebody from using it while they're walking 
or jogging, personally, that feels like a step too far to me in 
terms of limitation on the ability to use such an application.
    Senator Blumenthal. Well, my time has expired. This has 
been a very useful and informative session. Again, I thank the 
Chairman for holding it. There are a lot of other questions 
that I have. I'll submit them in writing and look forward to 
your responses, and thank you for being here today.
    The Chairman. Thank you, Senator Blumenthal.
    I also want to echo what the Senator from Connecticut just 
said, and that is that we do appreciate you all being here and 
for sharing your insights about this. This is a really exciting 
field with lots of moving parts, many of which have been 
addressed today, and you've heard some of the concerns 
expressed as well. But we want to be in a position where we're 
enhancing the advancement of these technologies and innovation, 
not getting in the way of it, obviously interested in all the 
safety issues and privacy issues that are associated with any 
discussion of this subject.
    But thank you for the light that you've shed on it today, 
and we'll look forward to continuing the dialog and discussion.
    Senator Blumenthal has additional questions. Perhaps other 
members do as well. We'll ask them to submit them. We'll keep 
the record open for 2 weeks, and during that time, we're asking 
that Senators submit any questions for the record and that the 
witnesses as they receive them, as soon as they can, submit 
those answers back to the Committee.
    So with that, thank you again, and this hearing is 
adjourned.
    [Whereupon, at 4:28 p.m., the hearing was adjourned.]

                            A P P E N D I X

    Response to Written Questions Submitted by Hon. Marco Rubio to 
                               Brian Blau
    Question 1. As we conduct our oversight role as lawmakers, how can 
we ensure that technology start-ups, like Magic Leap, are able to 
continue to advance in the 21st century economy without imposing 
unnecessary red tape?
    Answer. Red tape exists in many forms, and for augmented reality 
technology there are 4 areas that stand out as important when 
considering adding more or removing red tape: (1) purchasing and 
accessing technology components, and then selling technology products 
in the global market, (2) hiring qualified workers, (3) protecting 
intellectually property, (4) technology certifications. Each of these 
areas have established laws, rules, and oversight organizations that 
often times pose obstacles in how a business wants to create technology 
and products. My comments here are not meant as a debate about the 
usefulness of red tape situations, but the one important point to be 
raised about augmented reality is that despite the hype and media 
attention it's a very new technology that needs time, lots of time, to 
mature. Red tape during this critical phase of development for 
augmented reality will only cause its growth to be held back.
    During the next 5-10 years it's imperative that companies, like 
Magic Leap, have the resources necessary to develop and innovate as 
needed and operate unrestricted. Pre-guessing the level of augmented 
realities capabilities in the future to make new laws today, for 
whatever reason, should be carefully considered as these companies 
don't yet know fully how their future products will bring value to 
their customers. I do urge you to monitor, for example, how augmented 
reality would impact topics like privacy and security, but it's still 
too early to determine any new laws will be needed.

    Question 2. In your opinion, would current regulations placed on 
the gaming and computer industry be appropriate to apply to this new 
generation technology?
    Answer. Yes, in general, the existing laws on video games and 
overall computer technology are sufficient today to allow for the 
invention, innovation, product development and sale of augmented 
reality technology. Evidence is the proliferation of American 
technology globally, and our standing in the global technology market 
provides a great example of how a government can effectively help 
businesses flourish. That said, some issues, like repatriation of 
offshore funds and the ability to compete globally should be monitored 
and law subsequently adjusted as optimizing these programs could 
benefit U.S. companies in the future.
    The most valuable way to help augmented reality businesses to 
profit is to promote the value of its technology across the spectrum of 
business operations. Help a business innovate and invent by not adding 
restrictions that hold back any type of early research, development, or 
deployment of products in this area.

    Question 3. Autism is an issue I feel very passionate about and 
have worked on going back to my time in the Florida legislature. Some 
have suggested that augmented reality games can benefit people on the 
autism spectrum in terms of getting them out of the house and 
developing their social skills. Is the industry doing any of its own 
scientific research to determine the actual benefits of augmented 
gaming to people on the autism spectrum?
    Answer. I'm positive that augmented reality technology can help 
those impacted by autism as its been helpful in many areas of medical 
and health fields. Typically, a technology company tends to focus on 
general use cases, and that is what we are seeing with most augmented 
reality technology providers today. Unfortunately, the answer the 
Senators question means that there isn't an industry initiative on 
autism, at least to any large degree. What we do see efforts from the 
medical profession in how augmented reality can impact research, 
diagnosis and treatment of autism. It's appropriate that any 
advancement come from the medical industry given the unique 
requirements for any technology use in healthcare.
    That said, I can imagine (without being a trained medical 
professional) that augmented reality can indeed help in many situations 
with regard to autism. Augmented reality can be used in social 
situations to bring together people who are not physically in the same 
place. It can be used in ``training'', and for autism I can imagine 
this means therapy using techniques like video games and interactive 
media content to stimulate thinking and reasoning. Augmented reality 
will be a great tool for training in scenarios that need to be 
practiced and repeated, or even providing simulations of real 
situations to help prepare those with autism for all types of daily 
life.

    Question 4. What would you say our high schools and universities 
can be doing better in the coming years to ensure that people in 
Florida and in the United States acquire the skills and preparation to 
fill these jobs?
    Answer. The best way to prepare for developing augmented reality 
technology, and what I would tell my own family and children, is to be 
educated. An agenda of learning in science and technology as well as 
business are important base layers for anyone who wants to be part of a 
technology development company. My own experience also mirrors that 
line of thought. I was fortunate to grow up in Orlando Florida where I 
attended Lake Brantley High School in Altamonte Springs, and then I 
received a Bachelor and Masters degrees, both in Computer Science from 
the University of Central Florida. In all three I was given and then 
took the opportunity to advance my interests in technology and it's as 
important as any to support these institutions in the same way they 
supported me.
    Preparing to use augmented reality, vs making the technology, is 
easier. If made well and if designed for optimal use cases, augmented 
reality technology will be easy to master as it's designed with the 
person in mind. Typically, the user interface in augmented reality 
applications is natural and supports human gestures and voice. If done 
well I would expect augmented reality to be more easily adopted than 
even basic PC computers, which required detailed knowledge of a 
keyboard, mouse, and intricate on-screen movements and manipulations. 
For augmented reality the driving use case is the person and their body 
movements, so any training should be focused in the more general use of 
computing in the workplace.

    Question 5. What message would you like to send to educators and 
students alike about the industry's future and the opportunities it 
presents?
    Answer. My message to educators and students on is simple: use and 
develop augmented reality (and its close cousin virtual reality) as it 
represents one of the most important next generation technologies that 
you will need to understand and use over the coming decades.
    This means, focus on science, technology, math and business as a 
way to prepare institutions and individuals as they prepare to be part 
of the next wave of computing. Augmented reality and virtual reality 
are hyper-personal technologies, ones that we have and wear close to 
our bodies and ones that have the ability to mesh with the human 
perceptual system in ways that have never been available. This means 
future technologists will need to better understand the human condition 
and how it reacts to an environment filled with sensors and screens.

    Question 6. The interface created by these new technologies can be 
a tremendous asset to the Department of Defense, especially for 
training. How can the Department of Defense collaborate with innovators 
to push the limits of mixed reality technologies to ensure our men and 
women in uniform continue to be the best trained and equipped fighting 
force on this Earth?
    Answer. In drawing from my own experience attending, and then 
working as a research scientist at the University of Central Florida on 
virtual reality technologies, I observed one of the best methods for 
providing the crossover between military and education.
    In Orlando, at least in the 1980s and 1990s, there was an explicit 
program to transfer core computer technology out of secret military 
programs into the public domain. I was a beneficiary of that program at 
UCF and its Institute for Simulation and Training that the U.S. Navy 
and Army funded. This program in part was based on use of military 
equipment, access to military contractors, direct funding of virtual 
realty projects, and promotion of what was developed into the education 
and science community. As we look back, that technology transfer was is 
now seen a basis for how we all now have advanced real time computer 
graphics today.
    I fully encourage future programs that marry the ability of the 
U.S. military with advanced educational needs as it's a proven method, 
and in fact is one of the reasons that I'm providing these answers to 
you today.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Joe Manchin to 
                               Brian Blau
    Question. As a former Governor and in my role as a United States 
Senator, I have remained committed to enhancing the job climate in my 
state so that West Virginians have good paying jobs and the skills to 
compete in the global economy. Part of this job growth is going to come 
from the technology sector. We are beginning to see an uptick in 
technology startups in different parts of the state, but I believe 
there are opportunities for tools such as augmented reality to enhance 
workforce training.
    The technological advancements of the 21st century should not leave 
rural communities behind, and as West Virginia continues to develop its 
technology sector and train its workforce: How can augmented reality be 
used to train workers in the digital economy?
    Answer. This is a great question and one that hopefully can help 
shed light on how augmented reality technology can be used to 
effectively train people in workplace tasks and skills. The core of the 
benefit of augmented reality is its unique approach to delivering 
information by using sophisticated graphics seen through head-mounted 
display (HMD) devices. These devices have the capability to let the 
user see sophisticated computer graphics, they type we are familiar 
with from video games and movies, superimposed over top of real world 
objects. Its this overlay capability that is augmented realities best 
feature and is the one that is at the core benefit of how it can be 
used in workplace training situations.
    Imagine a worker who needs to be trained on various types of 
equipment. That training today can consist of reading manuals, watching 
videos, practicing on mock-ups, or on-the-job training using real 
equipment. But in many cases using the actual equipment, mockups, or 
even the videos are simply not available or sufficient enough to 
effectively train the employee, especially if the tasks require their 
hands to be busy. Augmented reality can help here as when using the HMD 
it can simulate the equipment, show it as matching overlays, and can 
train the worker over many types of situations and scenarios. The 
combination of graphics, step-wise instructions, performance analytics, 
and customizability means augmented reality will be a prime resource 
for many businesses who want to use effective training technology.
    As stated in my prepared testimony the augmented reality market is 
really just getting started in 2016, and within 5 years will we will an 
increasing number of devices come to market. The real benefit, and to 
the point of the Senator's question, is how can the technology not only 
be used for training, but also in the remote locations that are 
prevalent in West Virginia but in many parts of the country. Augmented 
reality is an inherently mobile technology and many of the device and 
system providers have features that let these devices be operated 
anywhere. Even in this early stage in the market development of 
augmented reality some devices are being made robust for environments 
outside of the normal business office or manufacturing facility. This 
mobile capability is an important one as it means augmented reality can 
be used in a wide variety of locations, possibly even ones that don't 
support wireless communications.
    In addition to being mobile, augmented reality will be a great 
communication device, bringing people together that are physically 
located in different places. Sometimes called ``telepresence'', many 
future augmented reality applications will bring people together by 
using audio, video, and combined with computer graphics will enhance 
workers ability to interact with each other and work together even 
though they are not in the same location. One great example is a field 
service technician who's job will be to monitor and repair machines and 
equipment at distant locations. A future worker, wearing augmented 
reality smartglasses, will have technology to let them directly connect 
to other employees at the home office. Not only can the augmented 
reality smartglasses provide instructions and guidance that were 
traditionally delivered in a paper manual or on a flat screen device 
like a tablet, but when connected to others the work can be 
accomplished cooperatively. The technician at the home office can see, 
via live video, exactly what the remote technician is seeing and can 
even enhance the graphics for the remote technician by drawing on their 
virtual field of view, sending additional information via the overlap 
capability, or providing voice feedback.
    The final point to note is that the training scenarios for 
augmented reality are limitless, and as its so early in the development 
of the technology I both urge you and your constituents to investigate, 
learn and invest in augmented reality technology, but to do it in a way 
that allows for and leverages its growth and maturity. Investing in 
augmented reality technology today means gaining knowledge and 
experience and as the devices and systems advance over the next decade.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Marco Rubio to 
                               Ryan Calo
    Question 1. As we conduct our oversight role as lawmakers, how can 
we ensure that technology start-ups, like Magic Leap, are able to 
continue to advance in the 21st century economy without imposing 
unnecessary red tape?
    Answer. I am aware of no augmented reality specific regulations and 
do not anticipate any in the near feature. Indeed, I believe regulating 
AR at this early stage would be unwise. That said, well thought out 
government interventions can sometimes help foster technological 
innovation.
    For example, the early decision of Congress to immunize online 
platforms such as Facebook for almost anything users do or say on the 
social network reduced the threat of litigation and preserved the 
incentives for Facebook to keep its platform relatively open and free. 
In my article Open Robotics, I discuss the potential need to immunize 
hardware providers such as Magic Leap as well insofar as they open up 
their platforms to third party innovation.\1\
---------------------------------------------------------------------------
    \1\ See https://papers.ssrn.com/sol3/
papers.cfm?abstract_id=1706293.
---------------------------------------------------------------------------
    Privacy and other consumer protection laws are critical in that 
they help reassure consumers that new products and services are safe 
enough to try. Flexible intellectual property regimes help remove the 
shadow of litigation from new startups and allow for the sharing of 
intellectual resources. Many argue that net neutrality rules preserve 
the ability of new entrants into information service markets by 
prohibiting incumbents from blocking or slowing down competing 
applications on their networks.\2\ And of course the Federal Government 
is in a position to preempt state laws, which can sometimes create a 
patchwork of regulation that makes it difficult for companies to 
operate. Other ways the Federal Government can help companies such as 
Magic Leap include procuring their products and investing in AR basic 
research.
---------------------------------------------------------------------------
    \2\ E.g., https://papers.ssrn.com/sol3/
papers.cfm?abstract_id=1684677.

    Question 2. In your opinion, would current regulations placed on 
the gaming and computer industry be appropriate to apply to this new 
generation technology?
    Answer. My understanding is that most of the issues in gaming law 
deal with intellectual property, rights of publicity, and free speech. 
In addition, the gaming industry has set its own standards around 
safety, violence, privacy, and gaming addiction. I see all of these 
issues applying with equal or perhaps greater force to augmented 
reality. AR is a product and it needs to be safe for its intended use. 
Content within AR is subject to copyright but also fair use and other 
exceptions that protect consumers and innovators. And, importantly, AR 
should enjoy full constitutional protection under the First Amendment 
as does content on the Internet and games in other formats.\3\
---------------------------------------------------------------------------
    \3\ See Reno v. American Civil Liberties Union, 521 U.S. 844 
(1997); Brown v. Entertainment Merchants Association, 564 U.S. 786 
(2011).

    Question 3. Autism is an issue I feel very passionate about and 
have worked on going back to my time in the Florida legislature. Some 
have suggested that augmented reality games can benefit people on the 
autism spectrum in terms of getting them out of the house and 
developing their social skills. Is the industry doing any of its own 
scientific research to determine the actual benefits of augmented 
gaming to people on the autism spectrum?
    Answer. Thank you for your important work on autism. The Tech 
Policy Lab at the University of Washington is committed to inclusive 
tech policy. The augmented reality whitepaper I submitted to the record 
discusses the potential for AR to help people with disabilities. We 
consulted with disability experts in the course of our research and 
they told us that AR has enormous potential to help individuals with 
physical and cognitive disabilities.
    We did not engage with the autism research community superficially 
but I am aware of considerable research into the ways AR could be used 
to help autistic children. For example, the Autism Glass project at 
Stanford University uses AR to help autistic children better recognize 
emotional states in others.\4\ Recent research out of Cambridge 
University leverages AR to help draw autistic children into pretend 
play.\5\ There is also an extensive literature suggesting that robotics 
can help clinical scientists study and address autism for similar 
reasons as AR.\6\
---------------------------------------------------------------------------
    \4\ Visit http://autismglass.stanford.edu/.
    \5\ See http://ieeexplore.ieee.org/document/7000596/.
    \6\ See https://www.ncbi.nlm.nih.gov/pmc/articles/PMC3223958/ 
(collecting studies).

    Question 4. What would you say our high schools and universities 
can be doing better in the coming years to ensure that people in 
Florida and in the United States acquire the skills and preparation to 
fill these jobs?
    Answer. A wide array of skills is needed to work in emerging 
industries such as augmented reality. These include so-called STEM 
skills, but also creative design, entrepreneurship, and the humanities. 
After all, someone has to dream up the narratives, the characters, the 
landscapes, the device design, the user interface, and the other 
aspects of AR that make it a worthwhile and wondrous experience. It is 
also increasingly clear that high schools and especially universities 
should be thinking of ways to break down barriers between disciplines 
and create opportunities for interdisciplinary collaboration. At the 
University of Washington Tech Policy Lab, one of our goals is to 
produce students comfortable speaking across disciplines. We do so in 
part by placing students into interdisciplinary teams like the team of 
computer scientists, information scientists, and lawyers that worked on 
the AR whitepaper I submitted as my written testimony.

    Question 5. What message would you like to send to educators and 
students alike about the industry's future and the opportunities it 
presents?
    Answer. I agree with my fellow panelists that augmented reality is 
already an exciting industry and will only grow, generating many 
opportunities for students with the right set of skills.

    Question 6. The interface created by these new technologies can be 
a tremendous asset to the Department of Defense, especially for 
training. How can the Department of Defense collaborate with innovators 
to push the limits of mixed reality technologies to ensure our men and 
women in uniform continue to be the best trained and equipped fighting 
force on this Earth?
    Answer. The Department of Defense has a long track record of 
fostering new technologies that ultimate become engines of American 
innovation. Augmented reality is one example; robotics and the Internet 
are two others. My hope is that the DOD can continue to fund basic 
research into new technologies to help keep the United States in a 
leadership position globally. Moreover, DOD should remain in dialogue 
with other sectors--such as athletics, medicine, and even the prison 
system--who may use AR for training purposes so that the knowledge that 
is produced in one sector can be shared efficiently across civilian and 
military contexts.
    An important component of both civilian and military use of AR is 
ensuring adequate security. Obviously insecure AR can be physically 
dangerous to the user. I am aware of several ongoing around AR security 
and would be happy to connect your office to relevant researchers if 
useful.\7\
---------------------------------------------------------------------------
    \7\ See, e.g., http://ar-sec.cs.washington.edu/research.html.
---------------------------------------------------------------------------
                                 ______
                                 
     Response to Written Question Submitted by Hon. Joe Manchin to 
                               Ryan Calo
    Question. As a former Governor and in my role as a United States 
Senator, I have remained committed to enhancing the job climate in my 
state so that West Virginians have good paying jobs and the skills to 
compete in the global economy. Part of this job growth is going to come 
from the technology sector. We are beginning to see an uptick in 
technology startups in different parts of the state, but I believe 
there are opportunities for tools such as augmented reality to enhance 
workforce training.
    The technological advancements of the 21st century should not leave 
rural communities behind, and as West Virginia continues to develop its 
technology sector and train its workforce: How can augmented reality be 
used to train workers in the digital economy?
    Answer. Augmented reality and virtual reality enhance workforce 
training by making it easier to teach new skills but also by providing 
a variety of training environments on a single platform. The 
availability of one AR headset could in theory dispense with the need 
for multiple, expensive facilities that may be difficult to maintain in 
rural communities. Thus, an individual could learn how to repair a 
robot or how to assist in a biology experiment using the same device 
and without the need for a mock repair shop or laboratory. For more 
examples--including how AR and VR could help retrain displaced or 
incarcerated workers more efficiently--please see the Tech Policy Lab 
whitepaper I submitted in connection to my testimony.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Marco Rubio to 
                               John Hanke
    Question 1. As we conduct our oversight role as lawmakers, how can 
we ensure that technology start-ups, like Magic Leap, are able to 
continue to advance in the 21st century economy without imposing 
unnecessary red tape?
    Answer. There may have been a time when start-ups in the technology 
sector could get off the ground and scale without having to be 
concerned about the policy and regulatory landscape, but I don't think 
that applies today. In developing both Ingress and Pokemon GO, we had 
to be sensitive to and be compliant with a host of laws and 
regulations, including those regarding data privacy, most notably the 
Children's Online Privacy Protection Act. Our attention to data privacy 
compliance at the early stage of the game's development proved to be so 
critically important because that was the central issue of concern from 
policymakers not long after Pokemon GO's launch.
    While we certainly understand the concerns about the impact of 
regulations on start-up formation and success, there are areas where 
greater enforcement of existing regulations and increased attention to 
cybersecurity could be very useful to a start-up's success. We 
currently face challenges with respect to Pokemon GO, for example, with 
the creation of botnets and other methods that help players advance 
through the game. These services, which violate the integrity of our 
game and threaten the value of our intellectual property, are offered 
on the open market. We have been subject to near-constant hacking 
threats and attempts, to get access to our intellectual property and to 
our user data. The legal mechanisms to combat this kind of activity are 
costly and could be a barrier to a start-up's long term success.

    Question 2. In your opinion, would current regulations placed on 
the gaming and computer industry be appropriate to apply to this new 
generation technology?
    Answer. We do not support efforts to regulate the entertainment 
software industry based on its content. Entertainment software should 
be given the same First Amendment protections given other content-based 
industries, such as books, music, movies, and television programs. That 
said, we do support the work done by the Entertainment Software Ratings 
Board in providing age-based ratings and content descriptions, which 
together help consumers, particularly parents, make informed choices 
about the content they and their children see.

    Question 3. Autism is an issue I feel very passionate about and 
have worked on going back to my time in the Florida legislature. Some 
have suggested that augmented reality games can benefit people on the 
autism spectrum in terms of getting them out of the house and 
developing their social skills. Is the industry doing any of its own 
scientific research to determine the actual benefits of augmented 
gaming to people on the autism spectrum?
    Answer. It has been extremely gratifying to hear from our users and 
through press reports that Pokemon GO was played by and was helpful to 
many people on the autism spectrum. We are not aware of any industry-
wide supported research on augmented reality and autism at this time, 
but we are aware of a number of research projects that have shown some 
promise in the use of augmented reality to help those on the autism 
spectrum better use and develop their social skills. For example, a 
team at Stanford University has developed and embedded artificial 
intelligence in Google Glass that enables someone with autism spectrum 
disorder to read and understand facial expressions and emotions of 
those around them. We welcome this kind of path-breaking research and 
are hopeful for more advances as the technology advances.

    Question 4. What would you say our high schools and universities 
can be doing better in the coming years to ensure that people in 
Florida and in the United States acquire the skills and preparation to 
fill these jobs?
    Answer. The work we are doing at Niantic, much like in other 
companies in the information technology industry, reinforce the value 
and importance of education in the so-called STEM fields--science, 
technology, engineering and mathematics. We are very much at the early 
stages of grasping the potential of augmented reality as not just an 
entertainment medium, but as a critical tool that can be of value to so 
many sectors of our economy.

    Question 5. What message would you like to send to educators and 
students alike about the industry's future and the opportunities it 
presents?
    Answer. We're very excited about the future of augmented reality 
and look forward to seeing its application in the future in areas that 
we did not anticipate today. One area that is certain to be impacted by 
the development of augmented reality is education and training. 
Augmented reality makes it possible to learn through experience, and in 
context, and that kind of learning has so much potential in fields 
ranging from medicine to construction. But even more fundamental is the 
potential for augmented reality to enhance learning and exploration by 
children at a young age, and not just in the classroom.

    Question 6. The interface created by these new technologies can be 
a tremendous asset to the Department of Defense, especially for 
training. How can the Department of Defense collaborate with innovators 
to push the limits of mixed reality technologies to ensure our men and 
women in uniform continue to be the best trained and equipped fighting 
force on this Earth?
    Answer. Military training is very much focused on building a 
foundation of experiences, and is centered on simulations that attempt 
to recreate various realities, whether that reality is in a fighter jet 
or a combat situation. Augmented reality certainly has the potential to 
enhance and grow the types of simulated environments that are used to 
train our military personnel.

    Question 7. With the development of augmented reality (AR), we are 
allowing these new devices to see our private worlds. Many of these 
technologies transfer and/or retain data to ensure there is a seamless 
user experience. As you are well aware, this new technology opens up 
vulnerabilities which a malicious attacker could take advantage of 
data.
    A. Can you speak to how Niantic worked to mitigate data hacking on 
the Pokemon GO app?
    Answer. Since the app was launched, Pokemon GO has been a target of 
numerous hacking efforts, including distributed denial of service 
attacks, unlawful data collection, or monetization through the use of 
botnets and other devices to help users gain advantages within the 
game.
    For example, a backdoored version of the game was found on a file 
repository service not long after the game was launched. Attackers also 
sought to lure potential Pokemon users to malicious online sites that 
mimicked our own site, claiming users would be given additional 
features if they referred friends to the site, which led to more 
spamming. We've also seen strains of ransomware masquerading as a 
Pokemon GO app.
    In these cases, as in others, working internally and with third 
parties, we've been able to take some of these malicious sites and apps 
down, but these challenges raise important questions about what 
technical and legal resources we have to combat efforts to misuse our 
intellectual property and target our users' data. It underscores the 
need for congressional review of existing laws relating to this area, 
including the Computer Fraud and Abuse Act and the Digital Millennium 
Copyright Act.
    With respect to protecting our networks and data repositories, we 
utilize a number of applications and protocols that together represent 
best practices for our industry. We would be happy to provide 
additional details of these practices offline.

    B. Is the cybersecurity standard found on these systems a threat 
today? How can the data on this app, and others, be protected from 
malicious attacks and abuse without impeding the function of the 
system?
    Answer. One of the most important cybersecurity practices is 
vigilance in protecting our networks. Today's cybersecurity best 
practice is likely tomorrow's vulnerability. For that reason, we not 
only monitor closely the integrity of our networks and systems, but we 
remain conscious of general threats that impact other data-intensive 
companies like ours. We would be happy to provide additional details of 
these practices offline.

    Question 8. Earlier this year, there were reports of people chasing 
Pokemon Go characters in places like the Holocaust Memorial Museum and 
Arlington National Cemetery. What internal controls and self-policing 
is the industry undertaking to ensure that the solemn and sacred nature 
of places like these are respected?
    Answer. It's worth sharing briefly how we decided the locations of 
Pokestops and Gyms, which go back to the origins of Niantic Labs. 
First, the historical markers you can find on our first app, Field 
Trip, became one of the data sets we used to locate PokeStops and Gyms. 
Second, looking at Ingress, we thought about how to expand this set of 
interesting places that are public, visually recognizable, and safe 
places for people to visit. So we asked Ingress players to submit their 
ideas for local landmarks they thought were great places for people to 
visit, such as the Children's Museum in Brookings, South Dakota, or the 
ArtsPark at Young Circle in Hollywood Florida. Millions of places were 
contributed, and a subset of those contributions were included in 
Pokemon GO.
    We recognize that many public places of historic significance may 
not be seen within the community they are located as suitable sites for 
Pokestops and Gyms, and for that reason, we have an online form on our 
website that enables concerned citizens or administrators to request 
removal of Pokestops and Gyms from specific locations.
                                 ______
                                 
     Response to Written Question Submitted by Hon. Joe Manchin to 
                               John Hanke
    Question. As a former Governor and in my role as a United States 
Senator, I have remained committed to enhancing the job climate in my 
state so that West Virginians have good paying jobs and the skills to 
compete in the global economy. Part of this job growth is going to come 
from the technology sector. We are beginning to see an uptick in 
technology startups in different parts of the state, but I believe 
there are opportunities for tools such as augmented reality to enhance 
workforce training.
    The technological advancements of the 21st century should not leave 
rural communities behind, and as West Virginia continues to develop its 
technology sector and train its workforce: How can augmented reality be 
used to train workers in the digital economy?
    Answer. Augmented reality is designed to enhance people's daily 
life experiences and help make the things that people do as human 
beings easier, safer, and in the case of Pokemon Go, more fun. The 
technologies that allow Pikachu to roam our neighborhoods by 
superimposing characters on mobile devices also have the potential to, 
among other things, improve the quality of health care by providing 
experience-driven training for doctors and nurses regardless of where 
they're located. Similarly, AR can provide simulations that would 
enable construction workers or miners to learn how best to respond to 
potential workplace hazards, which will provide a cost-effective tool 
to improve workplace safety.
                                 ______
                                 
     Response to Written Questions Submitted by Hon. John Thune to 
                             Brian Mullins
    Question 1. In what ways will AR technology improve the 
productivity and safety of the American worker and increase the 
competitiveness of the American workforce?
    Answer. Given the broad interest in this topic across this senate 
committee, we have prepared the following discussion on how Augmented 
Reality (AR) improves the productivity, safety, and competitiveness of 
the workforce and enhances the overall job climate in both 
industrialized and rural areas. AR empowers workers to keep up with the 
increasing pace of technological change by providing an easy and 
intuitive interface that fast-tracks the learning process. AR also 
makes workers safer a variety of ways, including improving error rates 
and reducing cognitive load which have a direct correlation to safety 
on the job.
I. Augmented Reality-based workforce training will prepare workers, 
        across age groups and level of formal education, to compete and 
        win in the global economy

    Augmented Reality (AR) is a game-changer for job training and on-
the-job skill acquisition. Three decades of research supports the 
conclusion that AR improves learning, productivity, accuracy, 
efficiency, and job satisfaction in a variety of contexts including 
manufacturing,\1\<SUP>,</SUP>\2\ defense,\3\ aerospace,\4\ 
construction,\5\ medicine \6\ and other sectors.
---------------------------------------------------------------------------
    \1\ Hou, Lei, et al., ``Using animated augmented reality to 
cognitively guide assembly.'' Journal of Computing in Civil Engineering 
27.5 (2013): 439-451.
    \2\ F. Loch, F. Quint and I. Brishtel, ``Comparing Video and 
Augmented Reality Assistance in Manual Assembly,'' 2016 12th 
International Conference on Intelligent Environments (IE), London, 
2016, pp. 147-150.
    \3\ Henderson, S. J.; Feiner, S. 2009. ``Evaluating the benefits of 
augmented reality for task localization in maintenance of an armored 
personnel carrier turret.'' International Symposium on Mixed and 
Augmented Reality, 2009 (ISMAR 2009). pp 135-144. Orlando, Florida.
    \4\ Caudell, T. P. and Mizell, D. W. 1992, Augmented reality: An 
application of heads-up display technology to manual manufacturing 
processes. Proc. Ieee Hawaii International Conf. on Systems Sciences, 
1992.
    \5\ Webster, Anthony, et al., ``Augmented reality in architectural 
construction, inspection and renovation.'' Proc. ASCE Third Congress on 
Computing in Civil Engineering. 1996.
    \6\ K. Abhari et al., ``Training for Planning Tumour Resection: 
Augmented Reality and Human Factors,'' in IEEE Transactions on 
Biomedical Engineering, vol. 62, no. 6, pp. 1466-1477, June 2015.
---------------------------------------------------------------------------
    AR technology empowers experts and novices alike to quickly learn 
new skills or be trained in a new area or sector--a particularly 
important benefit for workers who have lost their jobs and cannot 
easily find work in their current industry. For example, AR-based 
workforce training can assist a laid-off coal miner who went directly 
from high school into his or her career to be rapidly retrained in 
other, even unrelated, sectors without requiring two or four years of 
higher education. This increased efficiency means that job training (or 
re-training) is no longer cost-prohibitive, especially for older or 
less formally-educated workers. This is critically important in states 
like West Virginia where workers have struggled to transition their 
skillsets into other fields in the midst of a decline in traditional 
sectors such as mining and manufacturing.
    As referenced in our written testimony to this committee on 
November 16, 2016, Augmented Reality (AR) work instructions have been 
shown to improve accuracy, speed, focus and worker satisfaction when 
utilized in the training and operation of complex manufacturing tasks 
through visual, step-by-step work instructions overlaid directly on top 
of components to be assembled.\7\ In addition to shorter task 
completion times and less assembly errors, the visual and spatial 
nature of AR enables a lower total task load and a reduction in the 
learning curve of novice assemblers, while increasing task performance 
relevant to working memory.\8\ Compared with video-based work 
instructions, AR produces a significantly reduced number of errors and 
scores better in terms of time and overall mental workload.\9\
---------------------------------------------------------------------------
    \7\ Fusing Self-Reported and Sensor Data from Mixed-Reality 
Training, (I/ITSEC) 2014, Trevor Richardson, Stephen Gilbert, Joseph 
Holub, Frederick Thompson, Anastacia MacAllister, Rafael Radkowski, 
Eliot Winer Iowa State University, Paul Davies, Scott Terry, The Boeing 
Company.
    \8\ Hou, Lei, et al., ibid.
    \9\ F. Loch, F. Quint and I. Brishtel. ibid.
---------------------------------------------------------------------------
    Today, the majority of learning experiences occur out of context. 
Classroom training, online training modules, and online synchronous 
training are all variations of didactic content presentation. Augmented 
reality will provide learning professionals opportunities to engage 
students and trainees with scalable and effective mechanisms to 
practice new skills in a hands-on manner, while still being supported 
by digital tools. This is especially valuable for workers who may not 
have seen a college or vocational classroom in more than twenty years, 
if at all.
    How does AR improve the speed of knowledge-transfer and improve its 
retention? A key element is AR's ability to combine the real-world 
environment with digital information. When it comes to learning new 
concepts and skills, no training method beats hands-on experience. 
Experiencing the consequences of success and failure in real time helps 
us make neural connections that are much stronger and longer lasting 
than simply consuming content. Wearable head-up displays with AR 
capabilities give the wearer a view that fuses the complexity and 
messiness of the real world with the precision and reliability of a 
digital display, providing access to the real-world scene for the 
hands-on aspect of training, while enhancing it with didactic or 
reference information to keep us on track. It is notably effective in 
enhancing spatial reasoning.
II. Enhancing the overall job climate

    At a macroeconomic level, Augmented Reality can enhance the job 
climate by increasing productivity, which increases demand, which then 
increases employment. For example, Augmented Reality is likely to 
increase demand for manufacturing jobs due to its ability to directly 
improve manufacturing productivity. Studies show that Augmented Reality 
technology delivers significant improvements in worker productivity in 
the context of manufacturing and assembly.\10\ This higher growth in 
manufacturing productivity, however, does not lead to a decline in 
employment. According to empirical research conducted by Yale Economics 
Professor William Nordhaus, the evidence shows that ``rapid 
productivity growth leads to increased rather than decreased employment 
in manufacturing,'' as increased productivity leads to lower prices, 
thereby expanding demand, which results in increased employment.\11\
---------------------------------------------------------------------------
    \10\ Hou, Lei, et al., ibid.
    \11\ Nordhaus, W. The Sources of the Productivity Rebound and the 
Manufacturing Employment. National Bureau of Economic Research, Working 
Paper No. 11354 May 2005. JEL No. O4, E1
---------------------------------------------------------------------------
III. Augmented reality applications for rural areas

    Of course, even if increased demand for manufactured goods results 
in increased manufacturing employment, those jobs may be unavailable in 
some areas, especially in rural states, if there are few or no 
factories located there. But far from leaving rural communities behind, 
some of the strongest use cases for Augmented Reality (AR) are 
specifically tailored to rural industries. As several senators have an 
interest in this topic, we have prepared the following discussion on AR 
applications in agriculture and forestry.
i. Augmented Reality and Smart Agriculture

    State-of-the-art farm management practices such as precision 
agriculture, site specific crop management, and Internet of Things 
(IoT) farming have reduced costs and improved yields for farmers around 
the world. Augmented Reality (AR) applications can enhance many aspects 
of smart agriculture by providing tools that streamline the measurement 
and collection of inputs, and the delivery of analysis and insights 
that enable data-driven decision making.
    IoT smart agriculture is one of the driving forces that allows the 
United States to produce 7,637 kilograms of cereal per hectare, nearly 
twice the world average in crop yield.\12\ A wide range of sensors are 
now being implemented: BI Intelligence predicts that IoT device 
installations in the agriculture world will increase from 30 million in 
2015 to 75 million in 2020, a compound annual growth rate of 20 
percent.\13\
---------------------------------------------------------------------------
    \12\ Cereal yield (kg per hectare). The World Bank. Accessed from: 
http://data.worldbank.org/indicator/AG.YLD.CREL.KG. Accessed 12/18/16.
    \13\ Meola, Andrew. ``Why IoT, Big Data & Smart Farming is the 
Future of Agriculture.'' Business Insider. October 7, 2016. Accessed 
from: http://www.businessinsider.com/internet-of-things-smart-
agriculture-2016-10. Accessed 12/18/16.
---------------------------------------------------------------------------
    Thanks in part to the steady reduction in electronics and data 
storage costs, a wide range of sensors are being utilized across smart 
agriculture including biological, chemical and gas analyzers, water 
sensors, meteorological sensors, weed seekers, optical cameras, Light 
Detection and Ranging (LIDAR), photometric sensors, soil respiration, 
photosynthesis sensors, Leaf Area index (LAI) sensors, range finders, 
Dendrometers, and hygrometers. Whether in unmanned aerial or ground 
vehicles (UAVs or UGVs), or stationed in the field, these IoT sensors 
sample, measure and collect key performance data including soil 
fertility diagnostics, yield as-planted, and as-applied, and water 
utilization. AR technology could provide additional insights into the 
optimization of seed, fertilizer, and chemical input, planting 
prescriptions, profit mapping and analysis and future crop planning.
    An AR interface displayed within devices such as the DAQRI Smart 
Helmet can show this vital information contextually within individual 
management zones, with real-time data like soil moisture levels, 
sunlight cations, projected Nitrogen use, and other advanced analytics 
appearing in the wearable device's view as the farmer traverses the 
ground.
    Augmented reality systems have been proposed for agricultural uses 
across the spectrum including insect identification and pest 
management,\14\ damage level estimation of diseased plant leaves,\15\ 
outdoor visualization of agricultural geographic information system 
(GIS) data,\16\ and GPS guidance for agricultural tractors.\17\ 
Additional use cases might include visualizing prescriptive planning, 
enabling data collection of variables such as crop yield, terrain 
features and topography, organic matter content, moisture levels, 
nitrogen levels, pH, soil electrical conductivity, magnesium, and 
potassium.
---------------------------------------------------------------------------
    \14\ A. Nigam, P. Kabra and P. Doke, ``Augmented Reality in 
agriculture,'' 2011 IEEE 7th International Conference on Wireless and 
Mobile Computing, Networking and Communications (WiMob), Wuhan, 2011, 
pp. 445-448.
    \15\ S. Prasad, S. K. Peddoju and D. Ghosh, ``Mobile Mixed Reality 
Based Damage Level Estimation of Diseased Plant Leaf,'' 2014 Eighth 
International Conference on Next Generation Mobile Apps, Services and 
Technologies, Oxford, 2014, pp. 72-77.
    \16\ G. R. King, W. Piekarski and B. H. Thomas, ``ARVino--outdoor 
augmented reality visualisation of viticulture GIS data,'' Fourth IEEE 
and ACM International Symposium on Mixed and Augmented Reality 
(ISMAR'05), 2005, pp. 52-55.
    \17\ Santana-Fernandez, Javier; Gomez-Gil, Jaime; Del-Pozo-San-
Cirilo, Laura. 2010. ``Design and Implementation of a GPS Guidance 
System for Agricultural Tractors Using Augmented Reality Technology.'' 
Sensors 10, no. 11: 10435-10447.
---------------------------------------------------------------------------
    Many other data visualization use cases that improve decision 
making in real-time could be implemented, for example three-dimensional 
on-site visualization of topographic maps and geomatic data such as 
altitude, expected crop yield and actual crop yield.\18\
---------------------------------------------------------------------------
    \18\ Goddard, Ted. ``Augmented Reality Farming Geomatics.'' 
Accessed from: https://www.youtube.com/watch?v=qrZYb5aa44k. Accessed on 
12/16/16.
---------------------------------------------------------------------------
    It is well within the capabilities of AR technology to provide 
farmers push notifications, with a farmer looking out over the field 
and red warning notifications popping up where weed, insect, disease or 
drought pressures pass a given threshold.
    Congress and the Administration, whether through the U.S. 
Department of Agriculture or other Federal agencies, should provide 
seed money and other grants to set up field studies in this area to 
document the outcomes and determine how much benefit the farming 
community may derive from these agricultural applications of AR 
technology.
ii. Augmented Reality Farm Equipment Repair & Maintenance

    Augmented Reality can enhance farm operations by providing ways to 
improve outcomes and increase efficiency in training, maintenance, 
repair, and part ordering of farm machinery and equipment. Similar 
applications of AR as a facilitator in the maintenance of aircraft have 
resulted in better learning and recall, improving knowledge-transfer 
and training outcomes.\19\ This same use of AR for airplanes can be 
applied to farm equipment to help farm managers monitor machine 
analytics, anticipate problems and analyze breakdowns quickly, reducing 
downtime and helping to keep planting and harvest on schedule. 
Moreover, this technology shows potential in reducing overall use of 
pesticides while targeting problem areas. It may also reduce farmers' 
trips to the field thanks to the increased connectedness it provides.
---------------------------------------------------------------------------
    \19\ Valimont, R. B., Gangadharan, S. N., Vincenzi, D. A., & 
Majoros, A. E. (2007). The Effectiveness of Augmented Reality as a 
Facilitator of Information Acquisition in Aviation Maintenance 
Applications. Journal of Aviation/Aerospace Education & Research, 
16(2). Retrieved from http://commons.erau.edu/jaaer/vol16/iss2/9.
---------------------------------------------------------------------------
iii. Augmented Reality Applications in Forestry

    In forestry--another key rural industry--smart IoT techniques are 
being utilized with the aim of controlling parameters of interest such 
as diameter of trees, crown height, bark thickness and other variables, 
such as canopy, humidity, illumination, and 
CO<INF>2 </INF>transformation.
    The application of wearables in forestry can be used in identifying 
and managing tree populations utilizing the same parameters as used in 
individual management zones with AR in Farming. In addition, wearables 
could provide first rate field training for students and new employees 
in real-time tree identification and other relevant facts.
IV. Augmented Reality Applications in Mining

    In addition to these examples of Augmented Reality (AR) 
applications in rural areas, there are excellent use cases for AR in 
mining. Increased access to relevant real-time information saves time 
for workers and improves decision-making. This is one of the key 
benefits that AR can provide to mine workers.
    Pervasive sensing--the practice of deploying large numbers of 
sensors and linking them to communication networks in order to analyze 
their collective data--is already being used in the mining industry to 
support remote operations, health and safety, and exploration and 
mapping. The identification and management of ore grade, which is 
relevant across all stages of the mining process, can be provided by 
sensing technologies during exploration, extraction, haulage and 
processing activities.\20\ AR has been proposed as a mechanism to 
visualize sub-surface mining data,\21\ and beyond that depth and 
localization data, 3D ranging and mapping, infrared data, and machine 
condition monitoring data are all examples of information that can be 
displayed in context to workers onsite using Augmented Reality head-up 
displays in order to improve operational efficiency and safety.
---------------------------------------------------------------------------
    \20\ M. E. Kiziroglou; D. E. Boyle; E. M. Yeatman; J. J. Cilliers, 
``Opportunities for sensing systems in mining,'' in IEEE Transactions 
on Industrial Informatics, vol.PP, no.99, pp.1-1.
    \21\ Roberts, Gethin W., et al., ``The use of augmented reality, 
GPS and INS for subsurface data visualization.'' FIG XXII International 
Congress. 2002. APA
---------------------------------------------------------------------------
    Augmented Reality can also help reduce mining accidents and lost 
workers. Major safety issues in the mining industry occur when 
personnel are in the field, such as when workers get lost underground 
and can no longer find their way back to the surface, or when miners 
encounter dangerous or explosive gases. Wearable AR devices have the 
additional added benefit of providing worker localization, allowing 
teams to remain in contact when miners lose visual contact with their 
teammates, and enabling the rapid localization of workers when 
emergency attention is needed.
V. AR in Medical Practice and Training

    Augmented Reality (AR) can help American surgeons provide a greater 
number of procedures faster, more accurately, and more safely. The use 
of Augmented Reality in medicine has the potential to improve surgeon 
performance, reducing errors, rework, and recovery times. AR-assisted 
planning and navigation techniques provide the means to create detailed 
plans of surgical routes and then overlay 3-dimensional patient data 
from CT, MRI and CAT scans directly over the patient's body during the 
operation, guiding the procedure in a highly individualized way. These 
types of techniques make our medical practitioners more globally 
competitive, and can also directly impact the overall health and safety 
of the American workforce and population.
    Augmented Reality has been shown to improve medical training for 
surgeons.\22\ We currently have a gap in the number of surgeons needed 
to adequately serve the population: the ratio of general surgeons per 
100,000 people has dropped by 26 percent in the last 25 years. The 
number of general surgeons needed to adequately serve the population is 
estimated to be at least 7 per 100,000 people. Currently, there are 
about 18,000 active general surgeons in the US, or 5.8 per 100,000 
people. AR can help increase the number of surgeons by making surgical 
training and OR operations more broadly accessible.
---------------------------------------------------------------------------
    \22\ Training for Planning Tumour Resection: Augmented Reality and 
Human Factors

    Question 2. In March 2016, FedTech magazine reported that the 
National Security Agency is considering the use of augmented reality 
applications to assist security professionals in monitoring cyber 
threats. How could businesses and educational institutions use similar 
concepts to transform cybersecurity training?
    Answer. As reported by FedTech magazine, NSA is developing a 
prototype of an Augmented Reality (AR) system with the aim of helping 
security professionals to manage the high cognitive workload involved 
in processing a high volume of information flow with frequent changes 
in priority. Dr. Josiah Dykstra, who is leading the initiative, 
envisions utilizing AR to streamline task processing by surfacing the 
most pertinent threats immediately in a wearable, Augmented Reality 
head-up display.
    Such a system would benefit from AR head-up-displays' capacity to 
highlight key information directly in the wearer's field of view, 
separating the signal from the noise. Security analysts responsible for 
areas such as intrusion detection, incident response, situational 
awareness, and digital forensics could benefit from this type of 
Augmented Reality alert. In order to function properly, the AR system 
would require that the most important and immediate threats are 
provided as an input so that they can be displayed to the wearer of the 
head-up display in the form of an appropriately designed AR interface. 
In addition to the AR-specific system components, the creation of such 
a system might entail the development of software algorithms that model 
and prioritize incoming intelligence.
    Thanks to advances in commercially available Augmented Reality 
products, it is now feasible to design this type of overall system 
capable of modeling, analyzing and visualizing threats relevant to the 
given context. Key aspects of cybersecurity could be built into the 
system and highlighted through the AR interface if incidents meet a 
given threshold. The system could also then utilize built-in 
intelligence to suggest next steps or required actions.
    For the purposes of training cybersecurity professionals, 
businesses and educational institutions could recreate the security 
professional's specific work environment and provide interactive real-
time cyber-threat simulation in that context, while utilizing Augmented 
Reality head-up-displays to direct trainees' attention to what's most 
important in the moment. Either via in-person instructors that can see 
the scenario from behind a one-way mirror, or through pre-programmed 
software simulations, it is possible ramp up the difficulty of the 
simulation as needed. In situations where there are many threats being 
monitored simultaneously, the instructors behind the scenes could 
control what the trainees see and must respond to. If they respond 
incorrectly, a simulated security breach could occur, providing a 
valuable learning opportunity to practice incident response procedures.
    Wearable augmented reality head-up displays used during the 
training to disseminate information about the most critical security 
threats could also provide guidance on follow-up procedures, and enable 
collaboration through process tracking and ticketing tools.
    Augmented Reality (AR) can also be utilized by educational 
institutions earlier on in the process to generate and nurture interest 
from the next generation of cybersecurity professionals. Educational 
serious games utilizing Augmented Reality have been shown to increase 
awareness of cybersecurity vulnerabilities and improve defense 
preparation against ever-present cybersecurity threats including 
identity theft, oversharing, malware, and social engineering. AR in 
this context provides the benefit of making abstract cybersecurity 
concepts more tangible, and thereby allows students to interact with 
them directly.\23\
---------------------------------------------------------------------------
    \23\ M. Salazar, J. Gaviria, C. Laorden and P. G. Bringas, 
``Enhancing cybersecurity learning through an augmented reality-based 
serious game,'' 2013 IEEE Global Engineering Education Conference 
(EDUCON), Berlin, 2013, pp. 602-607

    Question 3. Many of the members of the Commerce Committee represent 
rural states. Are there applications of AR technology that could 
specifically benefit rural industries, such as agriculture?
    Answer.
I. Augmented Reality and Smart Agriculture

    State-of-the-art farm management practices such as precision 
agriculture, site specific crop management, and Internet of Things 
(IoT) farming have reduced costs and improved yields for farmers around 
the world. Augmented Reality (AR) applications can enhance many aspects 
of smart agriculture by providing tools that streamline the measurement 
and collection of inputs, and the delivery of analysis and insights 
that enable data-driven decision making.
    IoT smart agriculture is one of the driving forces that allows the 
United States to produce 7,637 kilograms of cereal per hectare, nearly 
twice the world average in crop yield.\24\ A wide range of sensors are 
now being implemented: BI Intelligence predicts that IoT device 
installations in the agriculture world will increase from 30 million in 
2015 to 75 million in 2020, a compound annual growth rate of 20 
percent.\25\
---------------------------------------------------------------------------
    \24\ Cereal yield (kg per hectare). The World Bank. http://
data.worldbank.org/indicator/AG.YLD.CREL.KG. Accessed 12/18/16.
    \25\ Meola, Andrew. ``Why IoT, Big Data & Smart Farming is the 
Future of Agriculture.'' Business Insider. October 7, 2016. http://
www.businessinsider.com/internet-of-things-smart-agriculture-2016-10. 
Accessed 12/18/16.
---------------------------------------------------------------------------
    Thanks in part to the steady reduction in electronics and data 
storage costs, a wide range of sensors are being utilized across smart 
agriculture including biological, chemical and gas analyzers, water 
sensors, meteorological sensors, weed seekers, optical cameras, Light 
Detection and Ranging (LIDAR), photometric sensors, soil respiration, 
photosynthesis sensors, Leaf Area index (LAI) sensors, range finders, 
Dendrometers, and hygrometers. Whether in unmanned aerial or ground 
vehicles (UAVs or UGVs), or stationed in the field, these IoT sensors 
sample, measure and collect key performance data including soil 
fertility diagnostics, yield as-planted, and as-applied, and water 
utilization. AR technology could provide additional insights into the 
optimization of seed, fertilizer, and chemical input, planting 
prescriptions, profit mapping and analysis and future crop planning.
    An AR interface displayed within devices such as the DAQRI Smart 
Helmet can show this vital information contextually within individual 
management zones, with real-time data like soil moisture levels, 
sunlight cations, projected Nitrogen use, and other advanced analytics 
appearing in the wearable device's view as the farmer traverses the 
ground.
    Augmented reality systems have been proposed for agricultural uses 
across the spectrum including insect identification and pest 
management,\26\ damage level estimation of diseased plant leaves,\27\ 
outdoor visualization of agricultural geographic information system 
(GIS) data,\28\ and GPS guidance for agricultural tractors.\29\ 
Additional use cases might include visualizing prescriptive planning, 
enabling data collection of variables such as crop yield, terrain 
features and topography, organic matter content, moisture levels, 
nitrogen levels, pH, soil electrical conductivity, magnesium, and 
potassium.
---------------------------------------------------------------------------
    \26\ A. Nigam, P. Kabra and P. Doke, ``Augmented Reality in 
agriculture,'' 2011 IEEE 7th International Conference on Wireless and 
Mobile Computing, Networking and Communications (WiMob), Wuhan, 2011, 
pp. 445-448.
    \27\ S. Prasad, S. K. Peddoju and D. Ghosh, ``Mobile Mixed Reality 
Based Damage Level Estimation of Diseased Plant Leaf,'' 2014 Eighth 
International Conference on Next Generation Mobile Apps, Services and 
Technologies, Oxford, 2014, pp. 72-77.
    \28\ G. R. King, W. Piekarski and B. H. Thomas, ``ARVino--outdoor 
augmented reality visualisation of viticulture GIS data,'' Fourth IEEE 
and ACM International Symposium on Mixed and Augmented Reality 
(ISMAR'05), 2005, pp. 52-55.
    \29\ Santana-Fernandez, Javier; Gomez-Gil, Jaime; Del-Pozo-San-
Cirilo, Laura. 2010. ``Design and Implementation of a GPS Guidance 
System for Agricultural Tractors Using Augmented Reality Technology.'' 
Sensors 10, no. 11: 10435-10447.
---------------------------------------------------------------------------
    Many other data visualization use cases that improve decision 
making in real-time could be implemented, for example three-dimensional 
on-site visualization of topographic maps and geomatic data such as 
altitude, expected crop yield and actual crop yield.\30\
---------------------------------------------------------------------------
    \30\ Goddard, Ted. ``Augmented Reality Farming Geomatics.'' Retried 
from: https://www.youtube.com/watch?v=qrZYb5aa44k
---------------------------------------------------------------------------
    It is well within the capabilities of AR technology to provide 
farmers push notifications, with a farmer looking out over the field 
and red warning notifications popping up where weed, insect, disease or 
drought pressures pass a given threshold.
    Congress and the Administration, whether through the U.S. 
Department of Agriculture or other Federal agencies, should provide 
seed money and other grants to set up field studies in this area to 
document the outcomes and determine how much benefit the farming 
community may derive from these agricultural applications of AR 
technology.
II. Augmented Reality Farm Equipment Repair & Maintenance

    Augmented Reality can enhance farm operations by providing ways to 
improve outcomes and increase efficiency in training, maintenance, 
repair, and part ordering of farm machinery and equipment. Similar 
applications of AR as a facilitator in the maintenance of aircraft have 
resulted in better learning and recall, improving knowledge-transfer 
and training outcomes.\31\ This same use of AR for airplanes can be 
applied to farm equipment to help farm managers monitor machine 
analytics, anticipate problems and analyze breakdowns quickly, reducing 
downtime and helping to keep planting and harvest on schedule. 
Moreover, this technology shows potential in reducing overall use of 
pesticides while targeting problem area. It may also reduce farmers 
trips to the field.
---------------------------------------------------------------------------
    \31\ Valimont, R. B., Gangadharan, S. N., Vincenzi, D. A., & 
Majoros, A. E. (2007). The Effectiveness of Augmented Reality as a 
Facilitator of Information Acquisition in Aviation Maintenance 
Applications. Journal of Aviation/Aerospace Education & Research, 
16(2). Retrieved from http://commons.erau.edu/jaaer/vol16/iss2/9
---------------------------------------------------------------------------
III. Augmented Reality Applications in Forestry

    In forestry--another key rural industry--smart IoT techniques are 
being utilized with the aim of controlling parameters of interest such 
as diameter of trees, crown height, bark thickness and other variables, 
such as canopy, humidity, illumination, and 
CO<INF>2 </INF>transformation.
    The application of wearables in forestry can be used in identifying 
and managing tree populations utilizing the same parameters as used in 
individual management zones with AR in Farming. In addition, wearables 
could provide first rate field training for students and new employees 
in real-time tree identification and other relevant facts.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Marco Rubio to 
                             Brian Mullins
    Question 1. As we conduct our oversight role as lawmakers, how can 
we ensure that technology start-ups, like Magic Leap, are able to 
continue to advance in the 21st century economy without imposing 
unnecessary red tape?
    Answer. Some regulation and oversight are needed to ensure that 
innovative technologies created by start-ups do not harm the public. 
However, due to the rapid speed of innovation in the technology 
industry, there are many cases where reactive laws attempting to 
regulate emerging technologies have been rendered obsolete in a short 
span of time. Worse, broad brush regulations can have unintended side 
effects and stifle technology development that actually increases 
safety and improves lives. In the case of Augmented Reality (AR) 
technologies, lawmakers should consider and be aware of the wide 
variety of use cases beyond consumer-oriented gaming, social media, and 
entertainment, which will require a very different analysis. For 
example, during the hearing on 11/16/16, a question was posed on 
whether AR technology was unsafe for use in automobiles. While the 
Senator was referring to the playing of interactive games while 
driving--which is clearly unsafe and may warrant regulation--there are 
other uses of AR technology in automobiles which actually increase 
safety, such as head-up displays which project information such as the 
odometer or driving directions directly onto the wind screen so that 
the driver is no longer forced to take his or her eyes off the road, 
even for a second or two.
    As we have expressed in answers to the jobs-related questions from 
this committee, AR provides significant benefits in terms of worker 
safety and productivity in a wide variety of fields. Through the 
minimization of errors and the reduction of cognitive load, AR can 
significantly improve the quality and safety of not just the work 
environment, but also the end products, such as industrial equipment, 
consumer goods, infrastructure and construction projects, and so on. 
These improvements in turn benefit the American public at large, who 
are the beneficiaries, users, and inhabitants of the final outputs of 
the AR-enhanced production process. Currently, the aerospace, energy, 
construction, manufacturing, automotive and utilities industries are 
leading the way in AR implementation on the factory floor and in the 
field, and adoption is on the rise as highly functional and robust AR 
devices are becoming more widely available.
    Augmented Reality applications have safety benefits for both the 
workers that produce and the end users that come into contact with a 
wide range of goods, ranging from aircraft to chemical plants. These 
types of applications require the use of data capture and storage 
technologies, but in industrial rather than consumer contexts. It's 
important to consider the vast differences in AR use for consumers 
versus industry use cases. We posit that lawmakers can protect 
consumers and data privacy through regulations that empower people to 
have control of their own data, while still enabling industrial usage 
that will improve worker safety and American competitiveness.
    Tech start-ups are small businesses. Looking more broadly across 
the start-up ecosystem, we recommend not enacting laws that make it too 
cumbersome to be a small tech company. For example, it might be 
worthwhile to find ways to allow small businesses to enter government 
contracting by either providing case-by-case exemptions to FAR/D-FARS 
or by creating other programs that allow them to participate in 
government grant and research programs. Too many rules and regulations 
create a situation where it is not feasible economically for small tech 
firms to participate in government contracting, preventing the 
government's ability to leverage new innovations. When creating new 
laws, we ask that you consider the potential unintended consequences of 
new regulations on small companies in emerging markets. If you truly 
want to have more diversity and the kind of disruptive innovation 
that's possible with start-ups, the rules of engagement need to allow 
more flexibility and more competition, which will improve the end-
products that can ultimately support government people, goals, and 
functions. Without start-ups at the table, we will risk getting stuck 
with a glacial pace of change, and inefficient cost-plus models. 
Conversely, government runs the risk of not having a voice in start-up 
driven conversations regarding the most important disruptive 
innovations of the future.
    One issue that affects all technology companies is the scourge of 
patent trolls: bad actors who do not add value to the economy nor 
enhance current technologies but instead distract and slow down the 
real innovators in the marketplace through unwarranted and expensive 
legal action. Regulations that put a stop to patent trolls would be 
welcomed by start-ups and large tech businesses alike.

    Question 2. In your opinion, would current regulations placed on 
the gaming and computer industry be appropriate to apply to this new 
generation technology?
    Answer. States across the U.S. are trying to determine how to 
regulate new technologies that collect data about our health; track our 
movements and monitor our homes or workplaces. Currently, there is a 
patchwork of laws and regulations that attempt to deal with emerging 
technologies. Most focus primarily on safety, and we understand the 
need to design our products and AR experiences to address additional 
concerns about privacy, usability and affordability for all, and 
cybersecurity.
    AR products and services allow data to flow real time between 
users, their environment and data collection. While this type of 
communication allows for enhanced safety, particularly in the 
workplace, we are sensitive to the fact that users need to be made 
aware of what data is collected; how it is collected; how it will be 
used/shared and stored. We have given great thought to this issue to 
ensure our customers understand the flow of data associated with our 
products and ensure they have consented to such collection and use.
    DAQRI's stance is that Augmented Reality (AR) applications for 
industrial, automotive and consumer use should each be treated 
differently. As we've discussed in response to other questions from 
this committee, industrial applications of AR in many industries from 
energy to manufacturing to aerospace have been shown to increase 
safety, productivity and efficiency. These benefits must be weighed 
when considering new regulations that might restrict usage or delivery 
of Augmented Reality in any way.
    In the automotive field, current regulations enable and require 
safety features for driving, an activity that is fundamental to so many 
lives. Head-up-displays have been shown to reduce blind flight time of 
drivers.\32\ Due to the significant safety benefits, lawmakers should 
consider how we can expand the capability and adoption of AR HUDs.
---------------------------------------------------------------------------
    \32\ R. J. Kiefer and A. W. Gellatly, ``Quantifying the 
Consequences of the `Eyes-on-Road' Benefit Attributed to Head-Up 
Displays,'' p. 960946, Feb. 1996.

    Question 3. Autism is an issue I feel very passionate about and 
have worked on going back to my time in the Florida legislature. Some 
have suggested that augmented reality games can benefit people on the 
autism spectrum in terms of getting them out of the house and 
developing their social skills. Is the industry doing any of its own 
scientific research to determine the actual benefits of augmented 
gaming to people on the autism spectrum?
    Answer. There have been numerous studies performed over recent 
years on the benefits that augmented reality (AR) technology can 
provide to individuals on the autism spectrum. These studies have 
demonstrated how AR can positively impact their lives by improving 
several aspects of social behavior including but not limited to: the 
frequency and depth of social interactions, the reduction in social 
slipups, more seamless group integration, an increased selective 
attention span, and a boost in overall motivation to engage.\1\
    Many see even greater promise in the potential of AR than in more 
widely adopted computer learning aids for autism, an area that has been 
thoroughly studied and has seen much success over the years. The 
abundant use of engaging visuals offered by mobile AR devices allows 
for real-time feedback in a natural setting, increasing the likelihood 
of generalization. For example, mobile assistance tools, such as the 
Mobile Social Compass (MOSOCO), can offer a variety of interactive 
features to aid in enhancing social and functional skills. MOSOCO was 
deployed during a study at a public school in Southern California and 
through its guidance, children with autism were provided with 
``interactive features to encourage them to make eye contact, maintain 
appropriate spatial boundaries, reply to conversation initiators, share 
interests with partners, disengage appropriately at the end of an 
interaction, and identify potential communication partners.'' The 
results of the study demonstrated that the AR tool could increase both 
the quantity and quality of social interactions, reduce social and 
behavioral missteps, and enable the integration of children with autism 
into social groups of neurotypical children.\33\
---------------------------------------------------------------------------
    \33\ Escobedo, Lizbeth, David Nguyen, LouAnne Boyd3, Sen H. Hirano, 
Alejandro Rangel, Daniel Garcia-Rosas1, Monica Tentori, and Gillian R. 
Hayes. MOSOCO: A Mobile Assistive Tool to Support Children with Autism 
Practicing Social Skills in Real-Life Situations. Gillian Hayes. N.p., 
Aug. 2012. Web. 19 Dec. 2016.
---------------------------------------------------------------------------
    Furthermore, these mobile tools can be tailored to each individual 
case, as individuals fall on different levels of the autism scale and 
need varying levels of support.\34\ Researchers believe that 
educational AR tools, such as MOSOCO, that have prospered within the 
boundaries of the classroom can also provide adequate mobile assistance 
to people on the autism scale in real-life scenarios.\1\
---------------------------------------------------------------------------
    \34\ ``DSM-5 Diagnostic Criteria.'' Autism Speaks. N.p., n.d. Web. 
19 Dec. 2016.
---------------------------------------------------------------------------
    An additional study titled, Augmented Reality for Rehabilitation of 
Cognitive Disabled Children: A Preliminary Study, demonstrates such 
promise when using an ARVe (Augmented Reality applied to the Vegetal 
field) system as a teaching aid to support a task that involves pairing 
fruits, leaves, stems, and seeds. By overlaying 2D and 3D objects on 
printed-square markers in the form of a book, children were able to 
interact with objects in a non-immersive and intuitive manner. This 
application integrated visual, olfactory, or auditory cues to help 
children carry out the decision making process. Researchers noted that, 
``in the ARVe application, matching is an activity that the autistic 
children like because their visual aptitude is used for a precise goal, 
with some discovery pleasure and curiosity that are sources of 
motivation for these children.'' Researchers recognized that, ``given 
the possibility of adjusting the task, the AR tool is valuable to offer 
to the cognitive disabled pupils the same training as the other pupils 
of the elementary cycle.'' Parents of the children were supportive as 
well, with 90 percent positively favoring the study, emphasizing that 
the tools could involve their children in a much deeper learning 
process.\35\
---------------------------------------------------------------------------
    \35\ E. Richard, V. Billaudeau, P. Richard and G. Gaudin, 
``Augmented Reality for Rehabilitation of Cognitive Disabled Children: 
A Preliminary Study,'' 2007 Virtual Rehabilitation, Venice, Italy, 
2007, pp. 102-108.
---------------------------------------------------------------------------
    What's more, several studies have shown a correlation between the 
adoption of educational AR tools over traditional learning methods and 
an increase in motivation, focus, positive emotion, and sustained 
attention. While using Mobis, a tool that allowed teachers to 
superimpose digital content on physical objects, autistic students 
experienced a 24 percent increase in positive emotion, a 20 percent 
increase in time spent on an individual task, a 62 percent increase in 
selective attention, and a 45 percent increase in sustained 
attention.\36\
---------------------------------------------------------------------------
    \36\ Escobedo, Lizbeth, Monica Tentori, Eduardo Quintana, Jesus 
Favela, and Daniel Garcia-Rosas. ``Using Augmented Reality to Help 
Children with Autism Stay Focused.'' IEEE Pervasive Computing 13.1 
(2014): 38-46. Web. 19 Dec. 2016.
---------------------------------------------------------------------------
    These are just a few examples of studies demonstrating how AR can 
positively impact the lives of those who are affected with autism. From 
increasing selective attention and motivation to helping to socially 
integrate kids with autism at school, the effects of AR have endless 
possibilities.

    Question 4. What would you say our high schools and universities 
can be doing better in the coming years to ensure that people in 
Florida and in the United States acquire the skills and preparation to 
fill these jobs?
    Answer.
Augmented Reality systems leverage many technologies

    State-of-the-art Augmented Reality (AR) systems require the 
integration of a wide range of technical disciplines: computer vision 
tracking, high-speed graphical rendering, electronic and optical 
engineering, and low-latency cloud computing to name a few. 
Implementation of an AR solution in a specific context such a factory, 
or integrated into a larger system such as a passenger vehicle, 
requires additional layers of systems engineering and information 
technology expertise, such as networking, data analytics, and 
cybersecurity. In the midst of all this complexity, all sub-systems 
must work together to support the goals of the larger whole. Given this 
context, both deep domain expertise and big picture thinking are 
required for success.
AR experiences require creative disciplines

    A well-designed AR interface requires the extreme application of 
user-centric design, given the proximity and personalization of an 
interface that sits directly in one's field of view. It is more crucial 
than ever to consider and understand human factors in the design of 
Augmented Reality interfaces, applications, and products. For this 
reason, creative professionals who can create functional designs that 
people love to use are always in very high demand in the AR industry. 
In addition to having a strong skillset in design thinking, creatives 
also need to deeply understand how the underlying technology works, in 
order to be able to innovative and push the boundaries of its 
capabilities.
The role of educational institutions

    The best thing that educational institutions can do is to integrate 
AR in the classroom in high school and even before. Not only will it 
improve learning outcomes, it will also prepare the next generation to 
work in one of the most exciting industries of our time. If we do not 
take this opportunity, we run the risk of falling behind in a global 
context.
    Furthermore, high schools and universities can and should do more 
to promote STEM and design thinking education in our schools, but that 
alone is not enough. Educators can instill the habit of multi-
disciplinary thinking bigger in students through the implementation of 
entrepreneurship programs, project-based learning methods, and the 
integration of agile methodologies. When students have the opportunity 
to create end-to-end solutions it more realistically prepares them for 
real-world, provides greater motivation to engage, and enables them to 
keep the bigger picture in mind. Students who have taken a project from 
zero to launch have greater job prospects in a market that is 
increasingly seeking problem solvers with entrepreneurial skillsets.
    AR is inspirational precisely because it is so technically 
challenging across STEM disciplines and so broadly applicable in all 
areas of human activity--from building airplanes and rockets to 
interactive mobile gaming. Teachers and educational institutions can 
engage students more fully by building on the excitement for a subject 
that is so fundamentally cool.

    Question 5. What message would you like to send to educators and 
students alike about the industry's future and the opportunities it 
presents?
    Answer. Augmented Reality is an extremely exciting field for 
students to pursue. Not only is it one of the fastest growing 
technologies in the history of the world, but like the Internet, it has 
the potential to touch every other industry.
    Unlike most industries, our educational system has struggled to 
evolve over time. The setup and structure of classrooms today mirror 
those of 100 years ago. This antiquated design can limit a student's 
ability to express knowledge in creative and innovative ways, forcing 
them to conform to the status quo. It's time that changes. Our high 
schools and universities must provide a student-directed learning 
environment that encourages students to take risks, learn from setbacks 
and failures along the way, and ignore society's limitations. We need 
to ensure students can still dream of a better world if we're to have 
any hope of living in one.
    Futurist Thomas Frey predicts 60 percent of the jobs 10 years from 
now haven't been invented yet \37\ and those that have been invented 
will be drastically different due to technological advances. Our 
schools can prepare students for the future of work by instilling the 
value of lifelong learning; designing curriculum where students learn 
through discovery and creation, not consumption, and provide a culture 
where your results matter just as much as how you treat the people 
around you.
---------------------------------------------------------------------------
    \37\ Thomas Frey, futurist. Accessed from: http://
www.futuristspeaker.com/business-trends/55-jobs-of-the-future/. 
Accessed 12/19/16.
---------------------------------------------------------------------------
    The Augmented Reality industry provides students with the exciting 
opportunity to contribute to a new frontier of technology innovation. 
This opportunity will require a workforce that dreams without 
limitations and a passion for pushing the boundaries of the newest 
technologies. Augmented reality will empower students as much as 
computer skills in previous decades, and will prove to be a 
differentiator in the way we experience life.

    Question 6. The interface created by these new technologies can be 
a tremendous asset to the Department of Defense, especially for 
training. How can the Department of Defense collaborate with innovators 
to push the limits of mixed reality technologies to ensure our men and 
women in uniform continue to be the best trained and equipped fighting 
force on this Earth?
    Answer. Augmented Reality (AR) technology can serve as a force 
multiplier in defense training and operations by increasing situational 
awareness, reducing the fog of war, counteracting information overload, 
improving targeting cycle times, and enhancing battlefield 
collaboration.\38\ Airforce fighter pilots have long benefitted from AR 
interfaces in head-up displays that superimpose information from a 
variety of data streams, including targets, navigation waypoints, and 
threats, over their 3D locations. By providing virtual overlays that 
seamlessly merge mission critical information into pilots' field of 
vision, AR allows pilots to keep their eyes on the real environment, 
improving reaction time, and reducing cognitive load.
---------------------------------------------------------------------------
    \38\ Livingston, M.; Rosenblum, L.; Brown, G.; Schmidt, G; Julier, 
S.; Baillot, Y.; Swan II, J.; Ai, Z.; Maassel, P. Military Applications 
of Augmented Reality, chapter in Handbook of Augmented Reality pp 671-
706. Date: 13 July 2011.
---------------------------------------------------------------------------
    Our men and women in uniform on land and at sea can benefit from 
the same advantages AR provides to pilots. In 2014, DAQRI entered into 
a cooperative research and development agreement (CRADA) with the Space 
and Naval Warfare Systems Command (SPAWAR) to explore and measure the 
benefits of augmented reality (AR) tools for Naval applications and to 
support the development of new capabilities for the Navy.
    In the first quarter of 2016, a coalition of Naval commands met on 
USS Essex to launch the first platform for Sailors to bring innovative 
technological concepts straight from the deckplates to Navy labs for 
rapid prototyping and testing in the fleet. Navy leadership spoke at 
the Innovation Jam, encouraging sailors to ``be bold and bring forth 
ideas and solutions to fleet challenges,'' \39\ and also served as 
judges as six Sailor finalists pitched technological solutions, with 
two winners receiving funds and support to build prototypes. LT Robert 
McClenning from USS Gridley was selected as the winner and received 
prototyping funds for his Unified Gunnery System concept which featured 
an augmented reality helmet that would fuse information from the 
gunnery officer and weapon system into an easy-to-interpret visual 
format for the gunner manning a naval gun system.
---------------------------------------------------------------------------
    \39\ Inaugural Innovation Jam Funds Sailor-Driven Improvements, 
http://www.navy.mil/submit/display.asp?story_id=93698, accessed 12/14/
16.
---------------------------------------------------------------------------
    Through the collaboration with SPAWAR, DAQRI partnered with the 
Navy's Battlefield Exploitation of Mixed Reality (BEMR) Laboratory \40\ 
to develop and demonstrate LT McClenning's prototype Augmented Reality 
command and control concept. Christened GunnAR, the application 
leverages the DAQRI Smart Helmet as a wearable augmented reality 
display and enables the issuing of commands by the gunnery officer to 
gunners aboard Navy ships, which then are shown directly in the field 
of view of the targeting officer and all gunnery positions. If 
implemented at scale, this system could greatly improve the targeting 
cycle and shipboard situational awareness. Many small caliber 
engagements occur close to shore or near ports, so improving the 
targeting officers' ability to control fires could significantly reduce 
friendly fire incidents.
---------------------------------------------------------------------------
    \40\ Battlefield Exploitation of Mixed Reality (BEMR) Laboratory, 
http://www.public.navy.mil/spawar/Pacific/BEMR/Pages/default.aspx, 
accessed 12/14/16.
---------------------------------------------------------------------------
    We hope to work with the Office of Naval Research and other DOD 
research centers to ensure prototype systems like GunnAR are funded, 
developed, and deployed to the fleet, cementing a battlefield edge that 
no opponent will have.
    Beyond being an exceptional training aid, AR could one day provide 
every soldier with a common operating picture of the battle space and 
deliver an unmatched competitive edge. To ensure that the Department of 
Defense can implement the mixed reality advances being achieved in the 
commercial world, we respectfully request consideration of the 
following:

    I.  Fund studies for design, development and demonstration of 
        military-specific AR applications using COTS systems that 
        demonstrate improvement of battlefield situational awareness, 
        which would lead over time to military-specific hardware and 
        software solutions that will give our soldiers a force 
        multiplier that no opponent will have.

   II.  Increase programs that encourage and enable collaboration 
        between the military and commercial innovators such as 
        cooperative research and development agreements (CRADAs) and 
        JIDO's Hacking4Defense--a model based upon Silicon Valley's 
        lean and agile innovation methodology.

  III.  Increase programs that support internal innovation so that our 
        men and women in uniform can come up with great ideas and pull 
        innovation out of the commercial space. The Navy's Innovation 
        Jam, The Hatch, and The Bridge are commendable examples. The 
        140,000 members of the fleet have many good ideas and bright 
        people but are stifled by procedure and systems of record that 
        prevent them from solving problems in an agile manner.

  IV.  Improve the ability for innovators to develop products for the 
        military and feel confident that their IP will not be put at 
        risk. This is particularly important if the DOD is going to 
        leverage the most advanced technology that is funded by start-
        up investors and high tech companies that currently have a 
        primary focus on commercial business. Allowing companies to 
        continue to develop technology and more easily navigate through 
        export control issues, e.g., ITAR, will support companies by 
        allowing them to add DOD business development and engineering 
        focus to DOD applications without fear that their core IP will 
        be shared or put at risk in a way that is outside the company's 
        control.

    As mixed reality technologies have matured over the last fifteen 
years, explorations of augmented and virtual reality defense 
applications have correspondingly increased. Since the year 2000, the 
U.S. Naval Research Laboratory has published over 50 papers describing 
the development and testing of a Battlefield Augmented Reality System 
(BARS) and the capabilities it imparts or enhances including X-ray 
vision and depth perception, information filtering, collaboration, and 
embedded training.\41\
---------------------------------------------------------------------------
    \41\ Julier, S; Baillot, Y; Lanzagorta, M; Brown, D; Rosenblum, L. 
``Bars: Battlefield augmented reality system.'' In NATO Symposium on 
Information Processing Techniques for Military Systems. 2000.
---------------------------------------------------------------------------
Other defense applications of COTS Augmented Reality innovation

    It is crucial to enable military applications of the most advanced 
innovations available in emerging technology, which today are often 
originate in the commercial sector.
    For example, the Augmented Immersion Team Training \42\ (AITT) 
system, developed by the Marine Corps and supported by the Office of 
Naval Research, was demonstrated in 2015. Through AR, AITT provides 
more realistic force-on-force ground training for small unit leaders, 
forward observers, and mortarmen, resulting in improved effectiveness 
and efficiency. Combining hardware and software components, AITT 
utilizes a commercial-off-the-shelf (COTS) head-worn display and 
tactical equipment such as binoculars to overlay realistic virtual 
elements onto real world landscapes. A wide array of virtual elements 
can be simulated including weapons, artillery and mortar effects, fixed 
and rotary wing aircraft, and targets such as enemy personnel, tanks 
and buildings, creating a more realistic training environment at a 
fraction of the cost of live training.
---------------------------------------------------------------------------
    \42\ Augmented Immersion Team Training, http://www.onr.navy.mil/
Media-Center/Fact-Sheets/AITT.aspx, accessed 12/14/16.
---------------------------------------------------------------------------
    In 2015, Lockheed Martin and SRI International presented an 
augmented reality-based vehicle training system for tactical and 
gunnery training that simulated realistic and responsive training 
targets. Instructor software enabled instructors to run scenarios that 
resemble live fire training events without much of the associated costs 
and risks and allowing trainee performance statistics to be 
gathered.\43\ The AR system was tested on an Army Stryker operating in 
real range and coordinated simulations between the Styker's three 
driver periscopes, the gunner's remote weapons system (RWS), and the 
fire control unit (FCU), enabling real-time team collaboration. Much of 
the research literature on Augmented Reality takes the position that 
AR's potential will be fully realizable when highly robust and 
functional hardware is widely commercially available. Finally, these 
capabilities can now be supported by commercial-off-the-shelf AR 
hardware designed for use in industrial environments.
---------------------------------------------------------------------------
    \43\ Brookshire, J.; Oskiper, T.; et al., Military Vehicle Training 
with Augmented Reality. Interservice/Industry Training, Simulation, and 
Education Conference, November, 2015.

    Question 7. In your testimony you stated, ``Technology can take 
away jobs. It's true though that most times when it does, it creates 
new, even better jobs.'' Can you speak to how the expansion of AR 
technology will create ``new, even better jobs'' in the transportation, 
construction, defense, training and manufacturing sectors?
    Answer.
Technology's impact on jobs

    When it comes to employment, the painful consequences of disruptive 
technology are more readily felt in the short term than the 
opportunities generated by rapid innovation, and often receive the 
lion's share of public attention. However, economic research shows that 
new technologies create many more jobs than are lost, and in the 
process create auxiliary economic benefits such as consumer surplus, 
greater variety and consumer choice, and increased convenience. Over 
the past 15 years, the Internet created 2.6 new jobs globally for every 
job it eliminated. This growth occurred mainly through the 
modernization of traditional activities: 75 percent of the economic 
impact came from companies who define themselves as traditional firms. 
Since Augmented Reality is a communication medium that connects people 
to information in a new way, it shares some characteristics with the 
World Wide Web, including the potential to touch nearly every 
traditional industry.
    Historically, the benefits of innovation have not been evenly 
distributed, especially for displaced employees who are older or have 
less formal education. Augmented Reality can help level the playing 
field for American workers and empower them to stay ahead of the curve 
in a shifting technological landscape--but before we turn to this topic 
let's look at two examples of related technologies that have had a net 
positive impact on job growth.
    Augmented reality is closely tied to the growing Industrial 
Internet of Things (IIoT), which is expected to create new jobs in 
industrial data science, robotics, IT solution architecture, industrial 
computer programming, and industrial UI/UX design, among other areas. 
At a macroeconomic level, the IIoT is powering the growing trend toward 
the outcome economy, where organizations shift their focus from the 
provision of products to the delivery of measurable outcomes important 
to the customer.\44\ A significant factor in new job creation in 
traditional industries is exactly this type of new business model 
enablement. From 2004 to 2014, manufacturing jobs declined by 2 
million, while services jobs have increased by 10 million.\45\ 
Traditional businesses like General Electric are hiring thousands of 
software engineers to provide software and data services.\46\
---------------------------------------------------------------------------
    \44\ Industrial Internet of Things: Unleashing the Potential of 
Connected Products and Services. http://reports.weforum.org/industrial-
internet-of-things/3-convergence-on-the-outcome-economy/. World 
Economic Forum. See section 3.2: The emergence of the outcome economy. 
Accessed 
12/16/16.
    \45\ Employment by major industry sector, Bureau of Labor 
Statistics. Accessed from: https://www.bls.gov/emp/ep_table_201.htm#1
    \46\ Power, B. Building a Software Start-Up Inside GE. https://
hbr.org/2015/01/building-a-software-start-up-inside-ge. Accessed 12/16/
16.
---------------------------------------------------------------------------
Augmented Reality job creation in manufacturing: The Industrial 
        Internet of Things and the link between productivity and 
        employment

    One of the main driving forces behind the high demand for Augmented 
Reality (AR) applications in manufacturing is the capacity of AR to 
serve as the user interface for the Industrial Internet of Things 
(IIoT), displaying relevant sensor data, trends, and control 
information directly in the field of view of the worker on the factory 
floor. AR implementations in industrial contexts will create a range of 
new jobs including hardware and software systems integrators, data 
analysts, interface designers, trainers, and AR project managers.
    At a macroeconomic level, Augmented Reality is likely to increase 
demand for manufacturing jobs due to its ability to directly improve 
manufacturing productivity. As mentioned above, Augmented Reality 
technology delivers significant improvements in worker productivity in 
the context of manufacturing and assembly.\47\ This higher growth in 
manufacturing productivity, however, does not lead to a decline in 
employment. According to research by Yale Economics Professor William 
Nordhaus, the empirical evidence shows that ``rapid productivity growth 
leads to increased rather than decreased employment in manufacturing,'' 
as increased productivity leads to lower prices, thereby expanding 
demand, which results in increased employment.\48\
---------------------------------------------------------------------------
    \47\ Hou, Lei, et al., ``Using animated augmented reality to 
cognitively guide assembly.'' Journal of Computing in Civil Engineering 
27.5 (2013): 439-451.
    \48\ Nordhaus, W. The Sources of the Productivity Rebound and the 
Manufacturing Employment. National Bureau of Economic Research, Working 
Paper No. 11354 May 2005. JEL No. O4, E1
---------------------------------------------------------------------------
    Manual work is and will continue to be a cornerstone of the 
economy, even as new technologies transform work environments from 
farming to the factory floor. However, there is a shortage of skilled 
workers in various manufacturing contexts. In addition to the 
macroeconomic dynamic explained above, Augmented Reality can help 
bridge the gap between unskilled workers and unmet demand for labor at 
a microeconomic level. For example, it has been shown that AR can help 
novice welders rapidly ramp up their skillset by superimposing an 
auxiliary visual signal directly in their line of sight over the weld 
pool image. Building upon a machine learning algorithm that calculates 
the optimal welding speed, the AR interface displays arrows with 
direction and amplitude, enabling trainees to make adjustments.\49\ For 
a broader range of skillsets, it has been shown that AR assistance 
systems significantly reduce errors, speed, and mental workload 
involved in manual assembly tasks, resulting in the ability to rapidly 
train workers and ramp up operations.\50\
---------------------------------------------------------------------------
    \49\ Y. Liu and Y. Zhang, ``Super welder in augmented reality 
welder training system: A predictive control approach,'' 2015 IEEE 24th 
International Symposium on Industrial Electronics (ISIE), Buzios, 2015, 
pp. 131-136.
    \50\ F. Loch, F. Quint and I. Brishtel, ``Comparing Video and 
Augmented Reality Assistance in Manual Assembly,'' 2016 12th 
International Conference on Intelligent Environments (IE), London, 
2016, pp. 147-150.
---------------------------------------------------------------------------
I. Augmented Reality job creation in construction, transportation, 
        defense, and 
        training
The ``relative demand for educated workers''

    Historical evidence from the decades prior to the Internet boom 
shows that new technology increased the relative demand for more 
educated workers, but only for a limited time. Echoing the healthcare 
example above, Ann Bartel's 1985 empirical study for the National 
Bureau of Economic Research found that ``the relative demand for 
educated workers declines as the capital stock (and presumably the 
technology embodied therein) ages'' and that ``the education-
distribution of employment depends . . . strongly on the age of 
equipment'' suggesting that as new technologies become more integrated 
into everyday business operations, opportunities for all skill ranges 
increase.\51\ The same study found that ``the effect of changes in 
equipment age on labor demand is magnified in R&D-intensive 
industries,'' with the converse thus being true in less R&D intensive 
industries such as transportation and construction. If learning curves 
develop more rapidly, then the demand for less educated workers comes 
into play even more quickly after the introduction of new technologies.
---------------------------------------------------------------------------
    \51\ Bartel, A.; Lichtenberg, F. The Comparative Advantage of 
Educated Workers in Implementing New Technology: Some Empirical 
Evidence. National Bureau of Economic Research, Working Paper No. 1718. 
October 1985.
---------------------------------------------------------------------------
Augmented reality improves learning curves, making labor more portable

    In a 2013 study titled Using Animated Augmented Reality to 
Cognitively Guide Assembly, researchers showed not only that AR enabled 
improved accuracy and reduction in errors in assembly tasks, but also 
improved novices' learning curves.\52\ This has been shown in many 
different environments including in surgical planning and training, 
where AR interfaces have been shown to improve performance in complex 
spatial reasoning tasks.\53\
---------------------------------------------------------------------------
    \52\ Hou, Lei, ibid.
    \53\ K. Abhari et al., ``Training for Planning Tumour Resection: 
Augmented Reality and Human Factors,'' in IEEE Transactions on 
Biomedical Engineering, vol. 62, no. 6, pp. 1466-1477, June 2015.
---------------------------------------------------------------------------
    As referenced by our written testimony to this committee on 
November 16, 2016, Boeing and Iowa State University's study, Augmented 
Reality work instructions improve accuracy, speed, focus and worker 
satisfaction when utilized in the training and operation of complex 
manufacturing tasks.\54\
---------------------------------------------------------------------------
    \54\ 1 Fusing Self-Reported and Sensor Data from Mixed-Reality 
Training, (I/ITSEC) 2014, Trevor Richardson, Stephen Gilbert, Joseph 
Holub, Frederick Thompson, Anastacia MacAllister, Rafael Radkowski, 
Eliot Winer Iowa State University, Paul Davies, Scott Terry, The Boeing 
Company
---------------------------------------------------------------------------
How augmented reality levels the playing field for American workers

    So far, we've argued that augmented reality improves productivity, 
which in turn increases employment by reducing costs and increasing 
demand. We've also shown that introducing new technologies into the 
workplace increase employment of mid-skilled workers by generating 
efficiencies through on-the-job experience that open up new business 
models, also increasing demand and thereby increasing employment. 
Thanks to AR's ability to significantly improve learning curves, it 
will decrease relative demand for highly skilled workers and increase 
demand for less educated segments of the workforce.
    In our written testimony, we discussed how AR can empower workers 
to keep up with the rapidly changing pace of technology. When American 
workers can utilize Augmented Reality interfaces to rapidly learn, re-
skill, and become cross-functionally proficient, it will transform the 
economy and dramatically reduce unemployment, eliminating mismatches 
between job vacancies and worker skillsets. AR allows those who are 
less formally educated to be trained (or re-trained) more quickly, more 
efficiently and less expensively, thereby reducing the uneven 
distribution of the benefits of innovation.
    In order for Augmented Reality to function well in the 
transportation, construction, defense, training and manufacturing 
sectors a whole range of infrastructure and services are required:

  1.  Software Engineers

  2.  AR Hardware Engineers

  3.  AR Content Developers

  4.  Data Analysts

  5.  User Experience Designers

  6.  Product and Project Managers

  7.  Security and Networking Engineers

    When new Internet-connected technologies are introduced, the 
obvious place to look for job creation is in roles related to hardware 
and software procurement and implementation, training, content 
development, integration, and networking and security, and data 
storage.
AR job creation and economic transformation

    Augmented reality will certainly directly create those types of new 
jobs, but it will also have an indirect effect on the job market that 
is unique. Because AR can enhance the ability to rapidly understand, 
synthesize, and communicate new ideas, it enables workers to adapt to 
rapid change in the world of work. As we said in our initial testimony, 
AR technology allows you to overlay information into the real world and 
rapidly transfer knowledge that empowers workers.
    The United States has always been the central player in the 
Internet economy: the U.S. captured more than 30 percent of global 
Internet revenues and more than 40 percent of net income as of 
2011.\55\ The American economy as a whole can maintain its 
competitiveness by staying ahead of game-changing technologies like AR.
---------------------------------------------------------------------------
    \55\ Pelissie du Rausas, ibid.
---------------------------------------------------------------------------
                                 ______
                                 
     Response to Written Question Submitted by Hon. Joe Manchin to 
                             Brian Mullins
    Question. As a former Governor and in my role as a United States 
Senator, I have remained committed to enhancing the job climate in my 
state so that West Virginians have good paying jobs and the skills to 
compete in the global economy. Part of this job growth is going to come 
from the technology sector. We are beginning to see an uptick in 
technology startups in different parts of the state, but I believe 
there are opportunities for tools such as augmented reality to enhance 
workforce training.
    The technological advancements of the 21st century should not leave 
rural communities behind, and as West Virginia continues to develop its 
technology sector and train its workforce: How can augmented reality be 
used to train workers in the digital economy?
    Answer.
I. Augmented Reality-based workforce training will prepare workers, 
        across age groups and level of formal education, to compete and 
        win in the global economy

    Augmented Reality (AR) is a game-changer for job training and on-
the-job skill acquisition. Three decades of research supports the 
conclusion that AR improves learning, productivity, accuracy, 
efficiency, and job satisfaction in a variety of contexts including 
manufacturing,\1\<SUP>,</SUP>\2\ defense,\3\ aerospace,\4\ 
construction,\5\ medicine \6\ and other sectors.
---------------------------------------------------------------------------
    \1\ Hou, Lei, et al., ``Using animated augmented reality to 
cognitively guide assembly.'' Journal of Computing in Civil Engineering 
27.5 (2013): 439-451.
    \2\ F. Loch, F. Quint and I. Brishtel, ``Comparing Video and 
Augmented Reality Assistance in Manual Assembly,'' 2016 12th 
International Conference on Intelligent Environments (IE), London, 
2016, pp. 147-150.
    \3\ Henderson, S. J.; Feiner, S. 2009. ``Evaluating the benefits of 
augmented reality for task localization in maintenance of an armored 
personnel carrier turret.'' International Symposium on Mixed and 
Augmented Reality, 2009 (ISMAR 2009). pp 135-144. Orlando, Florida.
    \4\ Caudell, T P and Mizell, D W 1992, Augmented reality: An 
application of heads-up display technology to manual manufacturing 
processes. Proc. Ieee Hawaii International Conf. on Systems Sciences, 
1992.
    \5\ Webster, Anthony, et al., ``Augmented reality in architectural 
construction, inspection and renovation.'' Proc. ASCE Third Congress on 
Computing in Civil Engineering. 1996.
    \6\ K. Abhari et al., ``Training for Planning Tumour Resection: 
Augmented Reality and Human Factors,'' in IEEE Transactions on 
Biomedical Engineering, vol. 62, no. 6, pp. 1466-1477, June 2015.
---------------------------------------------------------------------------
    AR technology empowers experts and novices alike to quickly learn 
new skills or be trained in a new area or sector--a particularly 
important benefit for workers who have lost their jobs and cannot 
easily find work in their current industry. For example, AR-based 
workforce training can assist a laid-off coal miner who went directly 
from high school into his or her career to be rapidly retrained in 
other, even unrelated, sectors without requiring two or four years of 
higher education. This increased efficiency means that job training (or 
re-training) is no longer cost-prohibitive, especially for older or 
less formally-educated workers. This is critically important in states 
like West Virginia where workers have struggled to transition their 
skillsets into other fields in the midst of a decline in traditional 
sectors such as mining and manufacturing.
    As referenced in our written testimony to this committee on 
November 16, 2016, Augmented Reality (AR) work instructions have been 
shown to improve accuracy, speed, focus and worker satisfaction when 
utilized in the training and operation of complex manufacturing tasks 
through visual, step-by-step work instructions overlaid directly on top 
of components to be assembled.\7\ In addition to shorter task 
completion times and less assembly errors, the visual and spatial 
nature of AR enables a lower total task load and a reduction in the 
learning curve of novice assemblers, while increasing task performance 
relevant to working memory.\8\ Compared with video-based work 
instructions, AR produces a significantly reduced number of errors and 
scores better in terms of time and overall mental workload.\9\
---------------------------------------------------------------------------
    \7\ Fusing Self-Reported and Sensor Data from Mixed-Reality 
Training, (I/ITSEC) 2014, Trevor Richardson, Stephen Gilbert, Joseph 
Holub, Frederick Thompson, Anastacia MacAllister, Rafael Radkowski, 
Eliot Winer Iowa State University, Paul Davies, Scott Terry, The Boeing 
Company.
    \8\ Hou, Lei, et al., ibid.
    \9\ F. Loch, F. Quint and I. Brishtel. ibid.
---------------------------------------------------------------------------
    Today, the majority of learning experiences occur out of context. 
Classroom training, online training modules, and online synchronous 
training are all variations of didactic content presentation. Augmented 
reality will provide learning professionals opportunities to engage 
students and trainees with scalable and effective mechanisms to 
practice new skills in a hands-on manner, while still being supported 
by digital tools. This is especially valuable for workers who may not 
have seen a college or vocational classroom in more than twenty years, 
if at all.
    How does AR improve the speed of knowledge-transfer and improve its 
retention? A key element is AR's ability to combine the real-world 
environment with digital information. When it comes to learning new 
concepts and skills, no training method beats hands-on experience. 
Experiencing the consequences of success and failure in real time helps 
us make neural connections that are much stronger and longer lasting 
than simply consuming content. Wearable head-up displays with AR 
capabilities give the wearer a view that fuses the complexity and 
messiness of the real world with the precision and reliability of a 
digital display, providing access to the real-world scene for the 
hands-on aspect of training, while enhancing it with didactic or 
reference information to keep us on track. It is notably effective in 
enhancing spatial reasoning.
II. Enhancing the overall job climate

    At a macroeconomic level, Augmented Reality can enhance the job 
climate by increasing productivity, which increases demand, which then 
increases employment. For example, Augmented Reality is likely to 
increase demand for manufacturing jobs due to its ability to directly 
improve manufacturing productivity. Studies show that Augmented Reality 
technology delivers significant improvements in worker productivity in 
the context of manufacturing and assembly.\10\ This higher growth in 
manufacturing productivity, however, does not lead to a decline in 
employment. According to empirical research conducted by Yale Economics 
Professor William Nordhaus, the evidence shows that ``rapid 
productivity growth leads to increased rather than decreased employment 
in manufacturing,'' as increased productivity leads to lower prices, 
thereby expanding demand, which results in increased employment.\11\
---------------------------------------------------------------------------
    \10\ Hou, Lei, et al., ibid.
    \11\ Nordhaus, W. The Sources of the Productivity Rebound and the 
Manufacturing Employment. National Bureau of Economic Research, Working 
Paper No. 11354 May 2005. JEL No. O4, E1
---------------------------------------------------------------------------
III. Augmented reality applications for rural areas

    Of course, even if increased demand for manufactured goods results 
in increased manufacturing employment, those jobs may be unavailable in 
some areas, especially in rural states, if there are few or no 
factories located there. But far from leaving rural communities behind, 
some of the strongest use cases for Augmented Reality (AR) are 
specifically tailored to rural industries. As several senators have an 
interest in this topic, we have prepared the following discussion on AR 
applications in agriculture and forestry.
i. Augmented Reality and Smart Agriculture

    State-of-the-art farm management practices such as precision 
agriculture, site specific crop management, and Internet of Things 
(IoT) farming have reduced costs and improved yields for farmers around 
the world. Augmented Reality (AR) applications can enhance many aspects 
of smart agriculture by providing tools that streamline the measurement 
and collection of inputs, and the delivery of analysis and insights 
that enable data-driven decision making.
    IoT smart agriculture is one of the driving forces that allows the 
United States to produce 7,637 kilograms of cereal per hectare, nearly 
twice the world average in crop yield.\12\ A wide range of sensors are 
now being implemented: BI Intelligence predicts that IoT device 
installations in the agriculture world will increase from 30 million in 
2015 to 75 million in 2020, a compound annual growth rate of 20 
percent.\13\
---------------------------------------------------------------------------
    \12\ Cereal yield (kg per hectare). The World Bank. Accessed from: 
http://data.worldbank.org/indicator/AG.YLD.CREL.KG. Accessed 12/18/16.
    \13\ Meola, Andrew. ``Why IoT, Big Data & Smart Farming is the 
Future of Agriculture.'' Business Insider. October 7, 2016. Accessed 
from: http://www.businessinsider.com/internet-of-things-smart-
agriculture-2016-10. Accessed 12/18/16.
---------------------------------------------------------------------------
    Thanks in part to the steady reduction in electronics and data 
storage costs, a wide range of sensors are being utilized across smart 
agriculture including biological, chemical and gas analyzers, water 
sensors, meteorological sensors, weed seekers, optical cameras, Light 
Detection and Ranging (LIDAR), photometric sensors, soil respiration, 
photosynthesis sensors, Leaf Area index (LAI) sensors, range finders, 
Dendrometers, and hygrometers. Whether in unmanned aerial or ground 
vehicles (UAVs or UGVs), or stationed in the field, these IoT sensors 
sample, measure and collect key performance data including soil 
fertility diagnostics, yield as-planted, and as-applied, and water 
utilization. AR technology could provide additional insights into the 
optimization of seed, fertilizer, and chemical input, planting 
prescriptions, profit mapping and analysis and future crop planning.
    An AR interface displayed within devices such as the DAQRI Smart 
Helmet can show this vital information contextually within individual 
management zones, with real-time data like soil moisture levels, 
sunlight cations, projected Nitrogen use, and other advanced analytics 
appearing in the wearable device's view as the farmer traverses the 
ground.
    Augmented reality systems have been proposed for agricultural uses 
across the spectrum including insect identification and pest 
management,\14\ damage level estimation of diseased plant leaves,\15\ 
outdoor visualization of agricultural geographic information system 
(GIS) data,\16\ and GPS guidance for agricultural tractors.\17\ 
Additional use cases might include visualizing prescriptive planning, 
enabling data collection of variables such as crop yield, terrain 
features and topography, organic matter content, moisture levels, 
nitrogen levels, pH, soil electrical conductivity, magnesium, and 
potassium.
---------------------------------------------------------------------------
    \14\ A. Nigam, P. Kabra and P. Doke, ``Augmented Reality in 
agriculture,'' 2011 IEEE 7th International Conference on Wireless and 
Mobile Computing, Networking and Communications (WiMob), Wuhan, 2011, 
pp. 445-448.
    \15\ S. Prasad, S. K. Peddoju and D. Ghosh, ``Mobile Mixed Reality 
Based Damage Level Estimation of Diseased Plant Leaf,'' 2014 Eighth 
International Conference on Next Generation Mobile Apps, Services and 
Technologies, Oxford, 2014, pp. 72-77.
    \16\ G. R. King, W. Piekarski and B. H. Thomas, ``ARVino--outdoor 
augmented reality visualisation of viticulture GIS data,'' Fourth IEEE 
and ACM International Symposium on Mixed and Augmented Reality 
(ISMAR'05), 2005, pp. 52-55.
    \17\ Santana-Fernandez, Javier; Gomez-Gil, Jaime; Del-Pozo-San-
Cirilo, Laura. 2010. ``Design and Implementation of a GPS Guidance 
System for Agricultural Tractors Using Augmented Reality Technology.'' 
Sensors 10, no. 11: 10435-10447.
---------------------------------------------------------------------------
    Many other data visualization use cases that improve decision 
making in real-time could be implemented, for example three-dimensional 
on-site visualization of topographic maps and geomatic data such as 
altitude, expected crop yield and actual crop yield.\18\
---------------------------------------------------------------------------
    \18\ Goddard, Ted. ``Augmented Reality Farming Geomatics.'' 
Accessed from: https://www.you
tube.com/watch?v=qrZYb5aa44k. Accessed on 12/16/16.
---------------------------------------------------------------------------
    It is well within the capabilities of AR technology to provide 
farmers push notifications, with a farmer looking out over the field 
and red warning notifications popping up where weed, insect, disease or 
drought pressures pass a given threshold.
    Congress and the Administration, whether through the U.S. 
Department of Agriculture or other Federal agencies, should provide 
seed money and other grants to set up field studies in this area to 
document the outcomes and determine how much benefit the farming 
community may derive from these agricultural applications of AR 
technology.
ii. Augmented Reality Farm Equipment Repair & Maintenance

    Augmented Reality can enhance farm operations by providing ways to 
improve outcomes and increase efficiency in training, maintenance, 
repair, and part ordering of farm machinery and equipment. Similar 
applications of AR as a facilitator in the maintenance of aircraft have 
resulted in better learning and recall, improving knowledge-transfer 
and training outcomes.\19\ This same use of AR for airplanes can be 
applied to farm equipment to help farm managers monitor machine 
analytics, anticipate problems and analyze breakdowns quickly, reducing 
downtime and helping to keep planting and harvest on schedule. 
Moreover, this technology shows potential in reducing overall use of 
pesticides while targeting problem areas. It may also reduce farmers' 
trips to the field thanks to the increased connectedness it provides.
---------------------------------------------------------------------------
    \19\ Valimont, R. B., Gangadharan, S. N., Vincenzi, D. A., & 
Majoros, A. E. (2007). The Effectiveness of Augmented Reality as a 
Facilitator of Information Acquisition in Aviation Maintenance 
Applications. Journal of Aviation/Aerospace Education & Research, 
16(2). Retrieved from http://commons.erau.edu/jaaer/vol16/iss2/9.
---------------------------------------------------------------------------
iii. Augmented Reality Applications in Forestry

    In forestry--another key rural industry--smart IoT techniques are 
being utilized with the aim of controlling parameters of interest such 
as diameter of trees, crown height, bark thickness and other variables, 
such as canopy, humidity, illumination, and 
CO<INF>2 </INF>transformation.
    The application of wearables in forestry can be used in identifying 
and managing tree populations utilizing the same parameters as used in 
individual management zones with AR in Farming. In addition, wearables 
could provide first rate field training for students and new employees 
in real-time tree identification and other relevant facts.
IV. Augmented Reality Applications in Mining

    In addition to these examples of Augmented Reality (AR) 
applications in rural areas, there are excellent use cases for AR in 
mining. Increased access to relevant real-time information saves time 
for workers and improves decision-making. This is one of the key 
benefits that AR can provide to mine workers.
    Pervasive sensing--the practice of deploying large numbers of 
sensors and linking them to communication networks in order to analyze 
their collective data--is already being used in the mining industry to 
support remote operations, health and safety, and exploration and 
mapping. The identification and management of ore grade, which is 
relevant across all stages of the mining process, can be provided by 
sensing technologies during exploration, extraction, haulage and 
processing activities.\20\ AR has been proposed as a mechanism to 
visualize sub-surface mining data,\21\ and beyond that depth and 
localization data, 3D ranging and mapping, infrared data, and machine 
condition monitoring data are all examples of information that can be 
displayed in context to workers onsite using Augmented Reality head-up 
displays in order to improve operational efficiency and safety.
---------------------------------------------------------------------------
    \20\ M. E. Kiziroglou; D. E. Boyle; E. M. Yeatman; J. J. Cilliers, 
``Opportunities for sensing systems in mining,'' in IEEE Transactions 
on Industrial Informatics, vol.PP, no.99, pp.1-1.
    \21\ Roberts, Gethin W., et al., ``The use of augmented reality, 
GPS and INS for subsurface data visualization.'' FIG XXII International 
Congress. 2002. APA
---------------------------------------------------------------------------
    Augmented Reality can also help reduce mining accidents and lost 
workers. Major safety issues in the mining industry occur when 
personnel are in the field, such as when workers get lost underground 
and can no longer find their way back to the surface, or when miners 
encounter dangerous or explosive gases. Wearable AR devices have the 
additional added benefit of providing worker localization, allowing 
teams to remain in contact when miners lose visual contact with their 
teammates, and enabling the rapid localization of workers when 
emergency attention is needed.
                                 ______
                                 
     Response to Written Question Submitted by Hon. John Thune to 
                          Stanley Pierre-Louis
    Question. As the potential applications for augmented reality grow, 
it is important to address cybersecurity risks to consumer and business 
information and computer generated visuals. How can companies use 
existing, voluntary guidance on best practices, such as those from the 
National Institute of Standards and Technology, and enhanced cyber-
threat information sharing to assist in cybersecurity efforts?
    Answer. Developers of augmented and mixed reality products and 
services rely on common communications tools and networks. These 
include, among other things, personal computers, mobile and other 
handheld devices, video game consoles, communications networks, servers 
and various types of network-connected storage. Like their peers, 
developers of augmented and mixed reality products and services must 
assess potential vulnerabilities in order to defend their systems, 
products and information from threats posed by malicious actors.
    The National Institute of Standards and Technology's (``NIST'') 
voluntary cybersecurity framework serves as a critical tool for any 
organization looking to establish and/or improve its procedures for 
assessing, managing and reducing cybersecurity risk. Although the NIST 
framework focuses on protecting critical infrastructure, such as 
transportation, water and communications systems, several of its 
priorities apply more broadly, including:

  <bullet> protecting, defending and securing information 
        infrastructure and digital networks;

  <bullet> innovating and accelerating investment for the security and 
        growth of digital networks and the digital economy;

  <bullet> enhancing cybersecurity workforce capabilities; and

  <bullet> ensuring an open, fair, competitive and secure global 
        digital economy for companies and consumers alike.\1\
---------------------------------------------------------------------------
    \1\ Commission on Enhancing National Cybersecurity, Report on 
Securing and Growing the Digital Economy (Dec. 1, 2016), https://
www.nist.gov/document/cybersecurity-commission-report-final-postpdf.

    The NIST framework provides a coherent baseline for corporate 
cybersecurity management programs and has the added benefit of being 
easy to understand by nontechnical professionals. Its design can help 
organizations craft a cybersecurity program or improve an existing one. 
It creates a common language for organizations to understand their 
cybersecurity posture, set goals for cybersecurity improvements, 
monitor their progress and foster communications internally and 
externally. Stakeholders should continue to improve upon this 
framework, but adoption should remain voluntary based on the individual 
needs of each organization.
    Companies can also avail themselves of other resources offered by 
Federal agencies, including automated alerts published by NIST, the 
United States Computer Emergency Readiness Team (``US-CERT'') and the 
Federal Bureau of Investigation (``FBI''), all of which serve as key 
resources regarding security threats, incidents, vulnerabilities and 
even critical software updates.
    In addition, the Cybersecurity Information Sharing Act of 2015, 
along with the creation of Information Sharing and Analysis 
Organizations, will likely facilitate the dissemination of critical 
information regarding cybersecurity threats and defensive measures.
                                 ______
                                 
    Response to Written Questions Submitted by Hon. Marco Rubio to 
                          Stanley Pierre-Louis
    Question 1. As we conduct our oversight role as lawmakers, how can 
we ensure that technology start-ups, like Magic Leap, are able to 
continue to advance in the 21st century economy without imposing 
unnecessary red tape?
    Answer. Succeeding in the digital economy depends largely on access 
to talent, capital and consumers. The government can assist that effort 
by minimizing restrictions on each of these components, thereby 
reducing barriers to markets--especially for start-ups and other small 
businesses.
    Access to talent requires a workforce equipped to innovate. For the 
video game industry, special emphasis is placed on candidates steeped 
in STEM (Science, Technology, Engineering and Mathematics) and STEAM 
(STEM + Arts) education as video games require both technology and 
content creation skillsets. Smarter investment in education and in job 
training programs would serve to bolster the pipeline for a workforce 
in the tech and creative content sectors.
    Access to capital requires incentive-based market conditions 
created by policies that encourage investment. At the Federal level, 
this means adopting tax policies that spur economic activity for 
business and eliminating regulations that restrain economic growth 
opportunities.
    Access to consumers requires a state-of-the-art, networked and 
secure infrastructure available in all regions of the country. Broader 
broadband deployment in both metropolitan and rural areas would create 
new opportunities to reach consumers where they are and widen consumer 
offerings.
    For start-ups, the success factors outlined above are all the more 
critical. Magic Leap, for example, launched in 2010 in a region not 
traditionally known for tech start-ups (Ft. Lauderdale, FL). 
Nonetheless, it has attracted more than 800 employees and raised more 
than $1.4B in investment capital to work towards its mission to create 
a new technology platform. That platform has the potential to transform 
applications in fields as varied as entertainment, medicine and 
engineering. Regulating its future before it has the opportunity to 
come to market would undercut American entrepreneurial initiative and 
technological innovation at a critical juncture.

    Question 2. In your opinion, would current regulations placed on 
the gaming and computer industry be appropriate to apply to this new 
generation technology?
    Answer. Federal laws and regulations covering the video game and 
computer industries, such as privacy and data security, have proven to 
be sufficiently robust to protect consumer interests while remaining 
flexible enough to allow industries to innovate and deliver products 
and services to customers specified to their needs. Moreover, in each 
state and territory, laws governing negligence, trespass, privacy, data 
protection and product liability are commonplace. In short, today's 
legal framework should prove sufficient and adaptable to cover new 
technologies like augmented and mixed reality.
    ESA's members are committed to meaningful privacy and data security 
protections. A hallmark of the video game industry remains its creation 
of a voluntary program that educates consumers about the content they 
purchase. As noted in our earlier testimony, in 1994, the video game 
industry launched the Entertainment Software Rating Board (``ESRB''), a 
non-profit, self-regulatory body that assigns ratings for video games 
and apps so parents can make informed choices. The ESRB rating system 
encompasses guidance about age-appropriateness, content and interactive 
elements. The Federal Trade Commission (``FTC'') has repeatedly praised 
the effectiveness of the ESRB rating system, our industry's compliance 
with the system and its acceptance among parents.\2\ Notwithstanding 
this support, several states passed ``harmful to minors'' legislation 
seeking to stop the sale of certain games. In 2011, however, the U.S. 
Supreme Court recognized in Brown v. Entertainment Merchants 
Association that video games are expressive works that enjoy the same 
First Amendment protections as ``books, plays, and movies.'' \3\ In an 
opinion by the late Justice Antonin Scalia, the Supreme Court rejected 
the argument that ``video games present special problems'' because they 
are ``interactive,'' noting that ``interactivity'' has always been the 
goal of expressive works: ``the better it is, the more interactive.'' 
\4\
---------------------------------------------------------------------------
    \2\ See FTC Undercover Shopper Survey on Entertainment Ratings 
Enforcement Finds Compliance Highest among Video Game Sellers and Movie 
Theaters (March 25, 2013), https://www.ftc.gov/news-events/
pressreleases/2013/03/ftc-undercover-shopper-survey-entertainment-
ratings-enforcement; FTC, Marketing Violent Entertainment to Children, 
28, 30 (Dec. 2009), https://www.ftc.gov/reports/marketing-violent-
entertainmentchildren-sixth-follow-review-industry-practices-motion; 
and FTC, Marketing Violent Entertainment to Children, 27, 29, C-18, 
(April 2007), https://www.ftc.gov/reports/marketing-violent-
entertainment-children-fifth-follow-reviewindustry-practices-motion.
    \3\ 564 U.S. 786, 790 (2011).
    \4\ Id. at 798.
---------------------------------------------------------------------------
    The Supreme Court left little doubt that our foundational laws 
governing speech are well-equipped to address emerging technologies 
like augmented and mixed reality. Still, threats to First Amendment and 
other freedoms may arise as new products and experiences come to 
market. Instead, government should encourage industry to continue to 
foster voluntary, self-regulatory programs that create awareness while 
seeking to secure consumer adoption.

    Question 3. Autism is an issue I feel very passionate about and 
have worked on going back to my time in the Florida legislature. Some 
have suggested that augmented reality games can benefit people on the 
autism spectrum in terms of getting them out of the house and 
developing their social skills. Is the industry doing any of its own 
scientific research to determine the actual benefits of augmented 
gaming to people on the autism spectrum?
    Answer. We applaud your commitment to improving the lives of those 
living with autism spectrum disorders.
    Medical research continues to improve the diagnosis, prevention and 
treatment of autism and its associated medical conditions. As your 
question suggests, the use of augmented reality and GPS location-based 
games have been used to encourage those on the autism spectrum to 
explore their surroundings and develop social interaction skills.\5\ 
According to an educator who has conducted studies on the use of 
computer games to address autism, the visual stimuli in certain games 
improve the learning process for autistic persons.\6\ Other researchers 
have noted that the social nature certain games helps increase sensory 
input, build family bonds, promote social acceptance and inclusion, 
encourage reciprocal conversations and create a sense of 
accomplishment.\7\
---------------------------------------------------------------------------
    \5\ While some medical professionals and researchers have made use 
of certain video games to address autism, we are not aware of any video 
game developers making claims that gameplay provides medical benefits 
to autism patients.
    \6\ Samantha Finch, ``Pokemon Go'' & Autism: Augmented Reality 
Game's Success in Getting Autistic Children Out Of Their Comfort Zone, 
Parent Herald (July 18, 2016), http://www
.parentherald.com/articles/55253/20160718/pok%C3%A9mon-go-autism-
augmented-reality-game-s-success-getting-autistic.htm.
    \7\ Malinda Robedeau, Pokemon Go: Life Changing Benefits for those 
with Autism, GT Independence (Aug. 23, 2016), https://
www.gtindependence.com/pokemon-go-life-changing-benefits-for-those-
with-autism/.
---------------------------------------------------------------------------
    More broadly, medical researchers have employed augmented reality 
games to enhance social interaction and hand-eye coordination in 
children with autism. These researchers found that the games appeared 
to help ease the patients into becoming more comfortable around 
unfamiliar people.\8\ They also observed that these games appeared to 
improve concentration and imagination because of their repetitive 
movement and visual feedback. In addition, some researchers believe 
that augmented reality games may improve the ability of those with 
autism to read social cues and learn to pretend play.\9\
---------------------------------------------------------------------------
    \8\ S.K. Bhatt, et al., Augmented Reality Game Therapy for Children 
with Autism Spectrum Disorder, Int'l Journal on Smart Sensing and 
Intelligent Systems, Vol. 7, No. 2 (March 2014), www.s2is.org/Issues/
v7/n2/papers/paper5.pdf; see also Laura Bartoli, et al., Exploring 
Motion-Based Touchless Games for Autistic Children's Learning, ACM 
(June 2013), www.asso
ciazioneastrolabio.it/wp-content/uploads/2014/04/Articolo-New-York.pdf; 
see also Lizbeth Escobedo, et al., Using Augmented Reality to Help 
Children with Autism Stay Focused, IEEE Pervasive Computing (Jan. 
2014), https://www.researchgate.net/publication/260526735_Using
_Augmented_Reality_to_Help_Children_with_Autism_Stay_Focused.
    \9\ Olivia Reese, Autism and Google Glass: Augmented Reality 
Headwear Teaches Autistic People To Read Social Cues & Emotions, Parent 
Herald (Sept. 23, 2016), http://www.parent
herald.com/articles/68752/20160923/autism-googleglass-augmented-
reality-headwear-teaches-autistic-people-read.htm; see also Monica 
Rozenfeld, Augmented Reality Can Help Children With Autism Tap Into 
Their Imaginations, The Institute (April 1, 2015), http://
theinstitute.ieee.org/technology-topics/consumer-electronics/augmented-
reality-can-help-children-withautism-tap-into-their-imaginations.
---------------------------------------------------------------------------
    As mentioned in earlier testimony, Microsoft is already selling its 
mixed reality visor, called HoloLens, to developers. Applications under 
development include several business, engineering and architectural 
projects. In the health field, uses of HoloLens include:

  <bullet> assisting medical students with anatomy curriculum at Case 
        Western's medical schools;\10\
---------------------------------------------------------------------------
    \10\ Kathryn Jeffords, Virtual and Augmented Reality: Changing the 
Game in Healthcare, Science Media Awards Summit in the Hub (June 29, 
2016), www.s2is.org/Issues/v7/n2/papers/paper5.pdf.

  <bullet> early testing by Duke University doctors to assist with 
        brain surgery;\11\
---------------------------------------------------------------------------
    \11\ Laurent Giret, Doctors at Duke University are Testing HoloLens 
Assisted Brain Surgery, OnMSFT (October 2016), https://www.onmsft.com/
news/doctors-at-duke-university-are-testing-hololens-assisted-brain-
surgery.

  <bullet> use by spinal surgeons in Brazil to perform more accurate 
        spinal fusions;\12\ and
---------------------------------------------------------------------------
    \12\ Megan Wood, Kathryn Jeffords, Brazilian Surgeons Utilize 
Microsoft's HoloLens for Spinal Fusions: 5 Highlights, Becker's Spine 
Review (Dec. 5, 2016), http://www.beckersspine.com/orthopedic-a-spine-
device-a-implantnews/item/34413-brazilian-surgeons-utilize-microsoft-s-
hololens
-for-spinal-fusions-5-highlights.html.

  <bullet> enabling medical students to practice abdominal examinations 
        with a physical simulator before facing real patients.\13\
---------------------------------------------------------------------------
    \13\ See Medical Simulation demonstration, https://www.youtube.com/
watch?v=JGiVVObY0Ew.

    Applications of HoloLens to address autism have yet to occur. 
However, researchers at the Lakeside Center for Autism (Washington) as 
well as at the College of Staten Island (New York) have begun to employ 
a motion-based technology developed by Microsoft, known as Kinect, to 
study whether its use can improve the lives of autistic children by 
encouraging physical and educational activities.\14\
---------------------------------------------------------------------------
    \14\ See Lakeside Center for Autism demonstration, https://
www.youtube.com/watch?v=uuP6
d42hK8k; see College of Staten Island demonstration, http://
www.playfitness.com/autism-research-project-edu.

    Question 4. What would you say our high schools and universities 
can be doing better in the coming years to ensure that people in 
Florida and in the United States acquire the skills and preparation to 
fill these jobs?
    Answer. As noted above, jobs in the digital economy will 
increasingly rely on STEM and STEAM skillsets. For students, this may 
mean placing more emphasis on coding, engineering and other computer-
related coursework. For those already in the workforce who need to 
transition to a job in a technology field (particularly in rural 
areas), this may mean acquiring new skills through re-training 
programs. Augmented and mixed reality technologies promise to play a 
role in both scenarios.
    For its part, the video game industry has worked diligently to 
encourage educational initiatives that expand opportunities in the 
digital economy, including through:

  <bullet> the National STEM Video Game Challenge, an annual game 
        design competition that challenges students and developers to 
        create original games that stimulate interest in science, 
        technology, engineering and math learning;\15\
---------------------------------------------------------------------------
    \15\ See http://stemchallenge.org/featured/national-stem-video-
game-challenge-launches-fifth-competition/.

  <bullet> the ESA LOFT (Leaders on the Fast Track) Video Game 
        Innovation Fellows program, which, in collaboration with the 
        Hispanic Heritage Foundation (HHF), encourages minorities ages 
        15-25 to create original video games and apps to address social 
        issues in their communities;\16\ and
---------------------------------------------------------------------------
    \16\ See http://www.loftcsl.org/esa_loft_fellowship.

  <bullet> the ESA Foundation, which awards scholarships to the next 
        generation of industry innovators and supports charitable 
        organizations and schools that leverage entertainment software 
        and technology to create meaningful opportunities for America's 
        youth.\17\
---------------------------------------------------------------------------
    \17\ See http://www.esafoundation.org/.

    Our industry has also partnered with the U.S. Department of 
Education to create ED Games Day, which entails a mini-conference that 
highlights video games created as tools for learning as well as a 
``game jam'' and research presentations on educational games.\18\ In 
addition, ESA has sponsored education-related events at E3, its annual 
industry expo.\19\ And, ESA works with EverFi, an education technology 
innovator, on the ESA Digital Living Project, which combines the power 
of cutting-edge instructional design, rich media, online video games 
and real world simulations to educate middle school and high school 
students about technology, digital literacy and career opportunities in 
STEM fields. Since the program's inception, the ESA Digital Living 
Project has reached nearly 20,000 students across three states.\20\
---------------------------------------------------------------------------
    \18\ See http://blog.ed.gov/2016/01/ed-games-day-comes-to-
washington-d-c/.
    \19\ Tony Wan, Video Game Industry Gives Education a Reboot at E3 
2015, EdSurge News (June 21, 2015), https://www.edsurge.com/news/2015-
06-21-video-game-industry-gives-education-a-reboot-at-e3-2015.
    \20\ See info.everfi.com/rs/everfi/images/
ESA_PressRelease_May%2019_FINAL.pdf (May 19, 2014).
---------------------------------------------------------------------------
    We look forward to continued work with educators to help prepare 
students for the next wave of opportunities made possible by these 
technologies.

    Question 5. What message would you like to send to educators and 
students alike about the industry's future and the opportunities it 
presents?
    Answer. The video game industry sits at the intersection of 
creativity and innovation. We bring together the best minds in 
interactive content development and technology to entertain audiences 
around the world. Our industry also has proven to be a strong engine 
for economic growth. In 2015, the industry generated more than $23.5 
billion in revenue in the United States, and it directly and indirectly 
employed more than 146,000 people.\21\ Also in 2015, there were 1,641 
video game companies in the United States, including 60 in Florida, 
where games like NFL Madden 17 by EA Sports are made.\22\ Moreover, the 
average compensation for a video game industry employee was nearly 
$95,000.\23\ In addition, some 406 U.S. colleges and universities had 
video game design programs in 2015, including at least 20 in 
Florida.\24\ In short, the video game industry remains on a growth 
trajectory, creating a never-ending quest to recruit the best and 
brightest.
---------------------------------------------------------------------------
    \21\ See ESA 2015 Annual Report, http://www.theesa.com/wp-content/
uploads/2016/04/ESA-Annual-Report-20151.pdf, and Video Games in the 
21st Century, The 2014 Report, http://www.theesa.com/wp-content/
uploads/2014/11/VideoGames21stCentury_2014.pdf.
    \22\ See http://www.theesa.com/article/new-research-underscores-
breadth-and-vibrancy-of-u-s-video-game-industry/; see also http://
www.theesa.com/about-esa/courses-certificates-degree-programs/.
    \23\ See Video Games in the 21st Century, The 2014 Report, http://
www.theesa.com/wp-content/uploads/2014/11/
VideoGames21stCentury_2014.pdf. Overall, the average annual 2015 
compensation paid to core copyright workers is $93,221, which far 
exceeds the average annual compensation paid to all U.S. workers--
$67,715--amounting to a 38 percent ``compensation premium'' over the 
average U.S. annual wage. See http://www.iipawebsite.com/pdf/
2016CpyrtRpt
Full.PDF.
    \24\ See http://www.theesa.com/about-esa/courses-certificates-
degree-programs/. In fact, the Princeton Review ranks three Florida 
universities among the ``Top 25 Graduate Schools to Study Game Design 
for 2016,'' including the University of Miami. See https://
www.princeton
review.com/press/game-design-press-release.
---------------------------------------------------------------------------
    However, national statistics regarding digital literacy have 
highlighted the need to provide more STEM and STEAM education around 
the country. In 2015, of the nearly 3.8 million ninth graders in the 
country, only six percent were expected to choose a STEM-focused degree 
in college.\25\ Video games may prove crucial to attracting and 
retaining students in STEM and STEAM fields.\26\ In fact, a recent 
study found that combining video games with other subjects, including 
those in the STEM and STEAM fields, doubled the amount of women in 
those educational programs and boasted an 88 percent retention 
rate.\27\
---------------------------------------------------------------------------
    \25\ See ESA 2015 Annual Report, http://www.theesa.com/wp-content/
uploads/2016/04/ESA-Annual-Report-20151.pdf.
    \26\ Jessica Trybus, Game-Based Learning: What it is, Why it Works, 
and Where it's Going, New Media Institute (2014), http://
www.newmedia.org/game-based-learning--what-it-is-why-it-works-and-
where-its-going.html.
    \27\ Rich Taylor, Opportunities to Learn, Work With Video Games 
Multiply, Huffington Post (Nov. 11, 2015), http://
www.huffingtonpost.com/rich-taylor/opportunities-to-learn-wo_b_8538
426.html; see also Priming the Pump 2015: Higher Education Video Game 
Alliance Survey of Program Graduates (2015), http://docplayer.net/
5662014Priming-the-pump-2015-higher-education-video-game-alliance-
survey-of-program-graduates.html.
---------------------------------------------------------------------------
    We encourage educators to embrace STEM and technology education 
opportunities, leverage technology in a safe and effective manner and 
create active pathways for career success in STEM, STEAM and other 
related fields.

    Question 6. The interface created by these new technologies can be 
a tremendous asset to the Department of Defense, especially for 
training. How can the Department of Defense collaborate with innovators 
to push the limits of mixed reality technologies to ensure our men and 
women in uniform continue to be the best trained and equipped fighting 
force on this Earth?
    Answer. The military has made extensive use of augmented and mixed 
reality technologies for training and battlefield operations.
    In training, augmented and mixed reality technologies have been 
used to improve upon conventional methods by providing more a 
realistic, immersive experience for the trainees while reducing costs 
for the military.\28\ These technologies simulate real-life 
environments, targets and threat situations, whether in flight, at sea 
or on the ground. They enable the military to train on scenarios that 
are too difficult, dangerous and/or costly to practice in the field or 
even in a conventional simulation.\29\ These technologies also make 
learning more effective by providing the option of training scenarios 
at multiple levels of difficulty.\30\ And, they can train soldiers on 
the capabilities and maintenance of vehicles and other equipment under 
various conditions.\31\
---------------------------------------------------------------------------
    \28\ See Augmented Reality, U.S. Naval Research Laboratory, https:/
/www.nrl.navy.mil/itd/imda/research/5581/augmented-reality.
    \29\ Oliver Baus, et al., Moving from Virtual Reality Exposure-
Based Therapy to Augmented Reality Exposure-Based Therapy: A Review, 
Frontiers in Human Neuroscience (March 4, 2014), http://
journal.frontiersin.org/article/10.3389/fnhum.2014.00112/full.
    \30\ Id.
    \31\ Sabine Webel, et al., An Augmented Reality Training Platform 
for Assembly and Maintenance Skills, Robotics and Autonomous Systems, 
Vol. 61, Issue 4 (April 2013) at pp. 398-403, http://
www.sciencedirect.com/science/article/pii/S0921889012001674.
---------------------------------------------------------------------------
    In combat, augmented and mixed reality technologies have the 
potential to address innumerable challenges. For example, using 
augmented reality visors, a soldier can have data superimposed in her 
field of view in real time, thereby maintaining her gaze on the 
battlefield while processing the information rather than by looking 
down at a phone or a laptop.\32\ Soldiers and intelligence centers can 
share real-time updates on battlefield conditions, geo-location of 
allies and target coordinates.\33\ These technologies can also provide 
immersive functionality, like ``X-ray vision,'' which enables the 
soldier to see an object (e.g., an enemy) that is obstructed by another 
object (e.g., wreckage).\34\ And, these technologies can serve a 
filtering function by using algorithms to limit the quantity and type 
of information displayed to each user.\35\
---------------------------------------------------------------------------
    \32\ Andrew Rosenblum, Augmented Reality Glasses are Coming to the 
Battlefield, Popular Science (April 22, 2015), http://www.popsci.com/
experimental-ar-glasses-offer-marines-hands-free-intel.
    \33\ Id.
    \34\ See Augmented Reality, U.S. Naval Research Laboratory, https:/
/www.nrl.navy.mil/itd/imda/research/5581/augmented-reality.
    \35\ Id.
---------------------------------------------------------------------------
    Growing the potential applications of augmented and mixed reality 
technologies for military readiness will require an investment in 
research and talent development.

    Question 7. Much of the attention towards augmented, virtual, and 
mixed reality technologies have been devoted towards gaming and 
entertainment purposes. I believe companies such as Magic Leap and 
Microsoft have good reasons to be focusing on the business application 
for this interface. Can you elaborate on how such technology platforms 
could help increase productivity in the workplace or increase learning 
and proficiency for students?
    Answer. The video game industry's use of augmented and mixed 
reality technologies will focus primarily on engaging audiences to 
entertainment them. However, other uses of these technology platforms 
appear ripe for enhancing workplace productivity and classroom 
learning.
    In the workplace, emerging business applications include heads-up 
displays in manufacturing systems to support complex production 
processes, collaborative product design and prototyping; remote 
assistance from engineers and technicians; medical systems that enable 
surgeons to access relevant data during surgery without being 
distracted; and education and training.\36\ Experts predict that the 
business applications of these technologies will multiply exponentially 
as more businesses begin to adopt them.\37\ In fact, some think that 
these technologies will entirely change the way we do business. For 
example, collaboration among remote employees could become seamless; 
with augmented reality and mixed reality, it could be as if every 
employee were in the same room and able to write on the same white 
board. Employee training could be transformed from a one-dimensional 
experience to a completely immersive one, in which the employee can 
practice a task in a simulated, real-world setting.\38\ In fact, 
Microsoft is working with educational publisher Pearson to use the 
HoloLens to create a number of learning tools, including online 
tutoring and coaching in areas as disparate as nursing, engineering and 
construction.\39\
---------------------------------------------------------------------------
    \36\ See AR and Wearable Tech is a Marriage Made for the Enterprise 
says Beecham Research (Jan. 20, 2016), http://www.realwire.com/
releases/AR-and-wearable-tech-is-a-marriage-made-for-the-enterprise-
says-Beecham.
    \37\ Adam C. Uzialko, Augmented Reality Check: Innovative Ways 
Businesses are Embracing AR, Business News Daily (July 18, 2016), 
http://www.businessnewsdaily.com/9245-augmented-reality-for-
business.html.
    \38\ Id.
    \39\ Mark Coppock, Microsoft and Pearson are partnering to Turn 
HoloLens into an Educational Tool, Digital Trends (Oct. 26, 2016), 
http://www.digitaltrends.com/computing/pearson-hololens-mixed-reality-
education/.
---------------------------------------------------------------------------
    Augmented and mixed reality technologies are similarly valuable in 
the classroom setting. The most visceral advantage is the immersive, 
interactive nature of these technologies. According to a leading 
professor of education, ``[r]esearch shows that interacting with 
[augmented reality] alone improves students' understanding of a 
concept.'' \40\ Use of this technology can transform the abstract into 
something real and tangible that a student can see, hear and with which 
the student can interact.\41\
---------------------------------------------------------------------------
    \40\ Susan A. Yoon, The Educator's Playbook: The Role of Augmented 
Reality in a Lesson Plan, Penn GSE Newsroom (2016), http://
www.gse.upenn.edu/news/educators-playbook/role-augmented-reality-
lesson-plan.
    \41\ Aaron Burch, The Top Ten Companies Working on Education in 
Virtual Reality and Augmented Reality, Touchstone Research (June 2, 
2016), https://touchstoneresearch.com/the-top-10-companies-working-on-
education-in-virtualreality-and-augmented-reality/.
---------------------------------------------------------------------------
                                 ______
                                 
     Response to Written Question Submitted by Hon. Joe Manchin to 
                          Stanley Pierre-Louis
    Question. As a former Governor and in my role as a United States 
Senator, I have remained committed to enhancing the job climate in my 
state so that West Virginians have good paying jobs and the skills to 
compete in the global economy. Part of this job growth is going to come 
from the technology sector. We are beginning to see an uptick in 
technology startups in different parts of the state, but I believe 
there are opportunities for tools such as augmented reality to enhance 
workforce training.
    The technological advancements of the 21st century should not leave 
rural communities behind, and as West Virginia continues to develop its 
technology sector and train its workforce: How can augmented reality be 
used to train workers in the digital economy?
    Answer. In our written and oral testimony for the November 16, 
2016, hearing on augmented and mixed reality before the U.S. Senate 
Committee on Commerce, Science, and Transportation, we highlighted how 
these technologies offer new ways for video game companies to create 
highly-expressive, immersive works for the purpose of entertaining our 
audiences. As described below, these technologies also enable 
applications that can benefit other industries and workers in rural 
communities.
    Deploying augmented reality solutions can create impactful training 
programs that improve employee engagement, productivity and safety.\1\ 
According to one research study, augmented reality ``has matured to a 
point where organizations can use it as an internal tool to complement 
and enhance business processes, workflows and employee training.'' \2\ 
Importantly, this is true not only of technology-based industries, but 
traditional industries as well.
---------------------------------------------------------------------------
    \1\ See Augmented Reality: A New Workforce Mobilization Paradigm, 
Cognizant (October 2015), https://www.cognizant.com/
InsightsWhitepapers/Augmented-Reality-A-New-Workforce-Mobilization-
Paradigm-codex1434.pdf; see also Tommy Hynes, Is there a Place for 
Augmented Reality in the Workplace, Equator HR, http://
www.equatorhr.com/blog/is-there-a-place-for-augmented-reality-in-the-
workplace.
    \2\ See Gartner Says Augmented Reality Will Become an Important 
Workplace Tool, Gartner (January 14, 2014), http://www.gartner.com/
newsroom/id/2649315.
---------------------------------------------------------------------------
    For example, the agricultural sector has developed several uses of 
augmented reality to assist farmers with their work:

  <bullet> Solutions have been developed to allow farmers to predict 
        crop yield by using three-dimensional visualizations on mobile 
        devices.\3\
---------------------------------------------------------------------------
    \3\ See Augmented Reality Farming, ICEsoft Blog (July 16, 2013), 
http://www.icesoft.org/blog/augmented-reality-farming/; see also 
https://www.youtube.com/watch?v=qrZYb5aa44k.

  <bullet> Augmented reality prototypes have been built to assist 
        farmers in insect identification and pest management.\4\
---------------------------------------------------------------------------
    \4\ A. Nigam, et al., Augmented Reality in Agriculture (October 
2011), http://ieeexplore.ieee.org/document/6085361/.

  <bullet> Equipment manufacturers are working on ways to use augmented 
        reality to assist in equipment use and maintenance as well as 
        to compile data to help farmers and other workers perform their 
        daily tasks.\5\ In fact, at a recent conference, the equipment 
        manufacturer Caterpillar demonstrated how the use of 
        Microsoft's mixed reality headset, known as HoloLens, could be 
        used to help consumers visualize its vehicles.\6\
---------------------------------------------------------------------------
    \5\ See https://www.youtube.com/watch?v=VGtCQWROytw.
    \6\ John Callaham, Microsoft HoloLens Can Bring a Caterpillar 
Loader from a Flat Catalog to a Full Size 3D Model, (March 31, 2016), 
http://www.windowscentral.com/microsoft-hololens-can-bring-caterpillar-
loader-flat-catalog-full-size-3d-model; see also https://
www.youtube.com/watch?v=e8AirvNicNs.

    The mining sector has employed augmented reality to address worker 
training; improve safety and productivity; and adapt to skills 
shortages and worker turnover.\7\ In the shipbuilding sector, augmented 
reality solutions are being developed to visually enhance worker 
training and access to information required for job performance, 
``including steps [for task completion], cautions, knowledge from 
expert workers, schematics and any other digitized data.'' \8\ Through 
the use of this technology, a worker with a mobile device would have 
access to 3-D product models; planning and training for future work; 
step-by-step maintenance instructions; and safety information.\9\ And 
in the aerospace sector, Lockheed Martin has collaborated on augmented 
reality projects to speed up the maintenance process for F-22 and F-35 
fighter jets, such that ``[w]hen an engineer looks at the aircraft 
using the smart glasses, they see digitally displayed plans projected 
over the physical plane,'' and ``[t]hey can then use a tablet to enter 
any damage or defects.'' \10\
---------------------------------------------------------------------------
    \7\ J. Bassan, et al., The Augmented Mine Worker: Applications of 
Augmented Reality in Mining (November 2011), https://
www.researchgate.net/profile/J_Bassan/publication/274067824_
The_Augmented_Mine_Worker_-
_Applications_of_Augmented_Reality_in_Mining/links/
5513d2120cf283ee083491d7.pdf; F. Benes, et al., Application of 
Augmented Reality in Mining Industry, SGEM (October 1, 2014), http://
sgem.org/sgemlib/spip.php?article4002.
    \8\ G. Marshall, Closing the Nation's Skills Gap, Industry Week 
(January 13, 2016), http://www.industryweek.com/education-training/
closing-nations-skills-gap.
    \9\ Id.
    \10\ See Augmented Reality and Workplace Training, SpongeUK (June 
19, 2015), http://spongeuk.com/2015/06/augmented-reality-and-workplace-
training/.
---------------------------------------------------------------------------
    While augmented reality will serve an important role in training--
and re-training--today's workforce, it promises to be equally important 
as a tool to prepare tomorrow's workforce for the competitive jobs 
landscape that awaits them. Experts have noted that augmented reality 
provides a more immersive, interactive means to teach students STEM 
(Science, Technology, Engineering and Mathematics) and STEAM (STEM + 
Arts) subjects.\11\ In addition, a recent study found that programs 
that combine video game coursework with other subjects boasted an 88 
percent retention rate.\12\ In fact, video game design programs have 
served as successful means to attract and retain interest in STEM and 
STEAM careers more broadly.\13\
---------------------------------------------------------------------------
    \11\ See, e.g., Susan A. Yoon, The Educator's Playbook: The Role of 
Augmented Reality in a Lesson Plan, Penn GSE Newsroom (2016), http://
www.gse.upenn.edu/news/educators-playbook/role-augmented-reality-
lesson-plan (``Research shows that interacting with [augmented reality] 
alone improves students' understanding of a concept.'').
    \12\ Rich Taylor, Opportunities to Learn, Work With Video Games 
Multiply, Huffington Post (Nov. 11, 2015), http://
www.huffingtonpost.com/rich-taylor/opportunities-to-learn-wo_b_8538
426.html (noting that the study also found that combining video games 
with other subjects also doubled the number of women in these 
educational programs); see also Priming the Pump 2015: Higher Education 
Video Game Alliance Survey of Program Graduates (2015), http://
docplayer.net/5662014-Priming-the-pump-2015-higher-education-video-
game-alliance-survey-of-program-graduates.html.
    \13\ Jessica Trybus, Game-Based Learning: What it is, Why it Works, 
and Where it's Going, New Media Institute (2014), http://
www.newmedia.org/game-based-learning--what-it-is-why-it-works-and-
where-its-going.html.
---------------------------------------------------------------------------
    For its part, West Virginia boasts several programs that emphasize 
STEM and STEAM education. For example, several schools--including West 
Virginia University's Institute of Technology, Marshall University, 
Shephard University, Mountwest Community and Technical College, among 
others--offer programs or courses in video game design.\14\ In 
addition, the state has piloted programs like Globaloria to teach 
secondary education students coding, web design and game development 
skills.\15\
---------------------------------------------------------------------------
    \14\ In 2010, the Princeton Review ranked Marshall University's 
video game design program among the ``Top 50 Undergraduate Schools to 
Study Game Design Programs.'' See http://www.marshall.edu/
pressrelease.asp?ID=1935.
    \15\ See http://www.wvcpd.org/globaloria.aspx.
---------------------------------------------------------------------------
    We encourage policymakers, educators and industry players alike to 
embrace technology education opportunities. By way of example, several 
Appalachian coal miners recently transitioned into coding careers 
through the work of an innovative company looking to tap into its local 
talent pool as a resource.\16\ Workers in the digital economy will 
increasingly need to rely on STEM and STEAM skillsets, no matter where 
their jobs are located.
---------------------------------------------------------------------------
    \16\ Erica Peterson, From Coal To Code: A New Path For Laid-Off 
Miners In Kentucky, NPR (May 6, 2016), http://www.npr.org/sections/
alltechconsidered/2016/05/06/477033781/from-coal-to-code-a-new-path-
for-laid-off-miners-in-kentucky; see also Tim Loh, Appalachian Miners 
Are Learning to Code (Feb. 2, 2016), https://www.bloomberg.com/news/
articles/2016-02-03/from-coal-to-coding-appalachian-miners-getting-a-
fresh-start.
---------------------------------------------------------------------------
    We appreciate the opportunity to participate in this important 
dialogue and stand ready to assist the Committee on its ongoing work in 
this area.

                                  [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
